<html>
<title> - ENERGY EFFICIENCY AT THE U.S. DEPARTMENT OF VETERANS AFFAIRS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
                        ENERGY EFFICIENCY AT THE
                  U.S. DEPARTMENT OF VETERANS AFFAIRS

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 30, 2009

                               __________

                           Serial No. 111-46

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
53-431                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                           September 30, 2009

                                                                   Page
Energy Efficiency at the U.S. Department of Veterans Affairs.....     1

                           OPENING STATEMENTS

Chairman Bob Filner..............................................     1
    Prepared statement of Chairman Filner........................    46
Hon. Steve Buyer, Ranking Republican Member......................     2
Hon. John J. Hall, prepared statement of.........................    46

                               WITNESSES

U.S. General Services Administration, Kevin Kampschroer, Acting 
  Director, Office of Federal High-Performance Green Buildings...    23
    Prepared statement of Mr. Kampschroer........................    69
U.S. Department of Energy, Richard G. Kidd IV, Program Manager, 
  Federal Energy Management Program, Office of Energy Efficiency 
  and Renewable Energy...........................................    25
    Prepared statement of Mr. Kidd...............................    72
U.S. Department of Veterans Affairs, James M. Sullivan, Director, 
  Office of Asset Enterprise Management..........................    38
    Prepared statement of Mr. Sullivan...........................    79

                                 ______

Center for Maximum Potential Building Systems, Austin, TX, Gail 
  Vittori, Co-Director...........................................     4
    Prepared statement of Ms. Vittori............................    47
Center for Environmental Innovation in Roofing, James L. Hoff, 
  DBA, Director of Research......................................    10
    Prepared statement of Dr. Hoff...............................    66
Green Building Initiative, Jane M. Rohde, AIA, FIIDA, ACHA, 
  AAHID, Principal and Founder, JRS Associates, Inc..............     8
    Prepared statement of Ms. Rohde..............................    59
U.S. Green Building Council, Thomas W. Hicks, Executive Director, 
  Building Performance Initiative................................     6
    Prepared statement of Mr. Hicks..............................    53

                       SUBMISSION FOR THE RECORD

Mitchell, Hon. Harry E., a Representative in Congress from the 
  State of Arizona...............................................    82

                   MATERIAL SUBMITTED FOR THE RECORD

Background Material:

  Chart Showing July 2009 Management Scorecards--Summary.........    83

Post-Hearing Questions and Responses for the Record:

  Hon. Bob Filner, Chairman, Committee on Veterans' Affairs to 
    Gail Vittori, Co-Director, Center for Maximum Potential 
    Building Systems, letter dated October 2, 2009, and response 
    memorandum dated November 13, 2009...........................    83
  Hon. Bob Filner, Chairman, Committee on Veterans' Affairs to 
    Thomas W. Hicks, Executive Director, Building Performance 
    Initiative, U.S. Green Building Council, letter dated October 
    2, 2009, and response letter dated November 9, 2009..........    85
  Hon. Bob Filner, Chairman, Committee on Veterans' Affairs to 
    Jane M. Rohde, Principal, JSR Associates, Inc., letter dated 
    October 2, 2009, and response letter dated October 28, 2009..    87
  Hon. Bob Filner, Chairman, Committee on Veterans' Affairs to 
    James L. Hoff, DBA, Director of Research, Center for 
    Environmental Innovation in Roofing, letter dated October 2, 
    2009, and Mr. Hoff's responses...............................    90
  Hon. Bob Filner, Chairman, Committee on Veterans' Affairs to 
    Hon. Steven Chu, Secretary, U.S. Department of Energy, letter 
    dated October 2, 2009, and response from Betty A. Nolan, 
    Senior Advisor, Congressional and Intergovernmental Affairs, 
    U.S. Department of Energy, letter dated November 19, 2009....    92
  Hon. Bob Filner, Chairman, Committee on Veterans' Affairs to 
    Hon. Eric K. Shinseki, Secretary, U.S. Department of Veterans 
    Affairs, letter dated October 2, 2009, and VA responses......    93
  Hon. Steve Buyer, Ranking Republican Member, Committee on 
    Veterans' Affairs to Gail Vittori, Chair, Executive 
    Committee, U.S. Green Building Council, and Co-Director, 
    Center for Maximum Potential Building Systems, letter dated 
    October 16, 2009, and response memorandum dated November 13, 
    2009.........................................................    95
  Hon. Steve Buyer, Ranking Republican Member, Committee on 
    Veterans' Affairs to Thomas W. Hicks, Executive Director, 
    Building Performance Initiative, U.S. Green Building Council, 
    letter dated October 16, 2009, and response letter dated 
    November 9, 2009.............................................    98
  Hon. Steve Buyer, Ranking Republican Member, Committee on 
    Veterans' Affairs to Ward Hubbell, President, The Green 
    Building Initiative, letter dated October 16, 2009, and 
    response letter from Jane M. Rohde, Principal, JSR 
    Associates, Inc., letter dated October 21, 2009..............    99
  Hon. Steve Buyer, Ranking Republican Member, Committee on 
    Veterans' Affairs to James L. Hoff, DBA, Research Director, 
    Center for Environmental Innovation in Roofing, letter dated 
    October 16, 2009, and response letter dated February 1, 2010.   103


                        ENERGY EFFICIENCY AT THE
                  U.S. DEPARTMENT OF VETERANS AFFAIRS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 30, 2009

                     U.S. House of Representatives,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 10:01 a.m., in 
Room 334, Cannon House Office Building, Hon. Bob Filner 
[Chairman of the Committee] presiding.
    Present: Representatives Filner, Michaud, Hall, Perriello, 
Rodriguez, Donnelly, Adler, Buyer, Brown of South Carolina, 
Bilbray, and Roe.

              OPENING STATEMENT OF CHAIRMAN FILNER

    The Chairman. Good morning. If the first panel will be 
seated, we will introduce you.
    Mr. Buyer. Good morning.
    The Chairman. Good morning.
    Good morning. This meeting of the Committee on Veterans' 
Affairs will come to order.
    I ask unanimous consent that all Members may have 5 
legislative days in which to revise and extend their remarks. 
Hearing no objection, so ordered.
    I want to thank everybody for being here today.
    The fact is that the U.S. Department of Veterans Affairs 
(VA) is the third highest energy user among agencies in the 
Federal Government and third highest in water consumption. So 
its footprint is significant and efforts to be in the forefront 
of conservation and reduction are necessary and important.
    All Federal agencies have to make sure to set an example 
for energy, water, and fuel conservation. If we are asking 
other Members of our society, corporations and individuals, we 
have to set the example.
    I am pleased that the VA has reported to our Committee that 
it is taking extraordinary efforts to not only meet the goals 
of the President's Executive Order, but exceed them.
    For as much as the VA is accomplishing, I am equally 
curious to hear what our panel of industry experts have to say 
about the VA's progress. The experts we will hear from today 
will add great value to the dialog and make thoughtful 
recommendations for the future.
    The VA was allocated $405 million in the American Recovery 
and Reinvestment Act (ARRA) funds to accelerate critical 
programs to reduce the environmental footprint of the 
Department and the VA has set some very aggressive goals in 
this area.
    I am eager to hear how the VA plans to execute and sustain 
these goals of energy, water, and fuel usage reductions while 
constructing and renovating sustainable buildings and utilizing 
the $400 million to its maximum potential.
    We will continue in this Committee to monitor VA's actions 
as it works to increase energy efficiency and provide results 
for our veterans and our taxpayers.
    I am looking forward to this hearing. Mr. Buyer, you are 
recognized for an opening statement.
    [The prepared statement of Chairman Filner appears on p. 
46.]

             OPENING STATEMENT OF HON. STEVE BUYER

    Mr. Buyer. Thank you very much.
    I would like to welcome everyone to today's hearing on 
increasing energy efficiency and sustainability within the 
Department of Veterans Affairs. I greatly appreciate the 
opportunity for this discussion.
    It is important on multiple levels. One, the need for 
energy independence on a national level is becoming even more 
critical given the political uncertainty in the world and given 
the bad actors of whom we, the United States, do business with.
    Also compelling is the need to reduce pollutants that harm 
our environment. And from a more tightly focused Committee 
perspective, conserving energy and financial resources allows 
the VA to use each dollar saved directly for veterans' health 
care.
    Shortly after the 111th Congress convened, the Health 
Subcommittee Chairman, Mike Michaud, and I introduced H.R. 292, 
the ``Department of Veterans Affairs Energy Sustainability Act 
of 2009,'' to require the development and implementation of VA 
energy conservation plans. This legislation is a step forward 
enabling the VA to become more energy efficient and sustainable 
for the future by requiring the Secretary to develop and 
implement a comprehensive program on energy sustainability.
    The bill would also require the creation of a firm baseline 
database on energy and water usage and expenditures throughout 
the VA and the National Cemetery Administration (NCA) upon 
which the VA can gauge its progress for energy sustainability 
and efficiency.
    The bill would also provide VA with necessary tools to 
increase their energy conservation and sustainability programs 
by permitting the installation of energy efficient and 
renewable energy systems in the Department buildings, much of 
which, Mr. Sullivan, you are doing right now and I applaud you 
on your efforts. We will get a chance to discuss that soon.
    Also, I am very interested in the development of the 
building envelope systems as we design these new hospitals. And 
that will also be important in our discussions here today.
    Also using electrical submetering in the Department 
buildings providing for Energy Star and other energy efficient 
purchasing and allowing the Department to use the expertise of 
the National Laboratories regarding energy and water efficient 
technologies in order to meet the VA's sustainability goals.
    It makes good business sense to reduce wasteful spending at 
the VA on inefficient energy systems so that this funding can 
be used, as I said, to better assist our veterans.
    Chairman Michaud and I are pleased to have the support of 
other Members of the Committee. Mr. Chairman, I thank you for 
holding the hearing so we can further explore these very, very 
important issues.
    I had requested a legislative hearing on the bill. While 
that has not been made to date, I believe that we are going to 
be able to work together as a Committee on this very, very 
important issue.
    The Federal Government should be at the forefront, and the 
VA ranks sixth highest in energy consumption among all Federal 
agencies and it has an opportunity to make a significant 
impact. With hundreds of facilities nationwide, including 
hospitals, outpatient clinics, regional offices, the VA should 
set the example for wise use of alternative energy resources 
such as solar, wind, and geothermal.
    And, Mr. Sullivan, you are moving out smartly to do just 
that and I am quite certain the Chairman and other Members of 
the Committee join me in congratulating you and the Secretary 
for that.
    New VA construction and major renovation projects must be 
forward looking and incorporate the most cost-effective 
building mechanical systems as outlined in the VA's newly 
developed sustainability and energy reduction design guide.
    With the new facilities coming online, whether it is New 
Orleans, Las Vegas, Orlando, we also have Denver as well as the 
National Cemetery plans for Bakersfield, California, and 
Philadelphia, these types of designs will be very fruitful.
    So I want to thank the witnesses today for bringing your 
expertise to the table. We look forward to your testimony.
    And, Mr. Chairman, I yield back.
    The Chairman. Thank you, Mr. Buyer.
    We welcome the first panel and we thank you for being here. 
Gail Vittori is the Co-Director of the Center for Maximum 
Potential Building Systems. Tom Hicks is the Executive 
Director, Building Performance Initiative of the U.S. Green 
Building Council (USGBC). Jane Rohde is the Principal and 
Founder of JSR Associates, and she is here on behalf of the 
Green Building Initiative (GBI). James Hoff is Director of 
Research for the Center of Environmental Innovation in Roofing.
    Again, we thank you for joining us. Your complete statement 
will be made a part of the record and we ask for an oral 
statement of about 5 minutes.
    Ms. Vittori, we will start with your testimony. Thank you 
again for being here.

  STATEMENTS OF GAIL VITTORI, CO-DIRECTOR, CENTER FOR MAXIMUM 
   POTENTIAL BUILDING SYSTEMS, AUSTIN, TX; THOMAS W. HICKS, 
EXECUTIVE DIRECTOR, BUILDING PERFORMANCE INITIATIVE, U.S. GREEN 
   BUILDING COUNCIL; JANE M. ROHDE, AIA, FIIDA, ACHA, AAHID, 
PRINCIPLE AND FOUNDER, JRS ASSOCIATES, INC., ON BEHALF OF GREEN 
   BUILDING INITIATIVE; AND JAMES L. HOFF, DBA, DIRECTOR OF 
    RESEARCH, CENTER FOR ENVIRONMENTAL INNOVATION IN ROOFING

                   STATEMENT OF GAIL VITTORI

    Ms. Vittori. Thank you, Chairman Filner and Ranking Member 
Buyer.
    I would like to take advantage of this opportunity to 
testify about the role that the Department of Veterans Affairs 
and the Federal Government can play in improving the energy 
efficiency and sustainability of VA facilities and, in 
particular, your health care facilities.
    As was said, my name is Gail Vittori and I am the Co-
Director of the Center for Maximum Potential Building Systems, 
a nonprofit organization established in 1975 and based in 
Austin, Texas. I also have the privilege of serving as the 
Board Chair of the U.S. Green Building Council.
    I want to emphasize today five key elements for 21st 
Century, high-performance healing environments, recognizing 
that each of these are consistent with patient care and safety 
and wise stewardship of resources.
    First, buildings do matter. There is ample evidence that 
green hospitals accelerate patient healing and enhance medical 
staff well-being and productivity.
    Just a quick example. One study found that nurses with 
access to a view in their break rooms had a 40-percent 
reduction in medical error rate. If I were a patient, I would 
want to be in a hospital that provided my nurses a window with 
a view and wouldn't each of you?
    Hospitals should fundamentally be healing environments that 
create a workplace where medical professionals want to work and 
where they do their work well and also that enhance patient 
healing.
    Similar studies have found the same correlation that 
windows in a patient's room also will enhance and accelerate 
healing. In fact, green hospitals correlate with positive staff 
recruitment and retention, which is a significant bottom line 
benefit.
    Second, opportunities to dramatically reduce hospital 
energy and water use are abundant, many with a rapid return on 
investment. Hospitals, as you know, on average are more than 
two times as energy intensive as commercial office buildings.
    Lighting, just as one example, represents 42 percent of 
U.S. hospitals' electrical use. A systematic relamping program, 
just as one example, of existing hospitals and advanced 
lighting design for new hospitals can reap significant energy 
savings, reduce greenhouse gas and other environmental 
pollutants, and lower operating costs while enhancing the 
healing environment.
    According to the U.S. Environmental Protection Agency 
(EPA), each dollar invested in energy efficiency in the health 
care sector is equivalent to generating new revenues of $20 for 
hospitals and $10 for medical office buildings. Every dollar 
saved through energy and water efficiency can be redirected to 
patient care that is important in delivering the best care 
possible to our Nation's veterans.
    Third, I know for many of you the issue of first cost is 
your first and last question. A study completed earlier this 
year of 13 Leadership in Energy and Environmental Design 
(LEED)-certified health care facilities found that green health 
care facilities need not cost more than nongreen buildings with 
a zero to 5 percent first cost premium and no correlation to 
size or LEED certification level.
    The study further established a trend toward lower first 
cost premiums over time and the benefits of integrated design. 
These findings bode well for hospitals being designed today.
    Fourth, life cycle cost analysis for procurement decisions, 
this is extremely important. Accounting for economic and 
measurable performance indicators such as patient length of 
stay, recruitment, retention, medical error, environmental 
externalities, and dissolving the divide between first costs 
and operations and maintenance costs is a common-sense 
opportunity to advance best value, data-driven design 
decisions, and especially true for owner-occupied, long-lived 
buildings such as hospitals. In its absence, we often end up 
making well-intentioned but short-sighted decisions and bear 
long-term costs.
    And, finally, collaborate with industry peers on research, 
best practices, and lessons learned. This investment avoids 
duplication of effort and reinventing the wheel and raises the 
bar across the entire sector. Not only can the VA pursue these 
strategies, they cannot afford not to.
    Across the country, projects are demonstrating the real and 
significant benefits of green and energy efficient health care 
facilities and the VA is among the leaders in doing this.
    To date, there are about 90 registered Green Guide for 
Health Care projects representing an estimated 70 million 
square feet of green health care facilities and 440 LEED-
registered and certified health care projects. Sixty-five of 
these represent more than 6 million gross square feet.
    In addition, 48 acute care and children's hospitals have 
earned the EPA's Energy Star designation. Fifteen of these are 
Department of Veterans Affairs hospitals.
    The first LEED platinum certified hospital in the world, 
Dell Children's Medical Center, has many stories to tell. It is 
a great example of a truly high-performance healing environment 
designed to reduce direct energy use by over 17 percent and 
save 1.4 million gallons of water.
    They also are telling a real life story every day of how 
much difference a building can make in supporting patient 
healing and staff well-being.
    Just as one example, over their first year of operation, 
nursing turnover was about 2.4 percent compared to 10 to 15 
percent as a national average. The cost to replace just one 
nurse at Dell is about $70,000.
    The Department of Veterans Affairs is taking note of these 
opportunities and currently has 18 health care facilities 
registered in the LEED rating system.
    Chairman Filner and Ranking Member Buyer, thank you very 
much for your leadership in convening this critical hearing. I 
look forward to working with the Committee, the Department of 
Veterans Affairs, and other stakeholders to help improve energy 
efficiency and sustainability of the Department of Veterans 
Affairs so that patient healing can be enhanced, staff well-
being can be enhanced, and to make a very key contribution to 
ensuring that we have healthy communities and healthy 
ecosystems.
    [The prepared statement of Ms. Vittori appears on p. 47.]
    The Chairman. Thank you so much.
    Mr. Hicks.

                  STATEMENT OF THOMAS W. HICKS

    Mr. Hicks. Thank you, Chairman Filner and Ranking Member 
Buyer and the Members of the Committee, for the opportunity to 
appear before you today to discuss energy efficiency, 
sustainability at the U.S. Department of Veterans Affairs.
    My name is Tom Hicks and I lead the Building Performance 
Initiative for the U.S. Green Building Council, which is a 
nonprofit organization committed to a prosperous and 
sustainable future through cost-effective and energy saving 
green buildings.
    With a membership of 78 local chapters, 20,000 member 
companies and organizations, the U.S. Green Building Council is 
the driving force working to advance more environmentally 
responsible, healthy, and profitable buildings.
    The impact of and opportunities within the building sector 
are extraordinary. Buildings in the United States are 
responsible for 40 percent of the CO<INF>2</INF> emissions, 
nearly 14 percent of the potable water use, and comprise 
roughly 14 percent of the gross domestic product, making green 
building a source of significant economic and environmental 
opportunity to reduce the impact of these buildings while 
saving money.
    A recent study from McKinsey and Company reports that an 
investment in energy efficiency, including building energy 
efficiency, could generate more than $1.2 trillion in energy 
savings, reduce energy consumption by 23 percent, and reduce 
annual greenhouse gas emissions by 1.1 gigatons by 2020.
    This would have the same environmental impact as taking the 
entire fleet of U.S. passenger vehicles and light trucks off 
the road.
    With the short time I have today, I would like to focus my 
comments on two broad themes. First, the Federal Government and 
the Department of Veterans Affairs is and has been the leader 
in energy efficiency and green building. Federal agencies have 
a tremendous responsibility and power to continue to lead by 
example and move the building sector to even higher levels of 
achievement.
    Second, the government sector, both existing buildings and 
new construction, is an area of great opportunity to save 
taxpayers money, create jobs, and save energy and water while 
protecting the environment.
    For over a decade now, during my time at USGBC and prior to 
that with the EPA before that, I have been working to advance 
green building and energy efficient buildings across the Nation 
and around the globe. I have had the opportunity to work with 
countless leaders and non-governmental organizations in 
industry and in government who have worked tirelessly to 
accelerate the uptake of green building in the marketplace and 
to ensure that this green building revolution touches 
everybody.
    My experiences have shown me that leadership, whether it is 
paving a path forward, overcoming obstacles, or pioneering new 
best practices, has proven to be successful for shifting the 
market toward sustainability.
    As the owner, tenant, or manager of more than 3.3 billion 
square feet of building space valued at more than $700 billion, 
the Federal Government has the country's largest real estate 
portfolio, including many of the Nation's most recognized and 
cherished landmarks. With this vast portfolio comes the power 
to forge a greener, more energy efficient, healthier, and 
prosperous path for the Nation's buildings and communities.
    By leveraging the unparalleled purchasing power of the 
taxpayer dollars to support green building, the Federal 
Government can not only reduce its significant environmental 
footprint but also speed the adoption of green building 
strategies by the private sector and save real dollars and 
resources through reduced utility bills and operating costs.
    Recognizing the impact of the Federal building sector, 13 
Federal agencies and departments have made policy commitments 
to use or encourage LEED certification. Some 24 million square 
feet of federally-owned or leased building space is currently 
certified under LEED and more than 400 million square feet of 
space is registered with LEED.
    These policies, coupled with various policies referencing 
LEED in 34 States and more than 100 localities, are having a 
marked impact on the larger green building landscape. To date, 
more than 23,000 building projects are registered with LEED and 
more than 3,600 have earned LEED certification. This includes 
the LEED silver certified regional field office in Reno, 
Nevada, for the VA and VA's 18 other registered projects.
    With a diverse real estate portfolio, the VA is doing more 
to make its portfolio energy efficient and sustainable. In 
recent months, VA has pursued a number of far-reaching 
sustainability projects through the use of funds provided by 
the American Recovery and Reinvestment Act. Significantly, the 
agency is dedicating roughly $399 million of the $1 billion 
provided for medical facilities operated by the Veterans Health 
Administration (VHA) to energy efficiency and renewable energy 
projects.
    The USGBC applauds the Department's commitment to 
sustainability and encourages it to leverage the recovery funds 
to even greener ends.
    As I mentioned in my written remarks, the opportunity to 
leverage its funding for energy and financial savings in the 
Federal sector is huge. Financing vehicles such as energy 
performance contracts allow funds spent on efficiency to go 
well beyond the impact of simply spending dollars on direct 
costs.
    In addition, once efficiency measures are in place, if the 
Federal Government were to perform tune-ups or recommission its 
entire building stock, it could achieve an estimated 15-percent 
reduction in energy use in each building that is commissioned 
and generate more than $650 million in annual savings and 
eliminate roughly 2.7 million tons of carbon in 1 year.
    In conclusion, I would like to thank the Veterans' Affairs 
Committee for the opportunity to discuss the Department of 
Veterans Affairs and its work in transforming our Nation's 
buildings. USGBC looks forward to working with the Committee 
and the Department to ensure that the energy savings and 
environmental potential of our public buildings are realized.
    Thank you.
    [The prepared statement of Mr. Hicks appears on p. 53.]
    The Chairman. Thank you very much.
    Ms. Rohde.

                   STATEMENT OF JANE M. ROHDE

    Ms. Rohde. Chairman Filner, Ranking Member Buyer, and 
Members of the Committee----
    The Chairman. Could you press the button for your 
microphone?
    Ms. Rohde. I apologize.
    Chairman Filner, Ranking Member Buyer, and Members of the 
Committee, thank you for the opportunity to discuss my 
experience evaluating the sustainability of VA hospitals using 
the Green Building Initiative's Green Globes Rating System.
    I am the Principal and Founder of JSR Associates, 
Incorporated, a senior living and health care consulting firm. 
As an architect with more than 20 years of experience, I 
participate on many design Committees, including the Guidelines 
for Design and Construction of Healthcare Facilities which is 
code in at least 44 States and referenced as a guide by the VA.
    Today I am speaking on behalf of the Green Building 
Initiative, a nonprofit organization that brought the Green 
Globes Building Rating System to the United States in the year 
2005.
    The Green Globe System is a Web-based tool being used by 21 
VA hospitals to meet the Federal requirements outlined in the 
guiding principles. Green Globes for Continual Improvement of 
Existing Buildings, CIEB, was the module used.
    During the process, VA energy managers were asked to 
complete an electronic survey of their medical center and 
report their findings. Important items requested during this 
evaluation are monthly energy and water consumption from 
utility bills, information on transportation practices that 
minimize energy consumption, and other data that describe 
policies related to containing emissions, promoting recycling, 
and monitoring indoor environmental issues.
    Additionally, the Green Globe System recognizes progress in 
reducing energy consumption through the use of the Energy Star 
rating system. By evaluating operational energy and source 
energy through Energy Star and by using life cycle assessment 
tools, the Green Globes Rating System can help building owners 
identify a building's carbon footprint and cycles for 
improvement.
    Once the initial Green Globe survey is completed in-house, 
the team is then provided with an automated report with an 
initial score and opportunities for improvement. This 
automatically generated report is based on the Green Globes 
protocol, which assigns a number of points to each answer based 
on desirable outcomes.
    The report is for the internal team's use to evaluate the 
recommendations for improvements to the medical facility and 
its operations.
    Following this evaluation, a third-party assessor visits 
the building to audit the team's documented outcomes, interview 
key staff, complete a walk-through, and determine if the 
building qualifies for Green Globe certification.
    As a third-party assessor, I have visited 15 out of the 21 
hospitals that are working to complete the Green Globes 
evaluation and certification process.
    While we are still in the early stages of evaluating the VA 
hospitals, I can tell you that these facilities are doing 
extremely well in their efforts to comply with Federal 
sustainability requirements.
    It is clear to me that in addition to receiving valuable 
feedback and recognition from this process, many of the VA's 
best practices in sustainability will provide valuable case 
studies to benefit the health care facilities in the private 
sector.
    I would like to provide you with some of the creative ideas 
and programs that are currently proposed or being completed at 
VA hospitals across the country.
    Richmond, Virginia, has a proposed project to complete an 
arboretum that would not only be a site enhancement, but will 
reduce heat island effect, reduce water runoff, provide a 
resource for the veterans and their families, and create an 
opportunity for engaging the community at large.
    And Portland, Oregon, has a boiler chiller plant supervisor 
training program that is exemplary, including an educational 
manual and on-site training tools. They are able to share their 
expertise with not only trainees but other locations that need 
assistance with additional improvement in energy and water 
consumption.
    Dallas, Texas, is in the process of completing an ethanol 
fueling station for the VA and other governmental agencies for 
their flexible fuel fleet vehicles.
    Birmingham, Alabama, located in a tight urban block, is 
evaluating using an existing underground spring for recovery 
water for the cooling tower.
    San Diego, California, has one of the strongest recycling 
programs across the board. This site as well as Milwaukee, 
Portland, and Seattle are excellent examples of systems that 
are working to reduce use of natural resources.
    Because continual improvement is just that, continual, it 
is important to realize that ongoing efforts are what make a 
hospital sustainable. Tools and certification programs like 
Green Globes allow VA staff to conduct periodic assessments 
that then empower them to be the drivers of initiatives for 
improvement that can be qualified and quantified over time.
    The next steps for VA, and I assume all Federal agencies, 
will be to do the deeper dive on their portfolios. Continuing 
such an assessment program will help to achieve the largest 
potential energy and water savings across all of VA health care 
facilities, not only hospitals, but the full range of VA 
facilities, including CBOCs, which are community-based 
outpatient clinics, CLCs, which are Community Living Centers 
that are for long-term care residents, Hospice Palliative care, 
and Polytrauma Centers.
    To do this, they need multiple tools like Green Globes to 
help make surveying, measurement, evaluation, and regular 
benchmarking part of their ongoing process.
    It is clear that the VA hospitals that have been assessed 
are on a positive path for sustainability improvement. I am 
fortunate to be part of this groundbreaking initiative, 
assessing firsthand the creativity, the potential, and the 
amazing outcomes that are sure to manifest as a result of this 
ongoing evaluation and certification process.
    Thank you.
    [The prepared statement of Ms. Rohde appears on p. 59.]
    The Chairman. Thank you very much.
    Dr. Hoff.

                STATEMENT OF JAMES L. HOFF, DBA

    Dr. Hoff. Good morning. Thank you, Chairman Filner, Ranking 
Member Buyer, and Members of the Committee.
    My name is Dr. James Hoff and I serve as Research Director 
for the Center for Environmental Innovation in Roofing in 
Washington.
    The mission of the Center is to serve as a unified voice of 
the roofing industry in matters relating to the energy and 
environmental benefits afforded by modern roofing systems.
    Our membership includes roofing contractors, roofing 
materials manufacturers, construction designers, and building 
researchers, all interested in a common goal of raising public 
awareness of the importance of our Nation's rooftops and their 
strategic value in reducing energy consumption, mitigating 
environmental impact, and enhancing the quality of the 
buildings in which we all live and work.
    My mission before the Committee this morning is to raise 
awareness of roofing's contribution to energy efficiency and 
the many different ways our Nation's rooftops can be used to 
meet broader goals of reducing energy consumption.
    In addition, I would like to express the Center's support 
of important energy initiatives already undertaken by the 
Department of Veterans Affairs. And, finally, I would like to 
recommend some additional actions to help assure that the 
important energy efficiency goals of the Department are fully 
realized on the rooftops of all VA facilities.
    Few locations offer as many opportunities to transform our 
building environment as our Nation's rooftops. Occupying over 
200 billion square feet of surface area, they serve as a major 
resource for energy efficiency, a ready platform for the 
production of clean energy, and a vital shield of health and 
safety over our homes and businesses.
    In terms of energy efficiency, we estimate that if just the 
commercial and institutional roofs in the United States were 
insulated at the levels envisioned by the Energy Policy Act of 
2005, annual energy cost savings would exceed $2 billion.
    In terms of clean energy production, we estimate a 
conservative contribution from rooftop solar and wind power 
would exceed the annual production of 12 Grand Coulee dams.
    Given this combination of sizeable national roofing 
inventory and the many new energy technologies available, the 
roofing industry also offers an outstanding opportunity for 
developing a new generation of highly skilled, high-paying 
green jobs.
    According to 2002 census data, over 225,000 Americans are 
employed in the roofing industry. Roofing contractors already 
generate $21 billion annually in completed roofing 
installations. And with new energy saving and energy producing 
technologies that can be added to these installations, this 
overall economic contribution is certain to increase 
significantly, especially in terms of new high-paying job 
skills.
    As stated previously, the Center would like to express its 
support of the important energy initiatives already undertaken 
by the Department of Veterans Affairs, especially as embodied 
in the Department's Green Building Action Plan. This plan 
establishes overall targets and broad operating principles 
consistent with the energy targets of the Energy Policy Act of 
2005 and the Energy Independence and Security Act of 2007.
    Since the enactment of this legislation, however, our 
Nation's energy standards have been revised upward and even 
higher levels of these consensus standards are anticipated 
within the year. Because building energy standards continue to 
evolve, the Center recommends the Department's Green Building 
Action Plan be revised to reflect the most recent national 
building energy standards as published by the American Society 
of Heating, Refrigerating and Air Conditioning Engineers.
    In addition, because the re-roofing of existing Department 
facilities generally falls outside the new building or major 
renovation activities addressed by the Green Building Action 
Plan of the Department, the Center recommends that specific 
energy efficiency targets be established for all VA roofing 
projects, again based on the most recent national building 
energy standards.
    Finally, because durability in roof system design is 
critical, especially if the roof is also to serve as a platform 
for renewable energy production, the center strongly recommends 
that roof condition assessment be included as a mandatory 
element in all renewable energy design contracts.
    Additional information regarding these recommendations is 
included in the larger written statement provided to the 
Committee. And the Center would be happy to discuss or clarify 
any of these recommendations with Committee staff.
    Thank you again for the opportunity to speak before the 
Committee and thank you for your continuing interest in 
applying sound energy policy to the management and operation of 
the Department's building inventory.
    [The prepared statement of Mr. Hoff appears on p. 66.]
    The Chairman. Thank you all very much. It was very 
enlightening. We will now have some questions from the 
Committee.
    Mr. Hall, if you want to start off?
    Mr. Hall. Thank you, Mr. Chairman, for acknowledging me. 
And I would like to identify myself with your remarks and those 
of the Ranking Member, Mr. Buyer, before our panel spoke. And I 
appreciate your indulgence because I have a double booking as 
many of us do this morning.
    And I have a statement I will enter into the record. I will 
not go into all of it, but this is indirectly connected as was 
mentioned by the Ranking Member.
    [The prepared statement of Congressman Hall appears on p. 
46.]
    Mr. Hall. Our veterans right now are being created by 
conflicts that we are involved in in parts of the world where 
they happen to have large amounts of energy, oil in particular, 
that we, if we pull the rug out from under the Jihad as some of 
our friends in Israel have suggested, knowing firsthand where 
the funding is going, we may actually find ourselves not 
healing our veterans more quickly if their nurses do not make 
as many medical errors but defunding those who we are fighting. 
So it is very important.
    My question, I guess, to all panelists is these ideas are 
really exciting. I mean, the thoughts of flat roofs like those 
at West Point, which I represent and I am on the Board of 
Directors of, being converted to reflective surfaces or solar 
surfaces so you do not have the heat island effect and you are 
reflecting the sun's energy and/or turning it into electricity 
or that you are collecting rainwater and using it for watering 
lawns or washing cars or other things instead of using potable 
water, so that conservation of energy and the conservation of 
water can be done simultaneously.
    My question to all of you because we have in my district, 
as many of us do in our districts, we have older buildings. It 
is easier, I think, when you are starting out with a new design 
to achieve some of these things.
    But when you are dealing with old VA buildings that are 
perhaps under the Capital Asset Realignment for Enhanced 
Services Commission's purview and they are trying to decide 
what buildings to keep, which ones to upgrade and so on, have 
you seen or do you have any ideas for the success, 
achievability of success in converting older buildings to such 
efficiency and energy generation or energy savings?
    Ms. Vittori, perhaps you could start.
    Ms. Vittori. Sure. I would be happy to begin. Great 
questions.
    In fact, we find that with existing buildings, which are 
really the largest percentage of buildings as we look forward, 
there are many opportunities, in particular for hospitals 
because they are such intensive energy users, a comprehensive 
audit of looking at what parts of the profile are representing 
the largest energy users.
    As I mentioned in my comments, lighting is 42 percent of 
electrical use. So a comprehensive relamping program is going 
to dramatically drop the operating energy use budget of the 
hospital. That is significant. A 24/7 operating building's 
lighting obviously is a big percentage, so that is not 
surprising. And we know that there is significant advancement 
in lighting technology that is giving reliable lighting. It is 
going to last a long time, which is what you want, and also 
high-quality lighting which also enhances the healing 
environment.
    A comprehensive retro-commissioning to ensure that the 
mechanical equipment is actually operating as it is designed is 
another one of those low-hanging fruit opportunities. Training 
facility staff so that they understand proper operations and 
maintenance protocols, investing in that will reap huge 
returns.
    And just as an example, I know that the VA has a number of 
these initiatives underway. There is a system in the Midwest, 
Gundersen Lutheran, which has taken a comprehensive view of 
their existing buildings and new construction with the goal to 
be carbon neutral by 2014, so just in 5 years, and they are 
doing that through a stepped process, which I have in detail 
laid out in my written testimony. So I encourage you to look at 
that.
    Thank you.
    Mr. Hall. Thank you.
    Mr. Hicks.
    Mr. Hicks. I think to answer that question specifically and 
to understand the opportunity, I think one of the things that 
is key is being able to properly manage and to properly manage, 
you need to properly measure.
    And I think to the credit of the VA, a lot of what they 
have done over the past several years is to do just that, 
certainly on their energy use as it relates to using the EPA's 
Energy Star tool to be able to benchmark their energy use to 
understand where they are today.
    And I think doing that and taking it out across their 
portfolio of buildings and then looking at other opportunities 
beyond energy use, so understanding how their water use is 
relative to other industry norms.
    I think once that is understood, those choices as to 
whether a building is right for a whole building retrofit or 
some other solution has to come into play will bear itself out.
    But regardless, there are low-cost, no-cost opportunities 
for these buildings to look at, whether it is commissioning and 
retro-commissioning, whether it is tune-ups to other parts of 
the building, and these are opportunities that exist throughout 
and should be done prior to any assessment as to whether a 
building is, you know, is one that should be kind of kept or 
whether a new building should be built.
    Mr. Hall. Mr. Chairman, my time has expired.
    The Chairman. Ms. Rohde, would you like to add anything?
    Ms. Rohde. I have a couple comments, if I may.
    The Chairman. Please.
    Ms. Rohde. And to your point, it was a great question for 
me because I have been spending a lot of time inside your VA 
hospitals.
    From the 15 hospitals that I have seen, using thermal 
imaging for all the hospitals to detect thermal leaks in the 
envelope would be an excellent recommendation overall which 
ties to the earlier testimony.
    We have two hospitals so far that have done that for their 
roofing and they have actually been able to see some savings 
now that they have been repairing their roofs accordingly.
    Create a task force to include IT departments and the 
energy managers, which is an established position within the VA 
hospital to review opportunities to reduce time that computers 
are turned on in nonessential areas. That is one plug load area 
that I think needs to be evaluated and could help a lot within 
the VA hospitals specifically.
    Create a task force to include food service management, 
canteen management, and procurement and acquisitions, and to 
potentially localize contracts to reduce inherent energy and 
transportation costs of products that are made locally and are 
available locally.
    Recommend discussion between National Science Foundation 
(NSF), Veterans Affairs Central Office (VACO), and the EPA to 
evaluate kitchen equipment for energy and water conservation 
compliance. We do not quite have as much information available 
on the commercial side of the kitchen equipment to address some 
of those issues that I think would be good.
    Continue to monitor and benchmark water usage and energy 
usage comparatively to uniques. Uniques are different patient 
types. And what you will see is if you have an increase in 
unique patient types and staff increases that your energy 
consumption and water needs to be evaluated against that. So 
you want to know really what your full picture is if you are 
increasing staff and patient uniques and if energy consumption 
is really going down and you are really demonstrating something 
very powerful in terms of understanding your energy 
consumption.
    Work cooperatively with GBI and other similar green 
building organizations to look at the Irrigation Association 
industry to enhance opportunities for water efficiency and site 
enhancement as this process is extended to other VA facilities, 
including cemeteries.
    Relamping programs were discussed. All the hospitals that I 
visited thus far do have a relamping process either completed 
or underway. Recommissioning has been funded by some of the 
Veterans Integrated Services Networks (VISNs) but not all 
VISNs. So depending on the VISN you are in, depends on if the 
hospital is being recommissioned or not.
    Thank you.
    The Chairman. Dr. Hoff.
    Dr. Hoff. Thank you.
    As suggested by Ms. Rohde both now and in her testimony, 
improvement tends to be incremental more than dramatic at times 
and that is why practices of continuous improvement and 
practices that take a look at changes that can be made to 
specific building elements at specific points in time are very 
important.
    I think it would be important for the Committee to realize 
that on average, the rooftops on VA facilities will be replaced 
at a rate of about four to five times the building or 
construction of new facilities.
    In the United States every year, about a billion square 
feet of roofs are installed on new buildings. About four 
billion square feet are installed on existing buildings. So 
that means that roofing offers that opportunity.
    And, secondly, these low-slope roofs that you mentioned in 
your district, very common both in your district and throughout 
the United States. It is typically the model that we utilize 
for our larger buildings.
    And that is a model that allows easy access to the existing 
roofing insulation, the easy ability to use thermal scanning 
technology and surveys that Ms. Rohde mentioned, and the 
opportunity to save existing materials and then add to those 
materials in a very economic way at the time of re-roofing.
    And so it is just that that is a probably very critical 
point in any kind of building management exercise to be sure 
that that opportunity that is four times the opportunity of new 
construction is fully realized.
    Mr. Hall. Thank you, Mr. Chairman.
    Thank you.
    The Chairman. Thank you.
    Mr. Rodriguez.
    Mr. Rodriguez. Thank you very much. And I apologize for 
being late.
    Let me ask you because all these areas are extremely 
important and I know that as we dialogue about it, the 
importance as we move forward how much we are able to 
accomplish and get done, on new construction, is anybody 
looking at, for example, we have a polytrauma center that is 
supposed to be built in San Antonio. Who is on top of that 
making sure we try use the latest technology so that we will 
not have to do something to it afterwards to make it more 
energy efficient?
    Not everybody at one time, please.
    Mr. Hicks. Well, I am not sure if I can speak to that 
facility.
    Mr. Rodriguez. Okay. Can anybody?
    The Chairman. Mr. Rodriguez, we will have a panel from the 
VA----
    Mr. Rodriguez. Okay.
    The Chairman [continuing]. Joining us, so they could 
probably answer that more directly.
    Mr. Rodriguez. So none of you are handling new 
construction? No?
    Mr. Hicks. Just, again, specifically the facility----
    Mr. Rodriguez. No. Just any new construction.
    Mr. Hicks. Sure. And I think with the LEED rating system 
that we have, it certainly addresses the, you know, the 
holistic view of what a green building, sustainable building 
is, looking at the best and the most advanced technologies to 
put in those buildings that will deliver results. And so that 
is what the LEED rating system is about.
    And the VA has used that system in their buildings. I am 
not sure about that specific facility, but that is something 
that has been used and it is a way to kind of help you deliver 
those results so that you are not leaving opportunities on the 
table.
    Mr. Rodriguez. Now, we was also mentioned, I think you 
mentioned the fact that a lot of our facilities are pretty old, 
in pretty bad shape in some cases in terms of cost 
effectiveness.
    But I think that given, in terms of the amount of, you 
know, work that needs to be done, is there anything that we 
ought to be doing in that area in order to try to move forward 
because of the possible savings that are there in order to 
revitalize some of those facilities as quickly as possible?
    Ms. Rohde. I think I can speak to that. The 15 buildings 
that I have been through, what I have learned is that if you 
have been to one VA, you have been to one VA. They are 
completely different in every aspect.
    One thing that I see that would be helpful across the board 
is people who have really strong boiler plant management, for 
example, help those facilities who do not. And I think that if 
they were to integrate that education process that they would 
actually see an advancement across the board in efficiency.
    Equipment efficiencies, each facility that I have talked 
to, they each have their perspective on what they think is 
their highest priority depending on what their goals are and 
what they have already achieved. It also depends on how long 
their manager has been in place, how long their Green 
Environmental Management Systems (GEMS) coordinator has been in 
place and a lot of other factors.
    But they have different parts of the environmental 
footprint that they are all working on in different ways. And I 
think that cross-referencing and being able to learn from one 
another, from the other hospitals would be very appropriate.
    And there are some other things that we have in terms of 
VACO listings, that we have kind of given a VA central listing, 
recommendations like the thermal imaging, for example. That is 
something that could benefit all the hospitals if it was 
funded.
    So there are those types of recommendations that are coming 
out of the facilities as we go through them.
    Mr. Rodriguez. So are you also saying then each unit or 
each area has their own priorities? Is there a need for us to 
do something to force, not force, but emphasize the importance 
of efficiency issues when it comes to energy throughout the 
system?
    Is there anything that we could do, or any recommendations 
that are out there, to help push the fact that in addition to 
their immediate priorities, which could be leaks in the 
plumbing or whatever the importance of looking at a little more 
long term in terms of energy efficiency?
    Ms. Rohde. One area that I would look at is other pilot 
programs for different renewable energy sources. You have a PV, 
photovoltaic, setup in Dallas that is being evaluated, 
potential wind, ground source heat pumps, some other areas that 
are being evaluated. I would continue those types of 
evaluations and funding those kind of evaluations because I 
think that that is going to help us see where things will lay.
    The PVs, for example, did not demonstrate as much energy 
consumption savings as was anticipated, but it does give you 
the pilot to use it as a baseline.
    And technologies, being very aware of different 
technologies that are available and being able to test them out 
at sample sites. I think that that would be very helpful as 
well.
    Mr. Rodriguez. Any major water reuse either from the roof 
or other forms?
    Ms. Rohde. There are a couple of plans, and that came out 
of recommendations. Two or three of the facilities we were 
looking at would benefit from keeping cisterns for rainwater 
collection and the rainwater collection being used not only for 
irrigation but for recovery water for the cooling towers.
    So I think that there are some real-water savings, I would 
say, and recycling and waste management are the two areas that 
need continual work in some of the facilities that we visited. 
Water conservation and consumption is a little bit harder, but 
I think the more creative the thought processes are in terms of 
developing cisterns and things, that that would be very 
applicable.
    Mr. Rodriguez. Thank you very much.
    Ms. Vittori. Just if I could make two points. One is that 
in addition to sharing data and information amongst the 
facilities overseen by the Department of Veterans Affairs, I 
think there is an extremely rich opportunity to also share with 
industry peers other large health care systems in the United 
States that are asking these same questions.
    And so pooling research, pooling best practices, pooling 
lessons learned, and so that everyone has an opportunity to 
benefit from that shared knowledge together and raise the bar 
for health care overall with the VA taking a very significant 
lead on that.
    Mr. Rodriguez. How quickly can we move on that? You know, I 
guess that requires some dialog and collaborating among all of 
them?
    Ms. Vittori. I think those opportunities are very possible. 
Large systems like Kaiser Permanente based in California, and 
Partners in Massachusetts, there are systems throughout the 
country that are representing large numbers of facilities as 
well as many, you know, individual facilities owned by entities 
both public and nonprofit.
    The other point in terms of water, because it is not only a 
natural resource issue but it has significant energy 
implications, water being so energy intensive in terms of its 
treatment and transportation.
    And you are from Texas. I am from Texas. We had just an 
unbelievably challenging summer with our drought. One of the 
opportunities to capture water in cisterns and condensate off 
of chillers and so on and redirect that for irrigation, but 
there is a real concern in health care facilities about 
infection, the potential that reclaimed water sources can 
actually challenge infection control which is of paramount 
importance.
    And so I think a very key research area knowing that we 
have instability with our water resources right now is how to 
provide some real guidance on whether or not there is concern 
about directing reclaimed water, whether it is used on 
landscape, interior courtyards, other uses in the facilities so 
that we can safely understand how to use it properly. I think 
it is exactly where we want to go. We need research to back 
that up.
    The Chairman. Thank you very much, Mr. Rodriguez.
    Mr. Michaud.
    Mr. Michaud. Thank you very much, Mr. Chairman, Mr. Ranking 
Member, for having this hearing.
    Just a couple of quick questions for the panelists.
    In your work with the VA system, have you ever run into any 
problems as it relates to procurement issues? For instance, 
something might not be on the Federal buying list, but it might 
be something that actually would be very beneficial that is my 
first question.
    And my second question, you talk about new technologies and 
thinking outside the box, so to speak, what do you do to really 
get out there and to find out what new technology is available?
    A good example is actually just earlier this week before I 
came back to DC, I met with a business that has this little 
filter that you put on your furnace before it goes into the oil 
burner. And what they were telling us was that if you have got 
an oil tank that is just sitting there, it breaks down. But 
when it goes through the filter, it actually requires it to 
burn hotter. Therefore, you need a smaller nozzle. And what 
they were telling us, if this actually works out, is you could 
save as much as ten percent because the stack temperature is 
hotter, therefore, you have got to use a smaller nozzle.
    What type of technology are you really aggressively looking 
at, number one? And the other issue is on procurement as it 
relates to what is on the list for the VA or any Federal agency 
to buy?
    Ms. Rohde. I could speak to that, if I may.
    The procurement issue that I have just seen as an 
observation is mostly that things are bought on large contract. 
So as a result, I will use food service as an example, so if 
you are using a food service company that is overall, 
overarching, that is providing things is probably trucking 
things from a lot of different distances and there is a huge 
distribution line.
    From my conversations with the different GEMS coordinators 
on site, they have mentioned that, well, I would love to use 
local whatever the material might be. However, I am tied to the 
contract through procurement and acquisitions.
    So in a sense, it is almost, in my mind, would be a task 
force recommendation of evaluating how to look at aspects of 
green in terms of how it relates to the acquisition process and 
the contracting process. So that is what I have seen in terms 
of that.
    Your second question about new technology and how do we 
address that, I think one of your best resources are your own 
people internally. There are some guys out there and women out 
there that are doing amazing things.
    In Portland, they actually use the elevators when it is 
coming down, to actually use that energy and they have figured 
out a way to harvest it.
    One of the guys has this idea about the sewer area, which I 
thought was a little scary, but that you put filters in and you 
actually use, because they are way up on a hill, and use the 
downstream to create energy.
    I mean, those are the kind of really creative ideas that 
are out there and I think they are site specific. And I think 
if you did a poll or a competition or whatever, you would be 
amazed to find out what they already know about new 
technologies that other facilities do not know anything about.
    So I think that that is what I have seen from my 
conversations with the people, really amazing people who work 
in your different VA facilities.
    Ms. Vittori. Again, on the new technologies, I would 
encourage you to share information, cast the net broadly with 
the health care sector because why should one be reinventing 
the wheel that the other one has already had great success with 
or found a surprising outcome that maybe fell short of what the 
expectation was. And so by building that knowledge base 
collectively, the Department of Veterans Affairs with the 
broader health care sector, I think you would get great return 
on that investment.
    In terms of procurement, while I do not know the specifics 
about the VA practices, my general sense is that life cycle 
cost assessment, while it is talked about, is not often put in 
play because of barriers between first cost budget constraints 
and operations and maintenance costs.
    It really is an enormous opportunity to say, particularly 
for an owner-occupied building, let us pull those together and 
so we get best value over the life of the building for 
something that might have an incremental first cost premium but 
will reap enormous return on investment over the life of the 
building, maybe even as quickly as within the year, but may be 
ruled out because it is a little bit more expensive than what 
is on contract.
    So I would encourage you to really look at life cycle cost 
assessment.
    Mr. Hicks. And I would like to just speak to maybe the 
second point on technology and how new technologies can be 
identified and deployed.
    And I think, you know, great ideas about engaging your 
existing assets within the buildings, absolutely. I also think 
taking those people and having them engage the movement. There 
are, you know, hundreds of thousands of people involved in the 
green building movement and being able to get those folks into 
those various forums where those discussions are being had, 
where the new ideas are being put out, where the new 
technologies are being discussed and vetted, I think that would 
be an outstanding place to do that.
    We have our own conference that we do, it is coming up in 6 
weeks, for 30,000 people and it is a great place for people to 
engage in those conversations. There are other forums like that 
around the U.S. and around the world that would be similar 
great opportunities to really accelerate the best practice 
about what is going on and the best technologies available.
    Dr. Hoff. I would like to just make a brief comment about 
technology, especially in terms of the building envelope, the 
cover around the building.
    After many decades of very little research in building 
envelopes, there has been a resurgence and a real acceleration 
of research in the building envelope. The only area I would 
provide somewhat of a caution, though, is that many of the 
elements that we are talking about today, sun and water, are 
also the same elements that over time tend to deteriorate and 
attack our buildings, especially at the envelope.
    I would certainly suggest to you that it is critical, 
although new technology can offer many new opportunities, it is 
important that the technology be fully evaluated in terms of 
durability.
    Really it is just like the patients that the VA works with. 
The first thing they do is try to stabilize the patient. A 
building envelope is the same way. Unless you have a stable 
building envelope that is preventing water from entering and 
attacking a building, you can have problems in the long run. 
And that means with many of these technologies, there are risks 
there and those risks should be properly addressed.
    The Chairman. Thank you.
    Mr. Buyer.
    Mr. Buyer. Thank you.
    If you will pass these to the witnesses. This is a bill 
summary of H.R. 292. I would ask each of you, this is just a 
summary, so if you could gain access to the original text. As I 
mentioned in the opening statement, Congressman Mike Michaud 
and I had introduced this bill to assist the Department of 
Veterans Affairs in becoming more energy efficient and 
sustainable.
    So I welcome you to examine the Bill that Mr. Michaud and I 
have introduced and please comment on it or any recommendations 
that you may have, please submit for the record, and I would 
appreciate that.
    [The panel of witnesses supplied comments in response to 
Congress Buyer's request in the Post-Hearing Questions and 
Responses for the Record, which appear on p. 95.]
    Dr. Hoff, one of your recommendations is that the 
Department establish an energy standard for roofs separate from 
the overall standards of the Department's green buildings 
action plan. Why is that important?
    Dr. Hoff. Thank you, Representative Buyer.
    We believe it is important for the fact that I had 
mentioned earlier, that the Department will be replacing many 
more roofs on existing buildings than installing roofs on new 
buildings.
    And because of this high replacement rate, we believe that 
the overall general guidelines or the green building guidelines 
of the VA, although very important, are much harder to manage 
specifically for re-roofing projects.
    And, secondly, many of those re-roofing projects are going 
to fall outside the broad guidelines of new facilities or major 
renovations. Typically roofing occurs separate from major 
renovations. It occurs when the roof starts to leak and not 
necessarily on a completely time basis.
    We would just simply recommend that the same principles in 
those guidelines could be better refined and specifically 
addressed to roofing and that would then allow, provide some 
assurance that as major renovations proceed in the future on 
any building that the roofing system would be adequate to meet 
the broad goals of that larger renovation.
    Mr. Buyer. Thank you.
    Mr. Hicks, there are a number of guides available for 
certifying green facilities. These systems use similar 
principles to evaluate sites, including the evaluation of 
energy and water consumption, use of renewable energy, and 
impact on the environment.
    How does the Leadership in Energy and Environmental Design, 
LEED, rating system compare with other assessment tools?
    Mr. Hicks. Thank you, Ranking Member Buyer.
    I think when you look at a variety of rating systems, and I 
have had the privilege of looking at rating systems around the 
world and talking to folks in other countries about their 
rating systems, the DNA of the rating systems, what they look 
at, the topics and how they treat those are very similar. But I 
think where the difference lies is in several areas.
    And one of the key areas is in how they go about through 
the certification process, whether it is a self-certification 
process, whether it is done through a third party, and so on. 
So I think that is a key difference that LEED brings to the 
table in employing through an organization we helped start up, 
the Green Building Certification Institute, by employing, you 
know, eight of the ten largest certification bodies around the 
world who are in the business of providing a certification to 
allow them to do that. So that is one key difference.
    I think another area is you see these systems, what their 
genesis is, where they come from. And I think one of the 
benefits of LEED is that it was designed and built by and for 
the building industry. This was not USGBC working in an ivory 
tower coming up with these ideas and then imposing those on 
those who----
    Mr. Buyer. Mr. Hicks, let me ask you this. Do you believe 
that Green Globes is a more practical and affordable than other 
facility assessment tools?
    Mr. Hicks. I do not. I think LEED is, as we have heard 
before from studies, that it is for, you know, zero to 5 
percent cost, premium first cost with those benefits coming 
back in the simple payback and the return on investment in the 
first 6 to 2 years.
    I think, you know, I would refer to the GSA's comprehensive 
study on this where they found that LEED to be the preferred 
and superior rating system.
    Mr. Buyer. Ms. Rohde, do you have a comment on that? Would 
you agree or disagree with his comments?
    Ms. Rohde. Well, I would say that there are a variety of 
rating systems that are out there and have different 
applications for different building types.
    However, I will say that the reason I worked with Green 
Globes and the reason I think it is a value is that it can be 
utilized directly by the people who are working in the 
building. So, therefore, those who have the most knowledge of 
the building, that have the most information in terms of day-
to-day operations are the ones that get to directly input into 
the tool.
    So because of the ease of use, because of the immediate 
feedback that it gives you, its focus on energy, it is 
updatable by internal resources, basically you can update it as 
you go along. For the continual improvement module, I think it 
makes for a more affordable good solution, better solution for 
improvement and review of continual improvement for existing 
buildings.
    Mr. Buyer. Are these rating systems in competition with 
each other, or are there cultural preferences here? Help me.
    Ms. Rohde. I do not know so much in my background because I 
work in both health care and senior living. One, I have had the 
barrier of using LEED tools. We have used the format check list 
information for different projects, but a lot of times it is 
the cost of the tool itself that has limited our usage.
    So as a result, we started looking at Green Globes and I 
was able to pilot that with some of my senior living campus 
projects who are similar to a hospital campus project.
    So as a result, that is why I believe that the tool is 
useful. There are pluses and minuses for all tools. I think 
that green building tools are very appropriate and very much 
needed, but that is my take on the Green Globes tool.
    Mr. Buyer. Mr. Hicks, I know my time is over, but I will 
give you the last bite here.
    Mr. Hicks. Sure. You know, I would agree. I mean, as I said 
in the opening response, you know, the rating systems or DNA is 
very similar to one another. And it really gets down to the 
cost effectiveness.
    And I think, you know, there are many studies out there 
that are looking at the cost effectiveness of LEED buildings 
and what they are delivering in terms of environmental benefit, 
in terms of their energy savings, in terms of their cost 
savings.
    I think, you know, again, LEED was developed by and for the 
building industry. It was developed in the consensus process 
and certifications being done by certification bodies that are 
in the business of certification, not individuals who are 
trained to perform that service.
    And I think it is done by the U.S. industry and I think 
that is important. This is not a tool that was imported from 
another country, via another country into this country. This 
was done by and for the U.S. industry here in the United 
States.
    Mr. Buyer. Thank you.
    The Chairman. Thank you, Mr. Buyer.
    I appreciate all of your insights.
    What struck me is that our own employees, aside from the 
macro policies that we are setting have a lot of creativity, 
energy and expertise. I am not sure that we do, and maybe Mr. 
Sullivan could address it later, but we should be mobilizing 
our employees with some incentive awards or bonuses.
    We seem to give bonuses to upper administration as our 
backlog of disability claims increases, but we are not giving 
bonuses to the people who had some of those ideas that you 
mentioned.
    It seems to me we could mobilize our 250,000-person 
workforce with some real excitement and give them some of those 
incentives and bonuses. I assume that works in big 
organizations.
    Do you want to say anything, Ms. Rohde?
    Ms. Rohde. Yes, I would like to.
    The one thing I noticed, too, is that there is a lot of 
excitement going on. The Portland folks, for example, their 
GEMS Committee is a very active Committee and they are doing 
really strong outreach. So if we could take that outreach 
program with the ``green'' package, with the, you know, 
reusable bag and the whole deal, if you could take that type of 
excitement and expand that to other areas that are having 
issues, I think you would have a good motivator.
    I know that we did talk about that in terms of how to 
motivate and that is something that is a little tricky because 
bonuses and time off and things like that are very much 
regulated in terms of being a governmental process. So that is 
something that I cannot address, but I could definitely suggest 
because I think that there are good ideas out there that could 
be honored as such.
    The Chairman. We thank you all very much for your insight. 
You have helped us all understand and guided us to look for new 
solutions in energy efficiency. Thank you for your testimony 
today.
    We will move on to the second panel. Kevin Kampschroer is 
the Acting Director of the Office of Federal High-Performance 
Green Buildings at the U.S. General Services Administration 
(GSA). Richard Kidd is the Program Manager of the Federal 
Energy Management Program (FEMP) in the Office of Energy 
Efficiency and Renewable Energy at the U.S. Department of 
Energy (DOE).
    Mr. Kidd, you win the award for the longest title for 
today.
    Again, your written statements will be made a part of the 
record and we look forward to a 5-minute oral statement.
    Mr. Kampschroer.

  STATEMENTS OF KEVIN KAMPSCHROER, ACTING DIRECTOR, OFFICE OF 
FEDERAL HIGH-PERFORMANCE GREEN BUILDINGS, U.S. GENERAL SERVICES 
   ADMINISTRATION; AND RICHARD G. KIDD IV, PROGRAM MANAGER, 
FEDERAL ENERGY MANAGEMENT PROGRAM, OFFICE OF ENERGY EFFICIENCY 
        AND RENEWABLE ENERGY, U.S. DEPARTMENT OF ENERGY

                 STATEMENT OF KEVIN KAMPSCHROER

    Mr. Kampschroer. Thank you, Chairman Filner, Ranking Member 
Buyer, and Members of this Committee.
    My name is Kevin Kampschroer. I am the Acting Director of 
the Office of Federal High-Performance Green Buildings at the 
General Services Administration.
    Thank you for inviting me today to discuss the goals for 
Federal agencies to become more energy efficient in a 
sustainable manner and thank you for accepting my written 
testimony for the record. Today I will highlight the importance 
of greening our buildings.
    GSA collaborates with other Federal agencies in developing, 
implementing, and evaluating Federal green building programs. 
We advocate the use of interagency programs and cooperations 
such as Energy Star, which is jointly run by the Department of 
Energy and the Environmental Protection Agency and the use of 
the resources of the National Laboratories, also run by the 
Department of Energy.
    We have worked with the Department of Veterans Affairs on 
projects such as its Veterans Benefits Office in Reno, Nevada, 
which was the VA's first building rated using a third-party 
independent rating system.
    We continue to work with the VA on every new opportunity to 
support the VA's important mission to our country's veterans.
    High-performing green buildings provide the best value for 
the taxpayer and the public through both life cycle cost 
benefits and the positive effects on human health and 
performance.
    A recent study of GSA's 12th earliest green Federal 
building shows energy consumption is down 26 percent, occupant 
satisfaction up 26 percent compared to commercial office 
benchmark data.
    More importantly, the top third of those studied buildings 
deliver significantly better results with 45 percent less 
energy consumption, 53 percent lower maintenance costs, and 35 
percent less water use.
    According to a 2008 McGraw-Hill Construction report, 
operating costs for green buildings are on average 8 to 9 
percent lower and values are 7.5 percent higher. They have a 
3.5 percent greater occupancy ratio and provide a 6.6 percent 
total return on investment.
    The life cycle cost of green buildings is lower than the 
life cycle cost of those that are not. Even the initial capital 
costs are not necessarily higher and when they are, only 
marginally so.
    GSA's study of the initial capital cost showed that an 
increase is only from zero to three percent and it is very 
dependent on the design and the quality of the integration of 
that design.
    Sustainable design also offers economic, environmental, and 
societal benefits. If a building decreases its energy 
consumption, the cost of operation is less, the asset value 
increases, and the production of greenhouse gases decreases.
    For example, a planted roof can have significant economic 
and environmental benefits such as lowering the roof 
temperature, lowering costs for neighboring buildings, reducing 
the city's heat island effect, and reducing storm water runoff. 
In cities like Washington, DC, this reduces water pollution 
both locally and downstream in the Chesapeake Bay.
    Societal benefits include physically and aesthetically 
pleasing effects for building occupants and neighbors, jobs for 
workers to install and maintain planted roofs, and reduction in 
greenhouse gases caused by the building.
    Careful selection and use of materials can reduce energy 
consumption during the manufacturing process and protect the 
health of occupants in the use of those materials. Careful 
construction techniques, the reuse of existing structures, and 
careful siting can reduce waste, decrease resource consumption, 
and improve occupants' quality of life.
    The key is a holistic integrated planning that considers 
all factors that influence a building, including the decision 
whether to build at all.
    However, design challenges for high-performance green 
buildings may vary for different building types. Given the 
intense use of some buildings such as hospitals, health care 
facilities, data centers, performance measures must be 
different and the benchmarks need to be adjusted to reflect the 
use of the building. One can still address energy efficiency 
hospitals. In so doing, the energy efficiency decisions will be 
balanced differently against air quality standards and health 
related factors than they would be in a normal office building.
    We need to have as much emphasis on actual building 
performance as on the design criteria. California is 
contemplating a standard building performance labeling as 
prerequisite for every real estate transaction. Beginning in 
2010, GSA will require new building leases over 10,000 square 
feet to have an Energy Star rating earned in the most recent 
year of operation.
    The value of Energy Star and other similar measures is that 
they are ongoing performance measures, not one-time design 
measures.
    We in the building industry and in the Federal Government 
also need to expand our measures. While today we typically 
concentrate on energy use in buildings, we need to remember 
that buildings are also tools for businesses and organizations.
    The Energy Independence and Security Act of 2007 states 
that high-performance green buildings must not only perform 
well mechanically but must perform to improve the health and 
enhance the performance of the occupants. This is particularly 
important in health care facilities where the importance of the 
work within the buildings cannot be overstated.
    If we only look at the energy consumption in the building, 
we miss the importance of how building performance can increase 
the ability of people to care for the ill, reduce the 
transmission of disease, or create conditions for healing.
    A key broad measure of environmental impact is greenhouse 
gas emissions. Once you measure the collective effects of 
greenhouse gas production by an organization with buildings as 
components, you can make more informed decisions and tradeoffs.
    We need to look at the way we buy materials, travel to and 
from the building, the way we use the building, and how it is 
operating. In both office buildings and computer centers, 
integrating the occupants' operations with facility operations 
can increase energy savings by as much as 50 percent and also 
lower the tenant's cost of operations.
    Health care facilities present particular difficulties and 
opportunities. We need to create conditions in which health 
care professionals can perform at their best around the clock. 
A health care facility is an amalgam of office, laboratory, 
hotel, data center, and industrial facility. The key is to make 
sure that the building operations integrate the hospital health 
care operations.
    The research that the National Institutes of Health has 
been conducting on the way that buildings and their mechanical 
systems can either increase or mitigate the transmission of 
airborne pathogens is also beginning to change the way that 
health care facilities are constructed and operated.
    However, more research on the unintended consequences of 
current building management practices is needed. There is an 
extensive study from 2004 by Craig Zimmering and Roger Ulrich 
that articulates some of the research needs that are ongoing.
    The creation of jobs across the design, engineering, 
manufacturing, and construction operations industries will 
boast with a green economy and American Recovery and 
Reinvestment Act is a key component of doing that. This is an 
opportunity that is not only local but very local in the 
creation of jobs with new skills.
    Thank you again for this opportunity to testify today and 
the opportunity that the Congress has provided GSA both through 
the American Recovery and Reinvestment Act and our continuing 
service to other Federal agencies. I am available to address 
any questions you may have. We look forward to continuing to 
support the VA in its mission and to help the VA reduce the 
environmental impact while simultaneously improving conditions 
for people working in its facilities and the veterans staying 
in those facilities.
    [The prepared statement of Mr. Kampschroer appears on p. 
69.]
    The Chairman. Thank you.
    Mr. Kidd.

                STATEMENT OF RICHARD G. KIDD IV

    Mr. Kidd. Good morning, Chairman Filner, Ranking Member 
Buyer, and other distinguished Members of the Committee. I 
would like to thank you for giving me the opportunity to appear 
here today. My intent is to highlight for you the energy 
management performance of VA within the context of the overall 
Federal Government's efforts.
    By way of background, the U.S. Federal Government is the 
single largest user of energy in the United States, accounting 
for roughly 1.6 percent of our Nation's total energy 
consumption. The bill to the taxpayers for the energy consumed 
by our government is $24.5 billion.
    Government actions in these areas are guided by the 
legislative and policy initiatives contained within the Energy 
Independence and Security Act of 2007 (EISA), Executive Orders, 
and the Energy Policy Acts of 1992 and 2005, which collectively 
establish energy management goals for all Federal agencies, the 
most salient of which requires the U.S. government to reduce 
its energy intensity by 30 percent by the year 2015, to 
increase the use of renewable electric energy equivalent to 7.5 
percent by 2013 and thereafter, to reduce water consumption by 
2 percent annually, and to reduce petroleum consumption by 2 
percent in covered fleet vehicles.
    In the most general terms, the total amount of facility 
energy use by the Federal Government has decreased by almost 30 
percent since 1985, but it has only been in recent years that 
specific measures of performance have been in place.
    Summarizing the data from fiscal year 2009, 6 Federal 
agencies consume 80 percent of the energy used by the Federal 
Government with Veterans Affairs being the third largest. 
Energy intensity in fiscal year 2008 was 12.4 percent lower on 
average than the fiscal year 2003 base year with VA having 
reduced its energy intensity by 11.4 percent.
    Overall, the government used renewable electric energy 
equivalent to 3.4 percent of its electric use. This is 
significantly less than the 4.9 percent reported in 2007, but 
above the current 3 percent requirement. VA exceeded this 
requirement generation goal with 4.1 percent of its electric 
power coming from renewable sources.
    Federal agencies on average reduced their water intensity 
by 2.9 percent. The VA achieved a 3 percent reduction. And in 
fiscal year 2008, the government invested almost $935 million 
in building efficiency improvements, $469 million through 
appropriations, with the remainder coming through energy 
performance and utility energy savings contracts.
    An amount equivalent of 12.9 percent of the government's 
total energy bill was invested in energy efficiency 
improvements. The Office of Management and Budget (OMB) 
recommends 20 percent, an amount that only three agencies met. 
The VA invested 7.8 percent.
    The VA has received a green status on the rating score card 
that FEMP prepares for OMB signifying overall successful energy 
management programs. VA's successful performance is 
particularly noteworthy given the unique set of challenges that 
the agency faces.
    Veterans Affairs operates 153 medical centers. While these 
centers constitute 75 percent of the VA's square footage, they 
represent over 99 percent of its energy consumption. The VA's 
energy intensity is almost 66 percent above the Federal 
average, but below the national average for health care 
facilities.
    Veterans Affairs is also the second largest user of water 
in the government on a square footage basis.
    Meeting these challenges and receiving a green rating would 
not have occurred without the dedicated efforts led by James 
Sullivan, the Director of the Office of Asset Enterprise 
Management, and VA's entire energy management team.
    The Departments of Energy and Veterans Affairs have a long 
history of a cooperative and productive relationship in matters 
of energy efficiency.
    This year, FEMP restructured itself to create a customer 
service organization where every individual in our office is a 
direct liaison to a Federal agency. I placed our Deputy and 
senior-most engineer, Scott Richland, as our customer service 
representative to VA.
    This May, FEMP asked all Federal agencies to submit 
proposals for technical assistance under the American Recovery 
and Reinvestment Act. Three VA projects were selected. These 
include a detailed renewable energy feasibility study for 
national cemeteries, medical center retro-commissioning 
specifications, and integrated site assessments and short-term 
diagnostic testing to retro-commission selected buildings 
located in Alabama, Georgia, and South Carolina.
    Before I conclude, I would like to just add a personal 
statement that as a veteran, a third-generation Army officer, I 
have tremendous respect and admiration for the role Veterans 
Affairs plays in keeping faith with all those who have served 
in uniform.
    As someone with extensive international experience in 
conflict and post-conflict zones gained through my service with 
the United Nations and our State Department, I have a keen 
appreciation for the adverse security implications generated by 
our country's dependence upon foreign oil. Increasing the 
energy efficiency of the Federal Government and by extension 
our country as a whole is a critical step in enhancing our 
Nation's security. And I am pleased to assist Veterans Affairs 
and all Federal agencies in this endeavor.
    I would like to thank the Members of the Committee for 
giving me the opportunity to speak with you and to submit 
written testimony. I look forward to answering any additional 
questions that you might have.
    [The prepared statement of Mr. Kidd appears on p. 72.]
    The Chairman. We thank both of you or I should say 100 
percent of you. That was a joke.
    Mr. Rodriguez.
    Mr. Rodriguez. Thank you, Mr. Chairman.
    Mr. Kidd, thank you very much, both of you, for being here 
today and for your testimony and for your work.
    From your perspective, what are some of the things that we 
might be able to do that might help you in making your job 
easier in assessing in terms of what is going on?
    I think it is our goal in the long term is that we felt 
that we could make 20 percent efficiencies issues just roughly 
overall. What is the goal now for the VA overall and what are 
some of the areas you think that we can make some improvements 
and maybe highlighting some of the areas where you think that 
they are moving on?
    Would you like to comment on that, Mr. Kidd?
    Mr. Kidd. Thank you very much.
    As indicated, VA has some very unique challenges, unique as 
compared to all the other Federal agencies, given the fact that 
it runs health care centers. And the health care centers, as 
Mr. Kampschroer pointed out, have extreme demands in terms of 
water, air, energy, data management--all of this has to be done 
in an environment which is conducive to healing.
    So I would commend VA and their current team for all the 
efforts that they have done and the good work that they have 
put forward to date.
    The goals for VA are the same as for all the Federal 
agencies, a 30 percent energy intensity reduction by 2015 and a 
2 percent per year annual water reduction to 16 percent by 
2015.
    In terms of assistance that can be provided, I do not think 
it is for me to say what the requirements this Committee should 
place on VA. But speaking for the whole Federal Government, the 
issue of energy management is one of increased importance. And 
the increased attention that you and other Members of Congress 
give to this issue, I believe is appreciated by all of us.
    Mr. Rodriguez. What are some of the gaps that you see where 
there might be some additional improvements that could be made 
with the VA?
    Mr. Kidd. Well, I think Veterans Affairs like all Federal 
agencies, is wrestling with the challenge of a range of 
demands, some immediate, some long term, and how to effectively 
allocate their resources to succeed in meeting all of these 
demands.
    So I do not think Veterans Affairs has challenges that are 
unique to just that one agency beyond the requirements of 
addressing the energy, water needs on the medical facilities.
    Mr. Rodriguez. And so from your office, a year from now, 5 
years from now as you go back, what are some of the things that 
can help you in looking at to see if we will be able to get 
where we need to go? Do we need to do some additional 
assessments of best practices? When you come before us next 
year or 5 years from now, how do we get to that level that we 
want to get to?
    Mr. Kidd. Right now in EISA, section 432, there is a 
requirement for Federal agencies to audit 25 percent of their 
goal covered buildings every year. So if I were to come back 
next year or the year after or the year thereafter, I would 
come back with data representing respectively 50, 75, and 100 
percent of the Federal buildings, because of the additional 
auditing performed on those Federal buildings.
    That data will be tracked and reported through an online, 
Web-based tracking system and that should be up this winter, 
January or February timeframe. So if I came back a year from 
now, you would have access to that data online FEMP could 
analyze it, and we could have a discussion about the results of 
the energy audits which have been performed on Federal 
facilities.
    That information will give us a much clearer picture as to 
all the positive things that the Federal Government has done 
and, likewise, it will highlight for us greater areas where 
additional work needs to be taken. It will highlight our missed 
opportunities, if you will.
    Mr. Rodriguez. At the present time, what do you suggest we 
do besides going out and looking at for them to expedite what 
is occurring to get there as quickly as possible? Any 
recommendations from the GAO from that perspective? How do we 
get there as quickly as possible? I know I can see some of the 
facilities moving. I can see others not moving maybe.
    Mr. Kidd. Well, I would say that speed, while speed is 
important, it is not the most important criteria. And I would 
echo the comments that Mr. Kampschroer made about the 
requirement to take an integrated, whole systems approach to 
designing our new buildings and retrofitting our old buildings.
    So speed is important, but quality is more important. And 
we are going to have better buildings if we bring all the 
stakeholders together at the same room at the same time, 
architects, engineers, occupants, managers, patients.
    Mr. Rodriguez. Thank you.
    The Chairman. Mr. Rodriguez, thank you.
    Mr. Michaud.
    Mr. Michaud. Thank you very much, Mr. Chairman.
    Just a couple of quick questions.
    We heard the first panel talk about issues such as food and 
some of our contracting and procurement issues that are 
currently out there, which could be problematic if you are 
looking at new technology and green energy.
    What have your agencies done to really look at some of the 
problems or do you see any problems with the procurement 
issues?
    And I will use food, for instance. I know in Maine, I am 
sure a lot of other VA facilities could potentially buy local 
food from farmers who are probably veterans. You get fresh 
food, therefore, when you look at the waste that goes there as 
well. Any comments?
    Mr. Kampschroer. Thank you.
    The procurement process is being systematically revised 
across the Federal Government to take more into account factors 
such as transportation of goods and materials on the way to the 
site, the quality of materials.
    We started, for example, in the 1990s requiring not only 
our own operators of buildings to use green cleaning materials 
that were less toxic but also to require that again in the 
contractors. It is an ongoing issue in procurement to make sure 
that people who have contracts with the Federal Government are 
actually performing according to those specifications.
    We are also examining the possibility of providing direct 
access to contract from, you know, contractor A to buy off of a 
schedule to make sure that the right materials are actually 
being procured so that if both are working for the government, 
you can make sure, and, again, I use green cleaning as an 
example, that the products that have already been tested and we 
know are qualified then are used by subcontractors who are 
doing cleaning of facilities. And this sort of ricochets 
through all manner of procurement.
    I think also, as I mentioned, as we begin to use more 
comprehensive measures such as greenhouse gas accounting, we 
will begin to see those factors take a larger role in 
procurement that will again, I think, make an overall 
improvement in our procurement decisions.
    Mr. Buyer. Will the gentleman yield?
    Mr. Michaud. Yes.
    Mr. Buyer. Mr. Michaud asked you about food.
    Mr. Kampschroer. Yes. And in the procurement of food as 
well about which I know somewhat less than green cleaning, we 
are also changing, I know in the area of procurement for GSA's 
own cafeterias to emphasize just exactly the kind of examples 
Mr. Michaud mentioned. And I would be happy to get a more 
complete response on the subject of food to the Committee.
    [The GSA subsequently provided the following information:]

    The General Services Administration (GSA) is committed to 
incorporating principles of sustainable design and energy 
efficiency into all of its procurement practices, including its 
building projects; we address food service in more detail 
below. In addition, President Obama signed Executive Order (EO) 
13514, Federal Leadership in Environmental, Energy, and 
Economic Performance on October 5th, setting sustainability 
performance goals for all Federal agencies. The EO requires 
Federal agencies to set 2020 greenhouse gas emission reduction 
targets, increase energy efficiency, support sustainable 
communities, and leverage Federal purchasing power to promote 
environmentally responsible products and technologies. 
Specifically, section 2(h) requires agencies to ensure that 95 
percent of new contract actions including task and delivery 
orders are energy efficient, water efficient, bio-based, 
environmentally preferable, non-ozone depleting, contain 
recycled content, or are non-toxic or less-toxic alternatives 
where such products and services meet agency performance 
requirements.
    While GSA does not procure food directly, each item in 
GSA's Federal Supply System is assigned to a specific Source of 
Supply (SOS) for management. Food is in Federal Supply Class 
(FSC) Group 89, which is acquired by the Department of Defense, 
Defense Logistics Agency (DLA) Supply Center in Philadelphia, 
PA, through the Defense Revitalization and Marketing Service 
(DRMS). Information can be found at http://www.drms.dla.mil/
asset/fsclist.html. DLA has been designated as the integrated 
materiel manager at the wholesale level for one or more 
consumable items of supply in the FSC.
    GSA uses the GSA Schedules Program to acquire food service, 
hospitality, cleaning equipment and supplies, food service 
equipment and supplies, kitchen management solutions, emergency 
and non-emergency food service support, refrigeration, cooking, 
dishwashing, food preparation, storage equipment, and other 
miscellaneous food industry items.
    GSA provides food service operations in hundreds of Federal 
workplaces for more than one million employees, contractors and 
visitors who are housed in our 354 million-square foot 
inventory. GSA has the authority to provide concessions in GSA-
controlled buildings, with operations ranging from vending 
machines, snack bars, to full-service cafeterias, cafes, and 
food courts.
    In response to President Obama's recent challenge to 
improve the health and wellness of Federal employees, GSA is 
initiating changes to its national food service template in FY 
2010 to include language on wellness and sustainability. While 
this template is specifically for GSA actions, it will be 
available to all Federal agencies to use, and made available to 
the public. New GSA contracts will have the flexibility to be 
tailored to local market offerings and consumer demand, 
ensuring adequate competition and successful vendor operations. 
Food service vendors will be asked to incorporate healthy menu 
options and expand menu variety, including green food and 
sustainable services, organic, locally grown and locally 
sustainable products. Furthermore, GSA will ask vendors to 
incorporate such energy-saving practices as recycling, 
composting, food donation programs, and cleaning services 
adhering to Green Seal Environmental standards, and to align 
their operations with the Leadership in Energy and 
Environmental Design (LEED) Green Building rating system.

    Mr. Michaud. My next question is for the Department of 
Energy as well as the GSA. My concern is, that everyone is 
talking about green energy, that we have got to be energy 
efficient. But when I look at what is happening in certain 
agencies as far as some of the standards, I will use 
transportation, for instance, because Maine is doing a lot of, 
through the University of Maine, with a bridge and a backpack 
which actually is stronger than steel. When you look at the 
CO<INF>2</INF> impact, it reduces the impact. The durability is 
great. But I do not see any real initiatives coming out from 
the Department of Energy. What I see the Department of Energy 
doing is looking at the bigger chunks of money going to certain 
areas versus trying to really focus on some of the technology.
    A good example and it gets right back to wind rather than 
import the steel from China for windmill blades they are also 
doing work with wood composite. And the durability, the 
strength is actually just as great as steel and the maintenance 
is low because you do not have to worry about the rusting. And 
the maintenance is extremely low.
    And off the coast of Maine, you have got the equivalent of 
40 nuclear power plants, but the Department of Energy is just 
sitting down here doing whatever it is doing. I do not see them 
being really proactive in getting back to thinking outside the 
box in new technology, new ideas. The only ideas I see coming 
are those from within the administration, which is really the 
driving force.
    I would ask the Department of Energy to comment on what you 
are really doing proactively? And how are you being really 
aggressive out there on energy that relates to the VA 
facilities as well?
    Mr. Kidd. Thank you.
    Well, I would submit that the Department of Energy is 
investing significant amounts of money across the entire 
spectrum of technologies that are required to make energy 
efficiency and renewable energy less costly and more available 
to the American people.
    Both in our standard budget and in the American Recovery 
and Reinvestment Act funds, you have seen tremendous increases 
in investment on light weighting technologies, which you 
mentioned because light weighting technologies are viable for 
vehicles. Roughly 6 percent of the energy in your car, in your 
gasoline powered car, goes to move the weight of the occupant. 
The rest goes to move the weight of the vehicle or is lost in 
friction or in engine inefficiencies. So light weighting is a 
key component for windmills, for transportation across the 
board. We are investing in that.
    One of the key issues is energy storage, how do we get the 
renewable power available for a longer period of time when the 
wind is not blowing and the sun is not shining. We are making 
billions of dollars of investment in the issue of power 
storage.
    All right. In terms of the turbine efficiency, we are 
investing in that. In terms of building envelope design, 
mechanical practices, in building controls, all of these are 
areas which are receiving tremendous investment across all the 
National Laboratories.
    In terms of the National Laboratories and your question, 
what can we do to accelerate the deployment of this technology 
to the Federal agencies, that is where I come in. I am very 
interested in that topic.
    In the American Recovery and Reinvestment Act, we had a 
number of requests across the Federal agencies for assistance 
from DOE. We were oversubscribed. In fact, we were 400 percent 
oversubscribed from Federal agencies asking us for what we 
could do in regards to the resources that we had.
    And what we did is we looked out across the entire DOE lab 
enterprise, which is really a national asset, the great 
capacity that resides in our laboratories, and we said, look, 
we are not just going to bring one lab to this problem. It is 
not about building envelopes, all right, in the case of a 
military installation. It is about building envelopes and 
renewables and grid and power storage and all these issues. And 
so let us bring them all together.
    So in response to a requirement that originated in the 
State of Hawaii and the Pacific Command, we are bringing six 
National Laboratories to a problem that just a year ago, we 
probably would have only brought one lab to.
    So we are making some improvements. And I am committed to 
trying to get that technology from the DOE labs to the Federal 
agencies as soon as possible and make the Federal Government a 
leader and a first adopter for the rest of the country.
    Thank you.
    Mr. Michaud. Thank you.
    The Chairman. Mr. Bilbray.
    Mr. Bilbray. Yeah. Let me, just so I will reflect the 
gentleman from Maine's comment, show you how much talk is 
really very large out there and performance is very low.
    In the mid 1970s, the Federal Government did the study to 
prove composite technology using wood and saturation epoxies, 
were much stronger, much less maintenance and much more 
efficient than using traditional metal. But you have old habits 
to break.
    So this goes all the way back to like 1976, I think, when 
the study breakthrough flat out said, in fact, actually, if I 
remember right, it was a group called the Gudgeon Brothers who 
actually had learned the technology building boats in Michigan 
and applying it to wind generation. And we are still fighting 
this battle.
    Mr. Chairman, I would like to ask a couple questions. And 
let me just sort of warn the panelists.
    I served 6 years on the Air Resources Board for California, 
some of the best scientists in the world on these issues, 10 
years on an air district. And, frankly, I heard a lot of talk 
and a lot of promises and I see very little performance.
    I hate to say it. I guess when I got here, Mr. Chairman 
will remember when I got here and was blown out that the 
Capitol of the United States was being heated and cooled by 
coal. In California, you go to prison for burning coal. And it 
was stacked up outside and nobody even realized that here we 
were leading through example. And that is the one thing I want 
to get down to is this leading through example.
    And I have just got to tell you it burns me every time I 
see our SUVs out there with E85 on it as if that is some kind 
of great environmental benefit to the world and taking credit 
for this stuff when scientists are telling us, no, but politics 
is saying it is much better, much more efficient to do that.
    You were talking about renewables. My question to you is 
move the conversation. What portion or is there any mandate 
that your departments are buying zero emission electricity for 
our facilities?
    And do not get into the renewable issue because wood 
burning is counted as renewable and it is one of the most 
polluting particulate problems we have in air pollution. But 
when it comes down to zero emission, do we have any mandate 
that the Federal Government and your facilities have to buy 
zero emission?
    Mr. Kidd. Sir, the mandate for renewable power, is a 7.5 
percent target by 2015. Power generated through biomass 
processes is classified as renewable, and that is how we track 
it. We could give you a breakdown of the current percentage. 
With some time, I could get back to you by what the breakdown 
is of the----
    [The DOE subsequently provided the following information:]

    Currently, FEMP does not break down renewable energy 
generation at the agency level by source. Rather, FEMP 
maintains its renewable energy generation statistics as a 
function of the percentage of renewable energy generated 
relative to the total agency energy generation.

    Mr. Bilbray. Okay. So we are actually going to be buying 
electricity and continuing to subsidize electricity that is 
contributing to the greenhouse gases and polluting. We still 
have not required that all our electricity is off the carbon 
chain.
    Let me ask you this. You have got about a third of your 
projected energy intensity reduction by buying energy credits, 
right?
    Mr. Kidd. That is correct now, but the Department of Energy 
is phasing out the value of renewable energy credits (RECs) for 
calculating compliance with the energy intensity goal. So by 
2012, RECs will no longer count as a contributing factor to the 
energy intensity reduction goal. They will only count for the 
renewable goal.
    Mr. Bilbray. Okay. And I am really sorry, Mr. Kidd. 
California started this whole concept of offset trading, but 
the history of it, especially with the Federal Government, is 
less than stellar.
    I think you know the fiasco we had here of promising the 
consumers that the Capitol was going to green, bought offsets, 
and none of those offsets were ever--it was the biggest sham in 
the world.
    I just really would love to see the accounting on this 
because I have seen nothing but bait and switch on these 
offsets with no enforceability, nobody coming down hard on it, 
nobody paying a price for setting up the shams. And I think 
that is one of those issues that we--when you say this, I want 
to see how you are going to enforce it, how you are going to 
mandate it.
    If anybody buys, basically pays for this, and it does not 
happen, who is held accountable? If the farmers that you are 
paying do not do the stuff they claim to do, like what happened 
with our Capitol, our so-called green strategy, who is 
accountable, whose head rolls, because there is a lot of 
promises being made here and we are not seeing it?
    The question I have on the other attitude is when we talk 
about location, let us not talk about building, but when we 
talk about resiting the facility, how much is location and the 
availability of mass transit and existing infrastructure 
determined in the siting? Is there a mandate that that priority 
be given by your departments?
    Mr. Kampschroer. There is a set of internal guidelines that 
GSA uses to ensure that that happens. There is a mandate in 
Executive Order that we apply to those. We factor that into our 
leasing decisions as well. It is one of the components that we 
evaluate in every lease that we award across the country.
    Mr. Bilbray. Why are we depending on certificates, energy 
certificates rather than going straight for clean technology, 
Mr. Kidd, the purchase of these certificates? Why are we not 
wheeling clean technology? With the grid the way it is now, we 
can go out of State and wheel clean technology into our 
facilities. Why are we not doing that? Why are we playing this 
certificate game rather than going over and actually dealing 
directly and working on wheeling clean energy into our 
facilities?
    Mr. Kidd. I think the Federal Government is making some 
significant investments in renewable technology and energy 
efficiency technologies. The way the goal setup is structured 
is that for agencies to get credit, they have to bring new 
sources online.
    One of the things that we are looking for----
    Mr. Bilbray. Whoa, whoa, whoa, whoa, whoa, whoa, whoa, 
whoa. Wait. Excuse me. You said to get credit for what to bring 
new sources online?
    Mr. Kidd. The goal for renewable power generation of 7.5 
percent, half of that requirement has to be met through new 
energy sources, so new renewable power sources that are 
created. You cannot buy your way to goal compliance.
    Mr. Bilbray. And why? You cannot buy your way to buying 
clean energy. You cannot pay more for existing clean energy and 
wheeling that to you. You cannot do that. Is that what you are 
saying, 50 percent of this?
    Mr. Kidd. No. I am saying that for goal compliance, the 
agencies get credit for renewable power, which is generated on 
their site or on premise. Alternatively, agencies can also get 
partial credit for renewable power which they purchase via 
RECs.
    Mr. Bilbray. Okay. Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Bilbray.
    Mr. Buyer.
    Mr. Buyer. Thank you, Mr. Chairman.
    The GSA, do you support providing the VA the same authority 
that the Department of Defense has to enter into long-term, 20-
year commodity procurement contracts?
    Mr. Kampschroer. GSA supports, and has submitted a 
legislative proposal to, extend the authority for utility 
purchases for renewable power for up to 20 years. It was also a 
component in the earlier drafts of the Energy Independence and 
Security Act of 2007, but not in the final.
    And where that authority granted, it would be available to 
every Federal agency either through delegation from GSA or by 
GSA's use of the procurement authority for the agencies as we 
do across the government.
    Mr. Buyer. Thank you.
    On average, can you tell me how long it takes for an 
interested company to complete the application process for 
inclusion on a GSA schedule?
    Mr. Kampschroer. My understanding is that it is 
approximately 4 months today, but I would be better served to 
give you the information for the record after the fact.
    Mr. Buyer. If we switch chairs and you were a Member of 
Congress, you would get to hear the complaints about 
individuals and their applications and how long it takes. And 
it is much longer than that. Sort of the rule of thumb out 
there in the street is that it could take up to a year. And I 
just find that unacceptable.
    I think it is probably some of the frustration that Mr. 
Michaud has with trying to do the contracting. And we are going 
to get into procurement issues later on, probably in October, 
November, and we will invite GSA to come back.
    Let me ask this. If you know, what is my answer to these 
companies that complain about how long it takes to get on a GSA 
schedule? Who do I refer them to or how do you advance the 
process?
    Mr. Kampschroer. We have created a new Web site partially 
as a result of the intense interest in doing business with the 
government by new firms that the American Recovery and 
Reinvestment Act has caused. I would refer them to that Web 
site. We have a number of people, gsa.gov/recovery, and then it 
is pretty clear. I would certainly provide the Committee 
information on how best to go about it depending on the nature 
of the product.
    [The GSA subsequently provided the following information:]

    Generally speaking, it takes between 3 to 4 months from the 
time an offer is received until an award is made. However, 
there are many factors which may impact the offer processing 
timeframe, such as:

    <bullet> LQuality/completeness of the incoming offer as 
incomplete information requires clarification requests until 
the information is sufficient to support a ``fair and 
reasonable'' price determination by a Contracting Officer;
    <bullet> LWorkload of the Contracting Officer;
    <bullet> LComplexity of the Offer; and
    <bullet> LPre-award audits, if applicable.

    GSA is making efforts to improve the process. For example, 
Pathways to Success is an online tutorial focused on educating 
the potential contractor about the Schedules program and the 
associated contract compliance responsibilities. The intent is 
to enable the contractor to make an informed decision about 
whether or not it is prepared to support and maintain a Federal 
contract.
    In addition, our Supplier Management organization (within 
the FAS Office of Acquisition Management) conducts a New 
Contractor Orientation, and also visits each new contractor to 
assess systems capability for tracking and reporting contract 
sales, understanding of contract scope, and other contract 
compliance areas such as the Basis of Award and the Price 
Reduction Clause.
    Various other process improvement projects, most using the 
Lean Six Sigma methodology, are underway to address both the 
new offer and the contract modification processes in the 
Schedules program. These process improvements should reduce the 
cycle time for processing offers and modifications.

    Mr. Kampschroer. I have worked personally with different 
firms that have been referred to GSA by themselves, by other 
people, and I know that 4 months is achievable and I understand 
that it used to take longer. So I am hopeful that the 
improvements that we are making in the process will not only 
take place but have a positive effect on increasing the 
competition for work with the Federal Government.
    Mr. Buyer. The challenge here is, and we can get into this 
a little bit later with the VA, as we move to the renewable 
energy projects that are existing with the VA and then through 
that procurement process, they look at the GSA schedule and 
say, okay, with regard to photovoltaic, who are the existing 
companies out there. So they look at solar. You know, you come 
under the category of solar.
    But a lot of what I have learned here is that there are a 
lot of large companies that are roofers who are also in the 
photovoltaic business, but guess what? They are not under solar 
under GSA. So as this new wave of contracts just went out 
through the VA, a lot of these very large companies here in the 
United States that also do solar, they are roofers. They are 
not electricians.
    The roofers threw the electricians off the roof, rightfully 
so. They put all the money up there to put all that ply up, 
they do not like holes in it. Now, the first person you call is 
not the electrician if you have got raindrops coming through, 
right?
    And so these very large companies are very upset. Number 
one, they did not know that the wave of bids went out and they 
did not get to participate in the process. And we are feeling 
some wave of some complaints. I just want to let you know that. 
And so I am going to get into that a little bit later here with 
the VA.
    But I will work with you if you are going to give us some 
recommendations on this Web site and I can refer these 
companies to it. If all these green jobs that we are talking 
about, they are new and emerging companies who also want to do 
business not only in the private sector but with government, 
but as these monies roll out and projects roll out, they are 
not able to bid. They are not able to bid because they are not 
on the GSA schedule. And they are locked out.
    And so when they get locked out and if the only game in 
town, not the only game, but the most emergent game in town is 
government because of the stimulus bill, we have to deal with 
the wave of complaints. So I want to work with you on this. 
Okay?
    I am going to end with a compliment to GSA. My compliment 
is in regard to the Public Law 106-50 and the Presidential 
Executive Order 13360 to establish a goal for all Federal 
agencies to award 3 percent of the contract dollars to service-
disabled, veteran-owned businesses. And according to the SBA 
Web site, GSA, you are at 3.93 percent. So you have exceeded 
the goal set by the President and by Congress. So I 
congratulate you.
    To the Department of Energy, you are at \1/2\ of 1 percent. 
I call that failure. I call that an embarrassment. So the next 
time you want to get out and you come to Congress and you want 
to talk about green jobs and creating all those jobs, be 
careful which Committee you come to. If you come to the 
Veterans' Committee and you talk like that, I am going to do a 
little research on you. And I think we can do better. So please 
take the message back, please, that with regard to these green 
jobs and these emergent jobs, go to the schedule and find out 
who are the veterans and disabled veteran small-owned 
businesses and as we seek to meet our goals, I think we can do 
two things at once.
    Do you agree with that, Mr. Kidd? Sound like a good plan?
    Mr. Kidd. Ranking Member Buyer, that sounds like a great 
plan. I took----
    Mr. Buyer. When you take that back, tell them Mr. Buyer 
asked for it.
    Mr. Kidd. Buyer, yes, sir. I will do that.
    Mr. Buyer. All right. Thanks.
    Thank you.
    Mr. Bilbray. Mr. Chairman.
    The Chairman. Thank you.
    Thank you both for your testimony and your help as we move 
forward.
    And we will ask for the third panel to----
    Mr. Bilbray. Mr. Chairman, before they leave, could I just 
ask one quick followup?
    The Chairman. Yes, sir.
    Mr. Bilbray. The renewable energy credits and the 
certificates, what portion of those credits are within the 
political subdivision of the United States and what portion 
could possibly be outside of the United States, the credits and 
the offsets?
    Mr. Kidd. Sir, I do not know the specific answer to that 
question. On my written testimony, I have given you a breakdown 
by agency of how much of their renewable energy comes from on-
site generation and how much comes from renewable energy credit 
purchases. We will check and get back to you on how much is 
within the United States and how much is external to the United 
States.
    [The DOE subsequently provided the following information:]

    Zero percent. The U.S. Government has not purchased any 
Renewable Energy Credits (``RECs'') that certify any renewable 
energy generated outside of the territory of the United States. 
All REC's are associated with a point of generation inside the 
U.S., and fed into the U.S. grid. FEMP has confirmed with 
agencies that buy RECs on behalf of the U.S. Government (e.g., 
Defense Energy Support Center, Power Marketing Agencies), that 
all Federally purchased REC's are from generation inside the 
U.S.

    Mr. Kidd. I would just also like to highlight for the 
Committee that FEMP has prepared a guide on how to sell green 
products to the Federal Government. That is available on our 
Web site. So when any of your constituents bring that to you, 
that is another resource that you have available to you and 
that covers all avenues of sales to the Federal Government 
beyond just the GSA schedules.
    Mr. Bilbray. I just want to warn you anything outside of 
the United States is going to be very, very heavily hit based 
on a whole lot of things that are coming down the pike. And the 
auditing and the ability to account for any credits that are 
outside our jurisdiction really is going to be raised into 
question very quickly not only by the environmental community, 
but a lot of the media is going to be seeing this coming down 
the pike. Okay? Stay away from out of country offsets.
    The Chairman. Thank you, Mr. Bilbray.
    We will ask the third panel to join us. From the Department 
of Veterans Affairs, James Sullivan is the Director of the 
Office of Asset Enterprise Management. He is accompanied by 
Edward Bradley, Director of Investment and Enterprise 
Development Service in the Office of Asset Enterprise 
Management. John Stenger is the Director of Healthcare 
Engineering at the VHA. John Beatty is the Director of Safety, 
Health, Environmental and Emergency Management at the VHA.
    Thank you for being here today. You have gotten a lot of 
compliments, Mr. Sullivan, and we are anxious to hear if you 
deserve them or not.

   STATEMENT OF JAMES M. SULLIVAN, DIRECTOR, OFFICE OF ASSET 
  ENTERPRISE MANAGEMENT, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
ACCOMPANIED BY EDWARD L. BRADLEY, III, DIRECTOR, INVESTMENT AND 
  ENTERPRISE DEVELOPMENT SERVICE, OFFICE OF ASSET ENTERPRISE 
   MANAGEMENT, U.S. DEPARTMENT OF VETERANS AFFAIRS; JOHN D. 
STENGER, EIT, BSME, DIRECTOR, HEALTHCARE ENGINEERING, OFFICE OF 
   THE DEPUTY UNDER SECRETARY FOR HEALTH FOR OPERATIONS AND 
MANAGEMENT, VETERANS HEALTH ADMINISTRATION, U.S. DEPARTMENT OF 
   VETERANS AFFAIRS; AND JOHN D. BEATTY, DIRECTOR OF SAFETY, 
HEALTH, ENVIRONMENTAL AND EMERGENCY MANAGEMENT, VETERANS HEALTH 
      ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Sullivan. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Buyer, and Members of the 
Committee, thank you for the opportunity to present the 
Department of Veterans Affairs Green Management Program, our 
commitment to energy efficiency and cleaner energy and to 
building lasting change that reduces VA's impact on the 
environment.
    I am accompanied here today by Mr. Ed Bradley on my right, 
Director of the Investment and Enterprise Development Service; 
John Stenger sitting next to me, Director of Healthcare 
Engineering; and John Beatty, Director of Safety, Health, 
Environment and Emergency Management from the Department's 
Veterans Health Administration.
    From the outset, let me acknowledge and thank the witnesses 
from the other panels today for their assistance in helping us 
at VA reach our energy and sustainability goals. The Department 
of Energy has gone over and above to assist us in performing 
energy assessments--across the country, we have conducted 
energy assessments on all VA-owned facilities as of this year--
and in supplying us educational and outreach materials and 
capability.
    The GSA has been working with us to help curtail our energy 
consumption in numerous ways. The U.S. Green Building Council 
and the Green Building Institute have been instrumental in 
helping us with our certification of existing and newly 
constructed facilities.
    Before I go on about the Green Program, I need to emphasize 
that our primary mission, which I am sure you would agree, is 
to care for and provide services to veterans and their 
families. Everything we do every day, that we undertake must 
uphold and support the sacred responsibility and trust to care 
for our Nation's veterans.
    Our Green Program supports our core mission. It is simply, 
we believe, a smarter and better approach to managing our 
assets. We believe in acting as good stewards for the assets 
that the American people have entrusted to the VA.
    VA is making great strides in conserving resources at our 
facilities across the country by proactively managing its 
energy, environmental, fleet, and sustainable building efforts. 
These four program areas are the cornerstone of our Green 
Program.
    We have, for example, reduced the rate at which VA uses 
energy in its buildings by 11 percent since 2003 and we have 
put energy management expertise in place at the local level 
through the addition of dedicated energy managers to support 
all VA facilities.
    We have exceeded our alternative fuel vehicle acquisition 
mandates and we are now installing pumps to dispense 
alternative fuels at ten fueling stations across the country.
    To date, 10 VA facilities, or about 7 million gross square 
feet, have earned the certification as green buildings and we 
are currently in the process of having an additional 11 
buildings and campuses being certified as we sit here today.
    To meet Federal mandates and ensure appropriate management 
of our utility consumption, VA has recently awarded a contract 
to install advanced electrical metering at all VA-owned 
facilities. We are also dedicating over $400 million in the 
American Recovery and Reinvestment Act funds to make our 
facilities more efficient and to add solar, wind, and other 
renewable projects to our portfolio. To date, we have spent 
approximately $60 million dedicated to energy efficiency 
projects from this money.
    VA has been a leader in implementing renewable 
technologies. We recently awarded a wind turbine contract at 
our Saint Cloud, Minnesota VA facility, 18 contracts for solar 
photovoltaic projects, and additional contracts were awarded in 
August for renewably fueled cogeneration projects at 38 
different sites around the country.
    At the Las Vegas VA Medical Center now under construction, 
VA is installing solar panels that we believe will generate up 
to 20 percent of the electrical needs of that facility.
    At the Bronx VA Medical Center, a cogeneration plant is 
planned and partially funded--with a projected payback in 3 
years--as we install a new spinal cord injury unit in place 
which Congress has funded.
    We have conducted renewable energy feasibility studies at 
other major projects that have been authorized and funded by 
Congress such as Denver, New Orleans, and Orlando, and we will 
be employing renewable energy activities at those sites based 
upon those studies.
    Next week, we will be launching what is known as the Green 
Routine Initiative at VA to highlight October as energy 
awareness month. This initiative takes the Department's 
commitment to greening VA to the individual employee level 
through a new Web site, videotape broadcasting, instructional 
handbooks, and other materials designed to educate our 
employees on simple tips and actions that can make a difference 
at work to make green real and routine in every-day activities.
    Going green to us means making the right investments and 
putting green practices in place at every level of the 
organization. Simply put, doing the right thing every day.
    Mr. Chairman, you have my written statement. My colleagues 
and I will be happy to answer any questions you may have. Thank 
you.
    [The prepared statement of Mr. Sullivan appears on p. 79.]
    The Chairman. Thank you, Mr. Sullivan.
    Mr. Rodriguez.
    Mr. Rodriguez. Thank you very much.
    And you mentioned, you have a program in October that will 
begin to reach out to the workers and----
    Mr. Sullivan. Yes.
    Mr. Rodriguez [continuing]. I think that would be a 
tremendous idea because I think--and especially if you also 
localize it to their own homes also because when we start 
watching what is going on at home, we are also conscious of 
what is happening at work. And I would hope that that is--and I 
do not know if that is--part of the effort that you have.
    Mr. Sullivan. Right. Our thrust is twofold. From the top 
down, we are directing investments in the infrastructure that 
need to be made and, secondly, and probably more importantly in 
terms of the impact, is getting all of our employees on board 
in their daily activities and integrating best practices, 
whether it is turning off the light, whether it is looking at 
how they recycle, making sure that they do briefings paperless, 
whatever they may be, we have drafted it and we will have a 
tool kit that will be distributed. And we will be happy to 
provide a copy of it to the Committee next week for every 
employee in VA so that will be ingrained in their culture.
    [The VA subsequently provided the following information:]

    VA's Green Routine campaign was launched on Monday, October 
5, 2009.
    This campaign is designed to increase the awareness among 
VA employees of their environmental impact as individuals and 
as members of the Federal Government.
    The newly established Web page at www.va.gov/greenroutine 
contains a green resources guide for managers and employees 
entitled Greening Action Guide & Toolkit. This guide provides 
easy lifestyle changes for employees to perform daily in their 
office environment to help reduce the agency's carbon 
footprint, and promote awareness of their environmental impact. 
The Web page also provides tips, facts, and governmental 
resources that provide information about how to enact a daily 
Green Routine. [The guide ``Veterans Affairs Central Office 
Greening Action Guide and Toolkit,'' dated September 2009, and 
the presentation by the Office of Asset Enterprise Management, 
entitled ``VA Green Management Program: Energy, Environment, 
Fleet and Sustainable Buildings,'' dated September 2009, are 
being retained in the Committee files.]
    Please let us know if you have any additional questions and 
we would be happy to assist. Ed Bradley, Director of Investment 
and Enterprise Development Service, can be contacted at (202) 
461-7778.

    Mr. Rodriguez. And I think that would great, especially 
now. I think people are going back to also being a little more 
frugal, not spending money, and the same thing applies to 
energy and those sources.
    The earlier questions regarding energy, I guess each 
facility usually buys their energy from the closest facility 
that is available in the community. And so that data is kind of 
difficult to grab a hold of the type of electricity that you 
are using. But you did say you did an assessment also of each 
of the facilities.
    So if I look at the facilities that, you know, like, for 
example, the site in San Antonio, the site in El Paso, I would 
see where the strengths are and the weaknesses; is that 
correct?
    Mr. Sullivan. That is correct. The Federal mandate is for 
us to do energy assessments, 25 percent of our portfolio of 
owned facilities every year. We actually exceeded that. We did 
a third each year and we just completed the first full round of 
those.
    And there was an outside consultant that came in and looked 
at the energy needs of the facility, what could be changed in 
terms of operation and maintenance practices, what investments 
needed to be made with the idea to bring someone else in, look 
at it, and say what do we need to do.
    We then take those energy assessments when we look at our 
investments and target our investments to address those 
priorities that are identified in those studies.
    Mr. Rodriguez. Can I ask you to provide that to my office, 
the site in El Paso and as well as the one in San Antonio----
    Mr. Sullivan. Absolutely, sir.
    Mr. Rodriguez [continuing]. You know, Audie Murphy and----
    Mr. Sullivan. Sure.
    Mr. Rodriguez [continuing]. I would appreciate that.
    [The VA provided two reports to Congressman Rodriguez, 
entitled: ``Phase II Energy Assessment, Department of Veterans 
Affairs, VA Heart of Texas Health Care Network, VISN 17,'' 
dated March 10, 2008, and ``Phase II Report to Department of 
Veterans Affairs, VISN 18 Energy Assessment,'' dated February 
28, 2007. The reports will be retained in the Committee files.]
    Mr. Rodriguez. Now, what kind of a response do you have in 
terms of identifying the weaknesses later on in terms of 
accomplishing some of those goals that you have for each of the 
facilities?
    Mr. Sullivan. As I think I mentioned earlier, the struggle 
that we deal with every day is balancing the greenness with 
providing the health care and providing the cemetery services.
    For example, in the cemetery area, the folks are making 
great strides in dryscape, looking at other alternatives to 
reduce our water in cemeteries. But at some point, we do reach 
a wall where if we take the action, it will adversely affect a 
service to the veteran.
    And so that is the constant struggle that we deal with and 
the energy managers in the field deal with on a daily basis to 
make sure we have that right balance. That is probably our 
largest challenge.
    Mr. Rodriguez. Okay. Now, in accomplishing that, I know in 
some of the facilities that I have visited, they talk about the 
fact that there is not enough staffing and some of it has been 
contracted out.
    Has that been looked at as to how best to make this happen? 
I would hope that we would have sufficient resources now at 
least to hire the staff that is needed?
    Mr. Sullivan. From our perspective, I can assure you that 
both last year and this year we have received significant 
support from the Secretary in terms of funding our needs. We 
have put in place 112 or 118 energy managers in the field 
dedicated to doing this kind of work. We have also had 
significant funding increases from ARRA and from others.
    And what we are doing is developing an in-house capability 
in a lot of cases and training our own people, obviously 
supplementing it at times with expertise outside of our realm, 
but primarily it is an in-house capability.
    Mr. Rodriguez. And the initial question that I had on the 
new facilities, are we on top of that in making sure that we 
try to be as efficient as possible in the building of the new 
facilities?
    Mr. Sullivan. We are trying. All projects that were 
submitted to Congress for funding from 2009 and on are fully 
compliant with all of the new standards. The ones prior to 
that, since the standard did not exist when we submitted the 
funding request, we are going back and trying to retrofit or 
make changes to any of those facilities.
    You know, an example is Las Vegas. When we got the initial 
funding on Las Vegas, we did not have a lot of these mandates 
in place 3 and 4 years ago. So what we have done is we have 
hired someone to come in and look at the Vegas example and say 
what can we do, even though parts of that are fully designed 
and partially under construction, what can we do there to 
include renewables. And they have identified a significant 
solar capability that was not originally in the contract that 
we are going to put in where we believe that will take care of 
about 20 percent of the electricity needs of that hospital.
    So we are catching up on the ones that were in the pipeline 
and all the new ones are fully compliant starting in fiscal 
year 2009.
    Mr. Rodriguez. Thank you.
    The Chairman. Thank you.
    Mr. Michaud.
    Mr. Michaud. Thank you, Mr. Chairman.
    Thank you, Mr. Sullivan, for coming here as well.
    You had mentioned that the VA has sited some windmills. Is 
that on the VA's facilities and, if so, how has the permitting 
process been going?
    Mr. Sullivan. At this point, we have identified two sites 
for wind turbines, one in Saint Cloud and one potentially in 
Bourne, Massachusetts, at the cemetery. We have also 13 studies 
underway to see where else we could site those. And in that 
process, we do go through the environmental and historic 
preservation processes where we bring out to the community what 
we are doing.
    We have also had some smaller wind projects in Michigan 
that were not really windmills but ones that go across the top 
of the building, so it is less visible to the public.
    Mr. Michaud. Okay. So there are no actual windmills that 
you have really sited on the VA campuses?
    Mr. Sullivan. Well, the one in Saint Cloud is sited on the 
campus. We identified the parcel. The contract was awarded. The 
one in Bourne, I believe, is projecting an award sometime in 
January.
    Mr. Michaud. Okay. Has it been built though?
    Mr. Sullivan. No.
    Mr. Michaud. Okay. My next question, as you heard from the 
other two panels, the issue about procurement, and when you 
look at energy whether it is food or transportation costs for 
energy, have you run into any problems dealing with some of the 
procurement issues getting what you need as far as green?
    Mr. Sullivan. I think in terms the way we have addressed 
this is prior to 2 years ago, we had decentralized the 
procurement capability. It was fairly decentralized for energy 
anyway out to individual medical centers. About 3 years ago, we 
pulled that all together and created the National Energy 
Business Contracting Center. All of these contracts are done by 
a dedicated group of folks that just do energy contracts.
    So we think that that has helped significantly. But in any 
contracting issue, it is always a challenge to keep moving 
forward and balancing how fast we move with the quality of what 
we are doing.
    And I know a lot of folks, not so much in this forum here 
but other forums, have pushed so hard about why are we not 
doing more quicker. Part of it is to make sure we are doing it 
right and we are trying to do it right.
    Mr. Michaud. Now, you had mentioned the VA meeting the 
standards that are out there. But my question is, do you think 
the standards are adequate? That is, I met with a businessowner 
who is working with insulation and cellulose, which is what 
they do. It is flame retardant. It is better than regular 
fiberglass insulation. And you do not have to deal with the 
health problems with fiberglass insulation. It is made out of 
trees so it is definitely green.
    So can you comment on that as far as, yes, you might be 
meeting the standards, but are the standards up to date or can 
we do better improving some of the standards that are currently 
out there that you are meeting?
    Mr. Sullivan. We have updated all of our standards in 2007 
and 2008 for energy-related requirements for the facilities we 
build and the facilities we lease.
    In terms of that particular technology, I am not familiar 
with it. Primarily we rely on GSA and DOE to give us guidance 
in terms of what are the breaks between research and actual 
useable technology. That is not to say that we do not look. If 
opportunities come like this, we would be happy to take a look 
at it and see if there is an application at VA for that.
    Mr. Michaud. Okay. And my last question: when you talk 
about trying to be more energy efficient in the facilities that 
you own, how do you deal with facilities that you lease? Do you 
work directly with GSA or is that----
    Mr. Sullivan. Most of our leasing, we have delegated 
leasing authority from GSA. So VA enters into all medical 
leases itself.
    About, and I can get you the exact date, about--I want to 
say--a year ago, we included in all of our RFPs for leases the 
same requirements and standards we do in our buildings for 
energy improvements. So as all those new leases are put in 
place, they will have to adhere to those as well.
    And I know, for example, I just happened to look at a CBOC 
the other day to check to make sure that the requirements were 
in the RFPs and were in the awarded contract and they were.
    I can get you a date of when we started to do that. It was 
a little bit later than the buildings because we went after our 
own first.
    [The VA subsequently provided the following information:]

    The GSA SFO template has incorporated Energy Star language 
since September 2000. GSA began to include LEED language into 
their SFOs in December 2007. The GSA SFO template is used for 
all VA existing space procurements, which is most of what is 
done in the field.
    In FY 09, VA began implementation of energy requirements as 
LEED Silver Certifiable and enhanced requirements to meet the 
five guiding principles and other requirements as set forth in 
EO 13423 (2007). Effective in FY10, leases now require LEED 
Silver Certification.

    Mr. Michaud. Great. Thank you very much.
    I yield back, Mr. Chairman.
    The Chairman. Thank you, Mr. Michaud.
    Mr. Buyer.
    Mr. Buyer. Thank you.
    I would like to ask the same question that I asked to the 
GSA. Do you support providing the VA the same authority that 
the Department of Defense has entering into long-term, 20-year 
commodity procurement contracts?
    Mr. Sullivan. Yes, I believe that would be helpful.
    Mr. Buyer. Thank you.
    I am contemplating this, so I am going to ask whether or 
not you think this is a good idea.
    Mr. Sullivan. Okay.
    Mr. Buyer. All right. My contemplation is the gentleman 
that just testified on the second panel is to have him 
representing the GSA and you, put the two of you together and 
have a meeting with me. What I would like to do is figure out 
how we can do the next wave of contracting a little better than 
what was done with the first wave.
    My sensing here, and please correct me if you believe that 
this assessment is incorrect, that I think you moved into a new 
space, you were under a lot of pressure. My review of the front 
pages, the first six, seven pages that I had gotten of the 
requests for procurement (RFPs) that you did a very good job in 
putting these together, but you were also under a lot of 
pressure to get these out and done with this year's moneys. 
Whoever looked at with regard to the--you are completely within 
the scope of your authority and following the statute, but you 
looked under the solar. You found out of those companies, you 
know, a lot of these companies, I hate to call it like this, 
but some are front companies for others of whom bid off of the 
schedule, and you sought to find who would be responsive in a 
lot of these PV projects, and you have got some awards that are 
about to come out, right?
    Mr. Sullivan. That is correct. Eighteen.
    Mr. Buyer. And now, as I told the second panel, we dealt 
with a lot of complaints. These are a lot of large companies 
out there of whom are on the GSA schedule, of whom are roofers 
who also do the PV, and that is who is doing a lot of the big 
PV contracts around the country, did not even know, did not 
even know about the bids going out. And so we are dealt with 
some wave of complaints.
    From the taxpayer perspective and i.e. government 
perspective, wow, it is better to be inclusive than exclusive. 
And so what I am hopeful is a meeting with GSA and you as we go 
into the second wave. I am not going to upset the apple cart. I 
have not asked the Chairman to do anything. I think you did the 
very best you could under the time requirements that you had.
    The question is, do you think we can do better? I think we 
can. And I would like to ask if you believe it would be 
fruitful to put together a meeting with you and the GSA for us 
to see how we can improve the process?
    Mr. Sullivan. Absolutely. We are always looking to do 
better and improve what we are doing. And we are aware there 
were some businesses that were not on the schedules and for 
whatever reason did not have the opportunity.
    And as we move to the second wave which is larger than the 
first, we had already contemplated taking a portion of those 
and doing full and open and not doing those on schedule.
    But we would be happy to meet with you and GSA and make 
sure we have a strategy that the Committee is acceptable to 
move forward within the statutory responsibilities. Absolutely.
    Mr. Buyer. Okay. All right. I think it would be helpful to 
do that. And I would be more than happy to invite the Chairman 
or any other interested Members to that meeting.
    Thank you. I yield back.
    The Chairman. Thank you, Mr. Buyer.
    Again, thank you for your expertise and your commitment. We 
have come a long way, but we have a long way to go.
    Just one question, Mr. Sullivan. I think you heard me 
earlier talk about some incentives for employees. Are we doing 
any of that? I know you started off by saying you are giving 
out the suggestions, but that is not the same as an incentive 
program or----
    Mr. Sullivan. Right now our incentive program really is 
focused on rewarding people who put projects together and the 
projects themselves, we participate in the DOE's FEMP Award 
Program and we have several winners over the last few years. 
And, actually, two or three winners, we bring them into town 
and they go to a reception and an award ceremony. But that is 
one area we have identified in our action plan that we need to 
have more employee incentives. We know the local field managers 
and medical centers do some of it. But one of the areas we need 
to do better is to have a corporate incentive program and that 
is something we are working on and we will do that.
    The Chairman. Thank you very much.
    Again, we thank all the panelists. You have enlightened us 
all as we continue on our path toward energy efficiency and 
independence. Thank you.
    The meeting is adjourned.
    [Whereupon, at 12:10 p.m., the Committee was adjourned.]


 
                            A P P E N D I X

                              ----------                              

                 Prepared Statement of Hon. Bob Filner,
                Chairman, Committee on Veterans' Affairs

    Good morning. I would like to thank everyone for attending the 
hearing today. The VA is the 6th highest agency user in energy 
consumption intensity and the 3rd highest agency in water consumption 
making its footprint significant and its efforts to be in the forefront 
on conservation and reduction commendable.
    As Federal agencies, I firmly believe that responsibility to the 
public is a must, and that we--as lawmakers and executors of the 
Federal Government-- must set the example in energy, water and fuel 
conservation, with the hopes of having corporate and mainstream America 
follow.
    I am pleased that the VA has reported to our Committee that it is 
taking extraordinary efforts to not only meet the goals of the 
Executive Order, but exceed them.
    For as much as the VA is accomplishing, I am equally curious to 
hear what our panel of industry experts have to say about the VA's 
progress. I believe the experts we will hear from today will add great 
value to this dialog and make thoughtful recommendations on the way 
ahead.
    The VA was allocated $405 million in American Recovery and 
Reinvestment Act (ARRA) funds to accelerate critical programs to reduce 
the environmental footprint of the department. The VA set some very 
aggressive goals in this arena.
    I am eager to hear how it plans to execute and sustain these goals 
of reduction in energy, water and fuel usage while building and 
renovating sustainable buildings and utilizing this $405 million to its 
maximum potential.
    The Committee will continue to monitor VA actions as it works to 
increase energy efficiency and provide results for our veterans and 
taxpayers.
    While I applaud the VA's efforts to go green, I think it's 
imperative that we not forget the most important mission of the VA and 
that is caring for veterans. We need to ensure that the very specific 
needs of our veterans are being met at hospitals, clinics, and nursing 
homes, and make certain their care is not degraded or impacted by the 
efforts in becoming more energy efficient.
    Now is not the time to lose focus on the larger goal of providing 
world class health care for veterans, but the time to balance the many 
initiatives necessary to transform the VA into a 21st Century 
organization.

                                 <F-dash>
                Prepared Statement of Hon. John J. Hall

    Thank you Mr. Chairman, thank you to the witnesses, and good 
morning. I am very pleased that the Committee is addressing such an 
important issue.
    Energy efficient buildings will be a critical part of this 
country's strategy for the future. Here are just a few statistics to 
show how important green building will be:
    According to the Department of Energy, buildings currently use 39 
percent of the total energy produced in the U.S., and 74 percent of all 
electricity generated.
    Buildings currently emit 30 percent of America's CO<INF>2</INF>, 
making them top culprits contributing to global warming and climate 
change.
    These facts are illuminating for a few reasons.
    First, they show just how consuming and wasteful our current 
building practices are.
    Second, these facts help demonstrate that there are many ways in 
which we can become more energy efficient as a country; simply 
reforming one industry won't fix the problem.
    Finally, they make us realize that green building will be necessary 
for the future success of our country.
    I am very pleased that the VA has been on the forefront of energy 
efficiency initiatives.
    Achieving wider LEED and Green Globe recognition, utilizing a 
variety of renewable energies and committing to cut emissions 30 
percent over the next 10 years are all reasonable and important goals.
    Understandably, the VA consumes a high amount of energy due to its 
network of around-the-clock hospitals and medical facilities. I hope 
the VA will continue to explore ways of reducing its carbon footprint 
while continuing to provide the world-class care it is known for.
    Mr. Chairman, thank you for holding this hearing. I look forward to 
the testimony of the witnesses. I remain committed to helping the VA 
achieve its energy efficiency goals, and I submit my statement for the 
record.

                                 <F-dash>
            Prepared Statement of Gail Vittori, Co-Director,
       Center for Maximum Potential Building Systems, Austin, TX

    On behalf of the Center for Maximum Potential Building Systems, a 
non-profit organization established in 1975 and based in Austin, Texas, 
I would like to thank Chairman Bob Filner and Ranking Member Steve 
Buyer for the opportunity to testify about energy efficiency 
opportunities at the U.S. Department of Veterans Affairs. My name is 
Gail Vittori, and I am Co-Director of the Center for Maximum Potential 
Building Systems (CMPBS).
    As a non-profit organization active in green building and life 
cycle design since its founding in 1975, CMPBS has been a catalyst for 
resource efficient, regionally appropriate building methods and 
materials and associated public policy, research, education and 
demonstration initiatives in both the public and private sectors. Over 
the past 10 years, CMPBS has pioneered the integration of green 
building practices in the health care sector, in collaboration with 
other non-profit organizations, professional societies, and health care 
systems.
    In 2001, I participated in the American Society for Health Care 
Engineering's first Green Building Task Force. The Task Force's work 
was released in 2002 as the ASHE Green Healthcare Construction Guidance 
Statement, establishing a seminal framework for shaping health care's 
green building opportunities, and setting the stage to connect these 
strategies with human health, environmental, economic and community 
benefits. It strategically positioned these initiatives around three 
scales of influence: Protect the immediate health of the building 
occupants; protect the health of the surrounding community; and protect 
the health of the global community and natural resources.\1\ Later in 
2002, CMPBS convened the Green Guide for Health Care, now a project of 
CMPBS and Health Care Without Harm; in 2004, I was appointed Founding 
Chair of the LEED for Healthcare core committee, and served in that 
capacity through 2008.
---------------------------------------------------------------------------
    \1\ American Society of Health Care Engineering. www.ashe.org. 
Accessed September 2009.
---------------------------------------------------------------------------
    Bolstered by these initiatives and others I'll mention through this 
testimony, in less than a decade resource conserving and healthy 
building strategies have shifted from the domain of a few early adopter 
health care organizations to recognized mainstreamed best practices, 
with measurable human health, environmental and bottom line economic 
benefits. The Department of Veterans Affairs has had a visible presence 
in supporting many of these efforts and investing in their own research 
to advance sustainable practices in their portfolio, including the 
recently released Innovative 21st Century Building Environments for VA 
Healthcare Delivery. This leadership is welcome at a time when the 
health care sector has much to learn from and collaborate with industry 
peers--and recognizes that sharing best practices and lessons learned, 
along with using and improving tools to measure, manage and 
continuously improve design decisions, operations and maintenance, is 
instrumental to advance the very best practices across the bottom line, 
embracing patient outcome, staff well-being and productivity, economic 
performance and community benefit. These are essential elements to 
shape 21st Century health care facilities, and, together, have the 
makings for a win-win-win agenda.
    Reflecting on recent studies, measurable benefits associated with 
green health care facilities are compelling:

    <bullet>  As documented in other market sectors, LEED<SUP>'</SUP> 
certified health care facilities do not necessarily have higher first 
costs than ``non-green'' buildings; first costs are independent of 
building size and LEED certification level; \2\
---------------------------------------------------------------------------
    \2\ Guenther, Houghton, Vittori. Demystifying Green Building 
Premiums in Healthcare, Summer2009. Health Environments Research & 
Design Journal. Vol. 3, No. 3, Vendome Group.
---------------------------------------------------------------------------
    <bullet>  Improve patient healing thereby reducing length of stay; 
\3\
---------------------------------------------------------------------------
    \3\ Alan Bell, Pioneering the Platinum Path for Health Care. 
Practice Greenhealth/GGHC Webinar, April 24, 2009.
---------------------------------------------------------------------------
    <bullet>  Reduce operating costs, curbing energy and water expenses 
by employing resource efficient practices and installing conserving 
equipment and fixtures; dollars budgeted for utilities can be 
redirected to patient care;
    <bullet>  Enhance competitiveness in the marketplace--they are the 
hospitals where patients want to go;
    <bullet>  Ease recruitment and retention challenges--they are the 
workplaces where medical professionals want to work.

    As a mission-driven sector focused on health, the maxim first do no 
harm is emerging as a defining lens reflecting patient care and, 
increasingly, how health care plans, designs, builds and operates its 
facilities. Operating one of the Nation's largest health care systems 
with more than 1,400 sites of care, the Department of Veterans Affairs 
is uniquely positioned to put the lessons of green building into 
practice--and to be a leader in the transformation of our healing 
environments.
The U.S. Health Care Sector
    The U.S. health care sector is the largest service sector in the 
U.S. According to the U.S. Department of Commerce International Trade 
Administration (2008), the health care sector represents 17 percent of 
the Gross Domestic Product and is projected to grow to 19.5 percent by 
2017. There are 33 million employees in the U.S. health care 
sector.<SUP>4,5</SUP>
---------------------------------------------------------------------------
    \4\ http://www.deloitte.com/dtt/cda/doc/content/
us_chs_Greening_Sustainability_HealthCare _1208.pdf, Accessed September 
2009.
    \5\ Ibid.
---------------------------------------------------------------------------
    Health care construction represents a similarly significant share 
of the U.S. economy. The U.S. Census Bureau indicates a $47.4 billion 
investment in health care construction between April 2007 and March 
2008, with the FMI Corp. projecting annual health care construction 
expenditures to reach more than $60 billion by 2010. \6\
---------------------------------------------------------------------------
    \6\ Environmental Construction and Management. 2007. ``Health Care 
Construction Prognosis: Industry Appears to be in Top Form,'' June
---------------------------------------------------------------------------
    The sector's sizable impact is not, however, without an 
environmental cost. Health care facilities in the U.S. are the second 
most energy intensive building sector, just below food service and 
sales,\7\ and release more than 30 pounds of CO<INF>2</INF> per square 
foot per year.\8\ In-patient facilities average 239,200 Btu/sq. ft., 
while overall health care facility energy intensity is calculated at 
187.7 Btu/sq. ft.\9\ On average, health care facilities are more than 
two times as energy intensive as commercial office buildings, and 
currently spend more than $8.5 billion on energy each year.\10\
---------------------------------------------------------------------------
    \7\ Energy Information Administration, CBECS 2003, adjusted for 
inflation to 2009 by U.S. 
Environmental Protection Agency, http://www.energystar.gov/
index.cfm?c=health care.bus_
health care, Accessed September 2009.
    \8\ http://www1.eere.energy.gov/buildings/energysmarthospitals/
about_esh.html. Accessed September 2009.
    \9\ Energy Information Administration, CBECS 2003, adjusted for 
inflation to 2009 by 
U.S. Environmental Protection Agency, http://www.energystar.gov/
index.cfm?c=health care.bus
_health care, Accessed September 2009.
    \10\ Energy Information Administration, CBECS 2003, adjusted for 
inflation to 2009 by 
U.S. Environmental Protection Agency, http://www.energystar.gov/
index.cfm?c=health care.bus
_health care, Accessed September 2009.
---------------------------------------------------------------------------
    We know, based on groundbreaking examples in the U.S. and abroad, 
this doesn't need to be the case. In contrast, U.S. hospital energy 
intensity is about three times the intensity for thermal energy as in 
Australia, and more than two times the electrical energy intensity in 
the U.K.\11\ These more energy efficient health care facilities operate 
without compromising patient care or safety, or staff well-being or 
productivity.
---------------------------------------------------------------------------
    \11\ CADDET, Learning from experiences with Energy Savings in 
Hospitals. CADDET Centre for the Analysis and Dissemination of 
Demonstrated Energy Technologies Energy Efficiency Analysis Report 
Brochure 05, 1997.
---------------------------------------------------------------------------
    Hospitals are also prodigious water users. An estimated 31.4 
million gallons of water are used per year for process use, and another 
13 million gallons per year for fixtures such as faucets, toilets and 
showerheads.\12\ This is equivalent to more than 120,000 gallons of 
water per day per hospital. Through a comprehensive water conservation 
strategy, Kaiser Permanente has reduced water consumption to an average 
of 107,143 gallons of water per bed per year, compared to 135,222 
gallons on average for California hospitals, and 182,699 gallons per 
bed per year nationally.\13\ According to a 2008 study issued by the 
Deloitte Center for Health Solutions, health care facilities report 
between 25 and 40 percent return on investment resulting from water 
conserving measures.\14\
---------------------------------------------------------------------------
    \12\ Bob Loranger. . .
    \13\ GHSI, The Eco-Health Footprint Guide, May 2009, pg. 8.
    \14\ Practice Greenhealth. Water Conservation Programs. http://
cms.h2e-online.org/ee/facilities/waterconserve/. Accessed September 
2009.
---------------------------------------------------------------------------
    At present, because of understandable infection control concerns, 
most if not all the water used inside hospitals is treated, potable 
water. As a result, health care's water demand represents not only an 
enormous draw on our Nation's potable water resources, but also imparts 
a substantial energy cost. Nationally, water supply and treatment 
represents about 4 percent of electricity use.\15\ For many 
municipalities, water treatment and transport represents their number 
one energy demand. Establishing hospital-specific protocols to reduce 
potable water use, while not compromising patient care, and putting 
these into practice is instrumental to ease demand on the Nation's 
water and energy supplies, and mitigate emissions associated with 
energy generation.
---------------------------------------------------------------------------
    \15\ Electric Power Research Institute. Water and Sustainability 
(Vol. 4): U.S. Electricity Consumption for Water Supply and Treatment-
The Next Half Century. Product ID No. 1006787. 2002.
---------------------------------------------------------------------------
    Another key area of health care's environmental footprint is waste. 
Hospitals have a unique waste profile including municipal solid waste, 
regulated medical waste, hazardous waste, pharmaceutical waste, 
electronic waste, and construction, demolition and land clearing waste 
associated with facility construction and renovations. In 1998, the 
U.S. EPA and the American Hospital Association set a goal to reduce 
hospital total waste volume by 50 percent by 2010.\16\ As one example 
of opportunity, a study of 9 Los Angeles hospitals found that non-
contaminated paper represents more than 53 percent of a hospital's non-
regulated waste.\17\
---------------------------------------------------------------------------
    \16\ http://www.h2e-online.org/pubs/Memorandum.pdf. Accessed 
September 2009.
    \17\ California Integrated Waste Management Board. http://
www.ciwmb.ca.gov/bizWaste/
FactSheets/Hospital.htm. Accessed September 2009.
---------------------------------------------------------------------------
    Pharmaceutical waste is a unique consequence of health care 
operations. According to the U.S. EPA, pharmaceuticals and personal 
care products are ``being discovered in our Nation's waterways in very 
low concentrations.'' \18\ Recognizing the potential consequences on 
human health and ecosystems resulting from unintentional exposure to 
these chemical byproducts, the EPA is proposing to add hazardous 
pharmaceutical wastes to the Universal Waste Rule, providing a disposal 
system for these wastes that protects public health and the 
environment.\19\
---------------------------------------------------------------------------
    \18\ http://www.epa.gov/waterscience/ppcp/, accessed 9/25/09.
    \19\ http://www.epa.gov/waste/hazard/wastetypes/universal/
pharm.htm. Accessed September 2009.
---------------------------------------------------------------------------
A Shift in Healing Environments
    Understanding why health care facilities are energy intensive and 
how they use energy provides a roadmap for reducing environmental 
impact, while generating significant financial savings and improving 
the working and healing environments of millions of Americans. 
According to the U.S. Environmental Protection Agency, each dollar 
invested in energy efficiency in the health care sector is equivalent 
to generating new revenues of $20 for hospitals, and $10 for medical 
office buildings. Every dollar saved through energy and water 
efficiency can be redirected to patient care.
    And, for the 33 million Americans working in health care 
facilities, they deserve nothing less than a building that promotes 
their health and well-being so they can deliver critical health care 
services benefited by an optimal work environment. Just as one example, 
a 1996 study found that nurses with access to a breakroom with windows 
made 40 percent fewer medical errors and had a 25-percent reduction in 
stress levels than nurses with windowless breakrooms. \20\
---------------------------------------------------------------------------
    \20\ Ovitt, University of Illinois. 1996.
---------------------------------------------------------------------------
    Hospitals are large, technically complex buildings, operating 24 
hours a day, 7 days a week, 365 days a year. They require the lights to 
be on all the time. Thus, it is not surprising that hospitals are 
governed by unique regulatory requirements addressing a range of 
mechanical and ventilation requirements that bear significant energy 
demands. Diagnostic medical equipment is largely unregulated; much of 
it is continuously operating. This results in substantial energy use 
and waste heat, contributing to the building's cooling loads.
    Recognizing the health care sector's unique needs and demands, a 
spectrum of tools and resources provide a solid foundation to deliver 
high performing healing environments. Two tools have emerged as 
principal guideposts: the health-based Green Guide for Health Care and 
the U.S. Green Building Council's LEED; LEED for Healthcare is in 
development. These metric tools focus on site, water, energy, 
materials, environmental quality and innovative and integrative design 
strategies. They reinforce that high performance and healing 
environments are consistent with a mission-based sector such as health 
care, with healing and stewardship central tenets. Indeed, many health 
care systems view their buildings and operations as visible, tangible 
manifestation of their core mission of healing and stewardship.
    Initially released in 2004, the Green Guide for Health Care is the 
health care sector's first quantifiable sustainable design toolkit, 
integrating enhanced environmental and health principles and practices 
into the planning, design, construction, operations and maintenance of 
health care facilities. It is a voluntary, self-certifying metric 
toolkit. The Green Guide builds on the ASHE Green Healthcare 
Construction Guidance Statement; its structure is adopted from the 
market-proven LEED framework and was created at a time when there was a 
void of green building rating tools and guidance customized for the 
health care sector. The Green Guide introduced an array of health care 
specific credits, such as Connection to the Natural World/Places of 
Respite, Process Water Use Reduction, Medical Equipment Efficiency, 
Design for Flexibility, Persistent Bioaccumulative Toxic Chemical 
Reduction, Construction Practices, Acoustical Control, Daylight and 
Views. These reflect a methodical, strategic look at how best to guide 
an industry with a unique operational profile, while honoring the 
opportunity to connect efficiency and performance within a context of 
healing. Health care systems such as Kaiser Permanente, based in 
California and the Nation's largest non-profit health care system, and 
Partners in Massachusetts have adopted the Green Guide to support the 
design, construction and operations of their new construction, 
renovations and additions.
    The Green Guide also developed a series of peer-reviewed Technical 
Briefs, released in 2007, to provide technical guidance to the 
industry. It also developed a peer-reviewed Prescriptive Path for 
Hospitals to achieve 14 percent Energy Reduction, applicable to all 
climate zones.
    LEED for Healthcare development began in 2004, using the Green 
Guide for Health Care as a foundational reference document. As with the 
Green Guide, LEED for Health Care will address issues unique to the 
health care industry including reducing chemicals and pollutants, 
providing access to nature and the outdoors, and encouraging 
transportation alternatives that reduce dependence on single occupant 
vehicles and a customized approach for views and daylight.
    As a result of these initiatives, today there are about 90 
registered Green Guide for Health Care projects representing an 
estimated 70 million square feet of green health care facilities, and 
440 LEED-registered and certified health care buildings, with 65 
certified under LEED rating systems released prior to LEED 2009, 
launched in April 2009.\21\ LEED certified health care projects 
represent more than 6 million gross square feet.
---------------------------------------------------------------------------
    \21\ Personal communication with Melissa Gallagher-Rogers, USGBC. 
September 24, 2009.
---------------------------------------------------------------------------
    These customized market transformation tools have been an essential 
underpinning of integrating green building into the health care sector. 
Through their use in practice, we are learning with increasing 
certainty the costs and benefits of energy and water efficiency and 
other green building strategies. Indeed, we find with recent data that 
a comprehensive green building approach can enhance patient safety, and 
improve the health and well-being of patients and staff.
    Further evidence of the market value of these tools is the 
Massachusetts Department of Public Health's approval, in September 
2008, of new guidelines that include the Green Guide for Health Care 
and LEED for Healthcare into the Determination of Need process. These 
guidelines, in effect as of January 1, 2009 for hospitals and clinics, 
and July 1, 2009 for nursing homes, require that the Determination of 
Need must establish that the project will take ``all feasible measures 
. . . to avoid or minimize damage to the environment'', and the 
projects must ``demonstrate their consideration of and commitment to 
LEED for Health Care and the Green Guide for Health Care standards, and 
be certifiable at a ``silver'' level based on the LEED point 
structure.'' \22\
---------------------------------------------------------------------------
    \22\ www.thefreelibrary.com/
Massachusetts+Determination+Of+Need+Process+Expanded+To+Include+New...-
a0187008995 accessed 9/24/09, 105 CMR 100.533(B)(8) (``Factor 8'').
---------------------------------------------------------------------------
    The U.S. Environmental Protection Agency's Energy Star for 
Healthcare offers two tools to benchmark facility performance for both 
new construction and existing buildings, available for acute care and 
children's hospitals and medical office buildings, in addition to other 
market sector building types. EPA's Target Finder provides a platform 
for architects and building owners to establish energy targets during 
the design process, and be eligible to achieve an EPA rating.\23\ 
Performance is compared to an ``average'' building, using up to three 
energy sources to estimate annual energy use. Projects achieving a 
rating of 75 or higher are eligible for Designed to Earn the ENERGY 
STAR designation.
---------------------------------------------------------------------------
    \23\ http://www.energystar.gov/
index.cfm?c=new_bldg_design.bus_target_finder. Accessed September 2009.
---------------------------------------------------------------------------
    EPA's Portfolio Manager offers an online tool to enable existing 
facilities to measure and manage energy and water consumption, estimate 
carbon footprint, and rate energy performance compared to facilities in 
their region and nationally. Portfolio Manager helps to guide strategic 
opportunities to reduce consumption. To date, 48 acute care and 
children's hospitals, representing 39,147,806 square feet, have earned 
the ENERGY STAR designation--15 of these are Department of Veterans 
Affairs hospitals.
    DOE's EnergySmart Hospitals, launched in 2008, provides hospitals 
with tools and resources addressing energy-efficiency and renewable 
energy technologies, spanning design, construction, retrofit, and 
operations and maintenance. EnergySmart Hospitals' goals include 
achieving 20 percent improved efficiency in existing hospitals, and 30 
percent improved efficiency in new hospitals relative to current 
standards. \24\
---------------------------------------------------------------------------
    \24\ http://www1.eere.energy.gov/buildings/energysmarthospitals/
about_esh.html. Accessed September 2009.
---------------------------------------------------------------------------
    The Healthcare Energy Impact Calculator, developed by Healthcare 
Without Harm and Practice Greenhealth, is a Web-based tool that 
calculates health impacts associated with power plant emissions 
associated with a health care facility's electrical generation. 
Identifying carbon dioxide, sulphur dioxide, nitrogen oxide and mercury 
emissions, the EIC estimates the number of related health incidents, 
such as asthma, premature death, and bronchitis, emergency room visits, 
medical treatment costs, and external societal costs based on U.S. EPA 
data.
    Critically, green health care facilities need not cost more than 
conventional facilities. Recent research published in 2009 reflecting 
an assessment of 13 LEED-certified and-registered health care projects 
suggests that first costs associated with green health care facilities 
are lower than commonly thought. Consistent with findings from other 
building sectors, data reveal that achieving low- or no first cost 
premium in health care facilities is independent of project size and 
LEED certification level. The study found that first cost green 
building premiums range from 0 to 5 percent before accounting for 
financial incentives--such as grants, philanthropic gifts, and public 
or utility incentives--and 0 to 3.8 percent when including financial 
incentives. The study also found that first cost green building 
premiums were higher for projects that achieved LEED certification 
early in this decade vs. projects that were certified later. As with 
other sectors, first cost green building premiums for health care 
facilities are trending down. \25\
---------------------------------------------------------------------------
    \25\ HERD Journal.
---------------------------------------------------------------------------
EXAMPLES
    Dell Children's Medical Center of Central Texas, a 473,000 square 
foot, 169-bed acute care hospital serving 46 Central Texas counties, 
opened in April 2007. As the first LEED-Platinum certified hospital in 
the world, Dell Children's provides an inside view of the costs and 
benefits of green health care facilities. From its inception, the Dell 
Children's team--both from the hospital administration and the design 
team--prioritized health and wellness. They made a commitment to 
quality in their pursuit of LEED Platinum certification. The project 
benefited from a rigorous energy model considering the relationships 
between building orientation, exterior envelope performance, window 
placement, daylight, access to views, and mechanical equipment. By 
partnering with the local utility, the project also reaped benefits 
from an on-site Combined Cooling, Heating and Power Plant (CCHP). The 
CCHP's 4.5 MW natural gas-fired turbine supplies 100 percent of the 
hospital's electrical demand, along with steam, and is 75 percent more 
efficient than coal-fired power plants. Combined heat and power systems 
reduce carbon dioxide and nitrogen oxide emissions, so contribute to 
healthier environments. As a healing environment, Dell Children's 
provides every patient room with daylight and views, with high 
efficiency lighting and occupancy sensors to reduce electrical loads. 
The project is designed to achieve a 17.2-percent reduction in direct 
energy use--and is an example of how an energy efficient hospital can 
also provide abundant daylight and views, often seen as being at cross-
purposes. Additionally, Dell Children's installed low-flow plumbing 
fixtures saving 1.4 million gallons of water a year, and tied in to the 
City of Austin's reclaimed purple pipe water system to offset reliance 
on potable water for their native plant landscape and outdoor healing 
gardens. They diverted 32,000 tons of construction debris from 
landfills, achieving a 91 percent overall recycling rate. Now in 
operation for more than 2 years, the Dell experience amplifies some of 
the measurable benefits from a high performing green hospital: \26\
---------------------------------------------------------------------------
    \26\ Pioneering the Platinum Path for Health Care. Practice 
Greenhealth/GGHC Webinar, April 24, 2009.

    <bullet>  2.4 percent nursing turnover rate in the first year, 
compared to 10-15 percent national average. The cost to replace one 
nurse at Dell Children's is more than $70,000.
    <bullet>  With energy costs of $2-$4 per square foot per year, 
productivity gains could exceed annual energy cost of operating the 
building.
    <bullet>  LEED has positively influenced recruitment, media 
attention, and patient surveys provide positive comments about building 
design.

    A second example is Gundersen Lutheran, a not-for-profit health 
care system operating in Wisconsin, Iowa and Minnesota. Gundersen 
Lutheran's focused efforts on energy performance have enabled them to 
achieve its goal of 20 percent reduced energy costs by the end of 2009, 
and to be 100 percent carbon neutral by 2014. In the May/June 2009 
article ``Lowering Health Care Costs Through Energy Efficiency'', 
Gundersen Lutheran's goal was defined as, ``. . . produce as much clean 
energy as it consumes by 2014, using techniques that have quick 
paybacks so that savings from reduced energy use can be used to support 
the institution's health care mission.'' \27\ They will achieve this by 
reducing energy demand in existing buildings by 30 percent, and in new 
facilities by 50 percent. A key driver of Gundersen's aggressive goal 
setting was their projection that if recent energy price trends 
continued, their energy bills would increase $500,000 each year.\28\ 
Their analysis of 10 years of utility bills calculated energy use of 
250 to 235 kBtu per square foot per year. They are designing their new 
hospital, due to open in 2012, to operate at 125 to 115 kBtu per square 
foot per year. Their early investment in a comprehensive facilities' 
audit identified lighting retrofit as a key energy savings opportunity. 
Retrofitting with more efficient lamps yielded ``better light for half 
the cost or less'' according to Gundersen's Corey Zarecki, and saved 
$250,000 per year in reduced energy bills.\29\ Gundersen Lutheran's 
Jeff Rich, Executive Director of Major Projects and Efficiency 
Improvements, also views this effort as mission driven: ``Not only do 
we feel it is the right thing to do from an environmental standpoint, 
we think it will improve health. By dropping carbon emissions, we 
actually can improve the air quality and the health of the community, 
and we believe that it is a hedge against inflationary pressures we are 
seeing from energy prices. And we believe we can drop the cost of 
health care with this program.'' \30\
---------------------------------------------------------------------------
    \27\ Sarah Klein, ``Case Study: Lowering Health Care Costs Through 
Energy Efficiency''. The Commonwealth Fund. May/June 2009. http://
www.commonwealthfund.org/Content/Newsletters/Quality-Matters/2009/May-
June-2009/Case-Study.aspx. Accessed September 2009.
    \28\ Sarah Klein, ``Case Study: Lowering Health Care Costs Through 
Energy Efficiency''. The Commonwealth Fund. May/June 2009. http://
www.commonwealthfund.org/Content/Newsletters/Quality-Matters/2009/May-
June-2009/Case-Study.aspx. Accessed September 2009.
    \29\ Ibid.
    \30\ Ibid.
---------------------------------------------------------------------------
RECOMMENDATIONS
    The Department of Veterans Affairs can further advance their 
energy-efficiency and green building initiatives through a 
comprehensive suite of data driven environmental goals, consistent with 
improved patient care and enhanced workplace, such as follow:

    1.  Perform a comprehensive audit of existing facilities and 
procurement to highlight the low-hanging fruit yielding quick return on 
investment that will reap financial benefits for many years. Consider 
these investment expenses, such as retrofitting lamps and water 
fixtures.
    2.  Ensure a regular maintenance regime, continuous commissioning 
and consideration of adding controls to mechanical equipment to 
optimize mechanical operations.
    3.  Implement green housekeeping, integrated pest management and 
use of healthy materials to measurably improve air quality.
    4.  Collaborate with industry peers on research initiatives such as 
displacement and natural ventilation that hold promise for significant 
energy reductions, and appropriate use of reclaimed water sources 
consistent with infection control considerations; share best practices.
    5.  For new construction, use an integrative design process and 
flexible design strategies; establish aggressive energy and water goals 
and assess renewable energy strategies. Design for solar readiness to 
enable installation of renewables when they have favorable life cycle 
costs.
    6.  Locate new projects near transit and provide safe routes for 
pedestrians and cyclists; for existing facilities, collaborate with 
transit authorities to provide service.
    7.  Connect facilities to locally grown, healthy food options.
    8.  Take advantage of existing tools to measure, manage and 
continuously improve performance.
    9.  Expand bottom line evaluation to provide for life cycle cost 
assessment, factoring in patient length of stay, employee recruitment 
and retention, energy and water savings, long-service mechanical 
performance, healing environment and environmental quality as measures 
of economic performance.

    Together, these strategies have the promise to position the 
Department of Veterans Affairs as a leader in green health care 
facilities. As a comprehensive initiative, these commonsense solutions 
will lower the VA's carbon footprint, shield against rising energy and 
water costs, provide a healthy environment to support patient healing 
and staff well-being and productivity, and contribute to healthy 
communities and ecosystems.

                                 <F-dash>
       Prepared Statement of Thomas W. Hicks, Executive Director,
      Building Performance Initiative, U.S. Green Building Council

    On behalf of the U.S. Green Building Council's (USGBC) nearly 
20,000 organizational members and 78 local chapters, thank you Chairman 
Filner and Ranking Member Buyer for the opportunity to testify about 
opportunities to improve the energy efficiency and sustainability of 
buildings owned and operated by the U.S. Department of Veterans 
Affairs. My name is Tom Hicks, and I direct the Building Performance 
Initiative at the U.S. Green Building Council.
Introduction
    The U.S. Green Building Council is a national nonprofit 
organization working to advance more environmentally responsible, 
healthy, and profitable buildings.
    The VA, with a diverse real estate portfolio including more than 
1,400 sites of care and serving millions of veterans each year,\1\ can 
and should do more to lead by example in the transformation of our 
buildings and communities. The agency has taken significant steps in 
this direction in recent years through its formal embrace of green 
building standards and initial deployment of a number of renewable 
energy systems.
---------------------------------------------------------------------------
    \1\ See U.S. Department of Veterans Affairs Organizational Briefing 
Book (June 2009) p. 7, available at http://www.va.gov/ofcadmin/docs/
vaorgbb.pdf.
---------------------------------------------------------------------------
The Impact of Constructing and Operating Buildings
    Buildings annually account for 39 percent of U.S. primary energy 
use and for 38 percent of U.S. CO<INF>2</INF> emissions; \2\ 13.6 
percent of all potable water use or 15 trillion gallons per year; \3\ 
and they consume 40 percent of raw materials globally (3 billion tons 
annually).\4\ The EPA estimates that 136 million tons of building-
related construction and demolition debris are generated in the U.S. in 
a single year.\5\ (By way of comparison, the U.S. creates 209.7 million 
tons of municipal solid waste per year.\6\) It is clear that the VA 
should accelerate its efforts to reduce the impact of its construction 
and building operations activities on the environment.
---------------------------------------------------------------------------
    \2\ Energy Information Administration (2008). Assumptions to the 
Annual Energy Outlook; Energy Information Administration (2008). EIA 
Annual Energy Outlook.
    \3\ U.S. Geological Survey (2000). 2000 data.
    \4\ Lenssen and Roodman, 1995, ``Worldwatch Paper 124: A Building 
Revolution: How Ecology and Health Concerns are Transforming 
Construction,'' Worldwatch Institute.
    \5\ U.S. EPA Characterization of Construction and Demolition Debris 
in the United States, 1997 Update.
    \6\ U.S. EPA Characterization of Municipal Solid Waste in the 
United States, 1997 Update. Report No. EPA530-R-98-007.
---------------------------------------------------------------------------
    Policymakers and building owners alike are now embracing green 
building to meet current economic, energy, and environmental 
challenges. They are focusing on the whole building, from construction 
materials to energy systems, and even cleaning supplies and waste 
management.
    More specifically, green building reduces emissions and 
environmental impacts throughout the supply chain and the complete 
building lifecycle by targeting:

    <bullet>  reduced energy consumption through the use of energy-
efficient heating and cooling systems, renewable power, and building 
commissioning (system ``tune ups'');
    <bullet>  reduced potable water consumption through the use of low-
flow fixtures and appliances, and the on-site treatment of storm water;
    <bullet>  reduced health impacts and improved environmental 
performance through the use of nontoxic, salvaged, recycled, and local 
materials, and the development of plans for managing waste, and
    <bullet>  reduced emissions, and reduced health and environmental 
impacts by siting buildings away from fragile ecosystems and near 
public transportation, and by promoting the use of hybrid or electric 
cars, and the use of alternative means of transportation, such as 
bicycles and walking.

Measurement of Economic, Health, and Environmental Benefits: The Size 
        of the Opportunity
    Importantly, the technology to make substantial reductions in 
energy use and CO<INF>2</INF> emissions in buildings is already 
available. Investments in energy-saving and other climate-friendly 
technologies can deliver buildings and communities that are 
significantly less carbon intensive, and are also more profitable and 
healthy places to live and work. The potential returns of a nationwide 
commitment to energy efficiency are tremendous: McKinsey & Co. reports 
that an up front investment of $520 billion in energy efficiency could 
generate more than $1.2 trillion in energy savings, reduce energy 
consumption by 23 percent, and reduce annual greenhouse gas emissions 
by 1.1 gigatons by 2020.\7\ According to McKinsey, this would have the 
same environmental impact as taking the entire fleet of U.S. passenger 
vehicles and light trucks off the road.\8\
---------------------------------------------------------------------------
    \7\ McKinsey & Co., Unlocking Energy Efficiency in the US Economy 
(July 2009), pp. iii & 12, available at http://mckinsey.com/
clientservice/electricpowernaturalgas/downloads/US_energy_ 
efficiency_full_report.pdf.
    \8\ See McKinsey & Co., available at http://mckinsey.com/
clientservice/electricpowernaturalgas/US_energy_efficiency/.
---------------------------------------------------------------------------
    The greening of day-to-day operations and maintenance of our 
building stock represents a powerful strategy for realizing this 
potential in a cost-effective and fully verifiable way. For example, 
green ``tune-ups'' to our building systems and equipment, known as 
``commissioning,'' produce measurable operational and environmental 
savings. Commissioning of existing buildings can improve energy 
efficiency by roughly 15 percent at a median cost of only 27 cents per 
square foot--offering an attractive payback period of roughly 6 
months.\9\ To give you a sense of the size of this opportunity, if all 
of the Nation's existing commercial buildings were to take advantage of 
these tune ups, this would yield $18 billion or more in energy savings 
annually.\10\
---------------------------------------------------------------------------
    \9\ Mills, E., Friedman, H., Powell, T., et al., The Cost-
Effectiveness of Commercial-Buildings Commissioning: A Meta-Analysis of 
Energy and Non-Energy Impacts in Existing Buildings and New 
Construction in the United States (December 2004), p. 1, available at 
http://eetd.lbl.gov/ea/emills/pubs/pdf/cx-costs-benefits.pdf.
    \10\ Id. at 57.
---------------------------------------------------------------------------
    Recognizing this potential, USGBC has worked for more than a decade 
to provide building owners, operators, and users with the tools and 
resources they need to achieve lasting environmental improvements in 
the places they live, work, and learn.
Validating Green Building: Use of Leadership in Energy and 
        Environmental Design (LEED)
    Chief among USGBC's suite of resources for advancing market 
transformation is the LEED (Leadership in Energy and Environmental 
Design) rating system--a voluntary, third-party certification system 
for green buildings. It was developed by USGBC to provide the building 
community with a measurable consensus definition of leadership in 
energy and environmental design.
    LEED promotes performance in six key areas: sustainable site 
development, water savings, energy efficiency, materials and resources, 
indoor environmental quality, and green building innovation. Each 
category includes certain minimum requirements that all projects must 
meet, followed by additional credits that are earned by incorporating 
green design and construction techniques. Four progressive levels of 
LEED certification--Certified, Silver, Gold and Platinum--are earned 
based on the number of credits achieved. The Green Building 
Certification Institute (GBCI) provides independent, third-party 
verification to ensure a building meets LEED's high performance 
standards.
    Originally launched in 2001 for new commercial construction 
projects, LEED is continuously improved to ensure its responsiveness to 
technical innovation and market demand. USGBC released rating systems 
for operations and maintenance and commercial interiors markets in 
2006, and for the schools and residential sectors in 2007. USGBC is 
also nearing completion of rating systems for neighborhood 
developments, health care facilities, and retail spaces. (A more 
complete discussion of LEED for Healthcare follows on page 8.)
    The most recent version of LEED, known as LEED 2009, was released 
in April 2009. This version involves several key advancements, 
including the weighting of LEED credits based on the extent of their 
ability to impact different environmental and human health concerns; 
and the regionalization of credits to acknowledge specific 
environmental issues and priorities that arise in different locations. 
Additional improvements to the online platform for LEED and an expanded 
certification structure through the Green Building Certification 
Institute accompanied the launch of LEED 2009.
Verifying Building Performance
    USGBC's work is guided by an understanding that improving building 
performance is a process, not an isolated act. Optimal building 
performance hinges on a sustained commitment from building owners, 
managers, and users alike, who must work together to ensure 
conscientious installation, use, and management of building equipment 
and systems.
    The importance of operations and maintenance to maximizing the 
energy-saving potential of sustainable design cannot be overstated. 
Where there is a gap between the design aspirations of a building and 
its actual performance, the problem is almost always operations and 
maintenance issues. For example, although one high-performance building 
was designed to achieve energy savings of 50 percent when compared to 
the national average, it in actuality achieved energy savings of just 
over 10 percent--a significant achievement gap.\11\ It turned out the 
building was not being operated with the same commitment to energy 
efficiency as was evidenced by its design and engineering. Closing this 
design-performance gap is essential to meeting the mounting climate and 
energy challenges that are now commanding international attention, and 
to realizing the $1.2 trillion in potential energy savings that are 
possible through energy efficiency improvements by 2020.\12\
---------------------------------------------------------------------------
    \11\ See id. at p. 8, Fig. 1.
    \12\ See McKinsey & Co., Unlocking Energy Efficiency in the U.S. 
Economy (July 2009), available at http://mckinsey.com/clientservice/
electricpowernaturalgas/downloads/US_energy_effi-
ciency_full_report.pdf.
---------------------------------------------------------------------------
    Motivated by its desire to close potential achievement gaps between 
design and performance, in August 2009, USGBC launched a new Building 
Performance Initiative. The Initiative seeks to put in place a 
comprehensive data collection effort for all buildings that have 
achieved LEED certification; implement an appropriate methodology for 
analyzing this data; and provide building owners with better 
information with which to address any performance gaps that stem from 
predicted versus actual building performance.
    The Initiative builds on announcements made by USGBC earlier this 
year in tandem with its release of LEED 2009. LEED 2009 requires that 
the owners of all certified projects permit USGBC to access actual 
energy and water use data in the future to support research on best 
practices and building performance. Mindful that diligent operations 
and maintenance practices are an imperative for all buildings, USGBC 
also encourages new construction projects certified under LEED to 
embrace the operational and maintenance practices set forth in our 
separate certification protocol--LEED for Existing Buildings: 
Operations & Maintenance.
    LEED for Existing Buildings: Operations & Maintenance provides 
building owners and managers with a set of performance targets and best 
practices for improving their facilities and their building management 
practices to yield substantial savings in energy, water, and solid 
waste. Developed by industry experts from the facility and property 
management and engineering fields, the LEED for Existing Buildings: 
Operations & Maintenance rating system provides a set of best green 
practices in building operations, highlighting opportunities to use 
less energy, water and natural resources; improve the indoor 
environment; and uncover hidden opportunities for savings. A key 
requirement is that the facility manager develop a comprehensive plan 
for reporting, inspecting, and reviewing building operations and 
maintenance practices to ensure optimal performance throughout the 
building's life. Projects are required to submit actual performance 
data through LEED's online portal as part of the certification process 
to demonstrate that they are achieving the indicated performance 
measures.
Greening Federal Buildings
    As the owner, tenant, or manager of more than 3.3 billion square 
feet of building space valued at more than $772 billion, the Federal 
Government has the country's largest real estate portfolio,\13\ 
including many of the Nation's most recognized and cherished landmarks. 
With this vast portfolio comes the power to forge a greener, more 
energy efficient, healthier, and prosperous path for the Nation's 
buildings and communities. By leveraging the unparalleled purchasing 
power of taxpayer dollars to support green building, the Federal 
Government can not only reduce its significant environmental footprint, 
but also speed the adoption of green building strategies by the private 
sector, and save real dollars and resources through reduced utility 
bills and operating costs.
---------------------------------------------------------------------------
    \13\ Federal Real Property Council, FY 2007 Federal Real Property 
Profile (May 2008), http://gsa.gov/graphics/ogp/FRPP_FY07.pdf.
---------------------------------------------------------------------------
    The potential environmental and economic savings are extraordinary. 
If the Federal Government were to re-commission its entire building 
stock and achieve the estimated 15-percent reductions in energy 
use,\14\ it could generate more than $650 million in annual energy 
savings and eliminate roughly 2.7 million tons of carbon in 1 year.\15\
---------------------------------------------------------------------------
    \14\ See Mills, E., Friedman, H., Powell, T., et al., The Cost-
Effectiveness of Commercial-Buildings Commissioning: A Meta-Analysis of 
Energy and Non-Energy Impacts in Existing Buildings and New 
Construction in the United States (December 2004), available at http://
eetd.lbl.gov/emills/PUBS/Cx-Costs-Benefits.html.
    \15\ Extrapolations from Federal building consumption data in the 
U.S. Department of Energy's Buildings Data Energy Book, available at 
http://buildingsdatabook.eren.doe.gov/Chapter View.aspx?chap=4#1. Total 
Federal primary energy consumption in buildings and facilities for FY 
2005 was.65 quadtrillion Btu. The Federal Government spent 
$4,390,100,000 in FY 2005 on energy for buildings. The above 
extrapolations assume that all of the energy comes from coal-fired 
electricity production.
---------------------------------------------------------------------------
    Recognizing the impact of the Federal building sector, 13 Federal 
agencies or departments have made policy commitments to use or 
encourage LEED certification. Some 24 million square feet of federally 
owned or leased building space is currently certified under LEED, and 
more than 400 million square feet of space is registered with LEED. 
These policies, coupled with various policies referencing LEED in 34 
States and more than 190 localities, are having a marked impact on the 
larger green building landscape. To date, more than 23,700 building 
projects are registered with LEED, and more than 3,600 projects have 
earned LEED certification.
Sustainability and the Department of Veterans Affairs
    Boasting a construction budget of more than $1.8 billion and a 
diverse building portfolio of more than 1,700 facilities, including 
1,400 sites of care, \16\ the VA is an essential player in the effort 
to reduce our Nation's environmental footprint. The department's 
significant presence in the health care sector presents unique 
opportunities for Federal leadership, given the large energy use of 
hospitals and medical centers and the critical role these facilities 
play in advancing the Nation's wellness.
---------------------------------------------------------------------------
    \16\ See Department of Veterans Affairs Organizational Briefing 
Book (June 2009) p. 5, available at http://www.va.gov/ofcadmin/docs/
vaorgbb.pdf (noting that VA maintains 153 hospitals, 995 outpatient 
clinics, 135 community living centers, 49 domiciliary residential 
rehabilitation treatment programs, 232 veterans centers, 57 veterans 
benefits offices, and 128 national cemeteries).
---------------------------------------------------------------------------
    VA has long worked to improve the energy performance of its 
facilities, adopting EPA's Energy Star tool early on to benchmark its 
portfolio. In the past several years, the VA has worked consistently to 
comply with Federal environmental requirement and goals,\17\ including 
through its ``Green Buildings Action Plan.'' The Action Plan details 
the agency's commitment to the use of integrated design, commissioning, 
energy efficiency, and measurement and verification to enable optimal 
performance of agency facilities.\18\ The VA's Sustainable Design and 
Energy Reduction Manual provides additional guidance in pursuit of 
these goals, with information about how the LEED rating system (and 
specific credits and topics within it) can be used by VA facilities to 
meet Federal mandates.\19\ Indeed, LEED is prescribed as the 
methodology for achieving Federal mandates related to sustainability 
and energy reduction, and projects are encouraged to achieve LEED 
Silver equivalency for construction projects. Third-party certification 
under LEED is recommended, but not required.\20\
---------------------------------------------------------------------------
    \17\ See, e.g., Energy Policy Act of 2005, Public Law 109-58; 
Executive Order 13423, Strengthening Federal Environmental, Energy, and 
Transportation Management; Energy Independence and Security Act of 
2007, Public Law 110-140.
    \18\ See U.S. Department of Veterans Affairs, Green Buildings 
Action Plan, available at http://www.cfm.va.gov/TIL/sustain/
GreenBuildAction.pdf.
    \19\ See U.S. Department of Veterans Affairs, Sustainable Design 
and Energy Reduction Manual, available at http://www.wbdg.org/ccb/VA/
VAENERGY/sderm.pdf.
    \20\ See id. at 2-2.
---------------------------------------------------------------------------
    The following LEED case study highlights green building principles 
in practice in one VA facility:

    <bullet>  VA Regional Office, Reno, NV: VA's first LEED certified 
facility, which earned LEED Silver under LEED for New Construction 
version 2.2, features a range of energy and environmental measures. The 
36,000 square-foot building has occupancy sensors and daylighting 
controls, low-flow plumbing fixtures, a ``cool'' roof to reduce heat 
effect, high-efficiency glazed windows, and paints, carpets, and other 
products selected for their low-Volatile Organic Compound (VOC) 
content. The project also makes use of locally and regionally sourced 
materials, with some 30 percent of materials manufactured by local 
companies, roughly 70 percent harvested or extracted within 50 miles, 
and more than 10 percent derived from recycled materials.\21\
---------------------------------------------------------------------------
    \21\ U.S. Department of Veterans Affairs, VAnguard (May/June 2008), 
``A Sustainable Approach to Building Design,'' at p. 14-15, available 
at http://www1.va.gov/opa/feature/vanguard/08mayjuneVG.pdf.

    Eighteen other VA facilities are now registered with LEED.
Opportunities for Enhanced Performance
                   Leveraging Economic Recovery Funds

    In recent months, VA has pursued a number of far-reaching 
sustainability projects through the use of funds provided by the 
American Recovery and Reinvestment Act (ARRA). Significantly, the 
agency is dedicating roughly $399 million of the $1 billion provided 
for medical facilities operated by the Veterans Health Administration 
to energy efficiency and renewable energy projects.\22\ The remaining 
funds will be used for diverse nonrecurring maintenance projects, among 
them the installation of advanced utility metering systems and lighting 
controls, and upgrades to HVAC systems.\23\ Additional energy 
conservation projects are planned for monuments and memorials as part 
of the $50 million in repair funds provided to the National Cemetery 
Administration.\24\
---------------------------------------------------------------------------
    \22\ See U.S. Department of Veterans Affairs, Implementing the 
Recovery Act, available at http://www.va.gov/recovery/
Implementing_the_Recovery_Act.asp.
    \23\ See U.S. Department of Veterans Affairs, Planned Obligations 
for ARRA Non-Recurring Maintenance Projects through August 30, 2009, 
available at http://www.va.gov/recovery/Agency_Plans_and_Reports.asp.
    \24\ See U.S. Department of Veterans Affairs, Implementing the 
Recovery Act, available at http://www.va.gov/recovery/
Implementing_the_Recovery_Act.asp.
---------------------------------------------------------------------------
    USGBC applauds the Department's commitment to sustainability and 
encourages it to leverage ARRA funds to even greener ends through the 
use of energy saving performance contracts. Under this model, the 
agency enters a contract with an energy service company (ESCO), which 
finances the upfront cost of the desired improvements, including needed 
equipment. The balance is then repaid by the agency throughout the 
contract period using the energy and other savings that are generated 
by the project. By providing upfront financing that can be combined 
with other measures undertaken by the agency, performance contracting 
offers VA a means of broadening both the scope and depth of its 
facility-related projects.
    Most commonly used to finance water and energy improvements, 
performance contracting is gaining popularity as a means of supporting 
green improvements. Unlike traditional performance contracting, which 
frequently targets isolated opportunities, ``green performance 
contracting'' draws upon an integrated approach encompassing energy- 
and water-saving measures as well as features designed to improve 
indoor health and environmental quality. Green performance contracting 
may even be used to cover the cost of green roof retrofits, and the 
installation of systems to manage stormwater or other external 
environmental pollutants.
    By accounting for the interaction between building systems, 
materials, and operational measures, green performance contracting can 
deliver maximum building performance. Combining this model with third-
party verification, such as that provided by LEED for Existing 
Buildings: Operations and Maintenance, can ensure that buildings 
optimize sustainability as well as cost reductions.

                      Green Health Care Facilities

    Located throughout the country and varying in type from hospitals 
to outpatient clinics and community living centers, VA health 
facilities play an essential role in the wellness of both our Nation's 
people and our environment. Indeed, in 2008, more than 5 million 
veterans sought care in VA health facilities.\25\ The use of green 
building strategies targeted at the health care sector can optimize 
performance of these facilities, in turn improving patient care, 
reducing greenhouse gas emissions, and generating significant financial 
savings that can be reallocated to other priorities in service of our 
Nation's veterans.
---------------------------------------------------------------------------
    \25\ U.S. Department of Veterans Affairs Organizational Briefing 
Book (June 2009) p. 7, available at http://www.va.gov/ofcadmin/docs/
vaorgbb.pdf.
---------------------------------------------------------------------------
    Developed in conjunction with the Green Guide for Health Care, LEED 
for Healthcare addresses sustainability through the unique lens of 
treatment environments. The rating system, which is nearing its second 
public comment period, builds on core LEED credits to also encompass 
issues such as increased sensitivity to chemicals and pollutants, 
traveling distances from parking facilities, and access to natural 
spaces.
    Several VA health care facilities are now registered with LEED, 
most under the LEED for New Construction rating system. USGBC 
encourages the use of integrated design in all VA health care 
facilities in light of their unique impact on health, the environment, 
and the economy.

                           Advanced Metering

    Advanced meters enable building owners and operators to view in 
``real time'' a building's energy and water consumption and also allow 
for peak demand reductions, reducing capacity shortages in strained 
utility service territories. In addition to enabling dramatic 
operational savings, advanced metering performs a critical educational 
role--helping to raise awareness among building occupants and operators 
about both the need and opportunities for reducing energy and water 
consumption. Several VA facilities are now installing advanced metering 
using ARRA funds. USGBC urges other facilities to follow their lead.

              Renewable Energy and Green Power Purchasing

    Turbulent energy prices, greenhouse gas emissions, and energy 
security demand that buildings and communities seek out new and 
renewable sources of energy, among them solar, wind, and biomass power. 
The VA is a leader in the purchase of ``green'' power, ranking 4th 
among Federal agencies participating in the EPA's Green Power 
Partnership, which assists organizations in procuring power from 
renewable resources.\26\ The agency currently derives 4 percent of its 
electricity from green power.\27\
---------------------------------------------------------------------------
    \26\ U.S. Environmental Protection Agency, Green Power Partnership, 
Top 10 Federal Government (as of July 9, 2009), available at http://
www.epa.gov/grnpower/toplists/top10federal.htm.
    \27\ Id.
---------------------------------------------------------------------------
    Importantly, VA facilities need not rely on power purchasing alone 
to diversify their energy supplies, but rather can themselves serve as 
significant renewable energy producers. In 2007, as part of its energy 
management plan, the VA launched an initiative to expand the use of the 
alternative energy in VA facilities. The agency selected 39 pilot 
projects for potential use in hosting photovoltaic, solar water 
heating, wind, or geothermal systems. These projects are enabling 
dramatic results. For example, through more than 1,600 solar panels on 
its 2,000-square foot roof, the Jerry L. Pettis Memorial VA Medical 
Center in California is expected to save an estimated $60,000 in 
electricity costs.\28\
---------------------------------------------------------------------------
    \28\ U.S. Department of Veterans Affairs, VAnguard (November/
December 2008), available at http://www1.va.gov/opa/feature/vanguard/
08novdecVG.pdf.
---------------------------------------------------------------------------
    Other VA health care facilities possess similarly tremendous square 
footage, and as such, opportunities for deploying renewable energy 
systems. Building commissioning--by ensuring proper calibration of 
building equipment and by addressing leaks in the building envelope--
can assist in eliminating unnecessary energy use and in putting 
renewable energy to its most efficient use.

Conclusion
    With a vast building portfolio and a mission of service to our 
Nation's veterans, VA is a natural leader in the movement toward more 
sustainable, healthy, and cost-effective buildings. The agency's recent 
efforts to both track and seek improvements in the energy and 
environmental performance of VA facilities through metering and 
commissioning are critical, and should be extended to all VA 
facilities. Additional focus on the use of integrated and sustainable 
design strategies--particularly in VA's health care facilities--can 
amplify these efforts, enabling impressive environmental and health 
benefits, while also generating financial savings that can be 
reallocated to other priorities in support of our Nation's veterans.

About U.S. Green Building Council
    The Washington, D.C.-based U.S. Green Building Council is committed 
to a prosperous and sustainable future for our Nation through cost-
efficient and energy saving green buildings.
    With a membership comprising 78 local chapters, nearly 20,000 
Member companies and organizations, and more than 100,000 LEED 
Accredited Professionals, the U.S. Green Building Council is the 
driving force of an industry that is projected to soar to $60 billion 
by 2010. The U.S. Green Building Council leads an unlikely constituency 
of builders and environmentalists, corporations and nonprofit 
organizations, elected officials and concerned citizens, and teachers 
and students.

                                 <F-dash>
Prepared Statement of Jane M. Rohde, AIA, FIIDA, ACHA, AAHID, Principle 
                   and Founder, JRS Associates, Inc.,
                 on behalf of Green Building Initiative

    Chairman Filner, Ranking Member Buyer and Members of the Committee, 
thank you for the opportunity to discuss my experience evaluating the 
sustainability of VA Hospitals using the Green Building Initiative's 
Green Globes<SUP>'</SUP> rating system.
    I am the principal and founder of JSR Associates, Inc., a senior 
living and health care consulting firm. As an architect with more than 
20 years of health care experience, I've participated on many design 
Committees, including the Guide lines for Design and Construction of 
Healthcare Facilities, which is code in at least 44 States and 
referenced by the VA.
    Today I am speaking on behalf of the Green Building Initiative, a 
non-profit organization that brought the Green Globes<SUP>'</SUP> 
building rating system to the United States in 2005.
About Green Globes<SUP>'</SUP>
    The Green Globes system is a Web-based tool being used by 21 VA 
hospitals to meet the Federal requirements outlined in the Guiding 
Principles. Green Globes for Continual Improvement of Existing 
Buildings (CIEB) was the module used. During this process, VA Energy 
Managers were asked to complete an electronic survey of their medical 
center and report their findings. Important items requested during this 
evaluation are monthly energy and water consumption from utility bills, 
information on transportation practices that minimize energy 
consumption, and other data that describe policies related to 
containing emissions, promoting recycling, and monitoring indoor 
environmental issues.
    Additionally, the Green Globes system recognizes progress in 
reducing energy consumption through use of the Energy Star rating 
system. By evaluating operational energy and source energy through 
Energy Star, and by using life cycle assessment tools, the Green Globes 
rating system can help building owners identify a building's carbon 
footprint and set goals for improvements.
    Once the initial Green Globes survey is completed in-house, the 
team is then provided with an automated report with an initial score 
and opportunities for improvement. This automatically generated report 
is based on the Green Globes protocol which assigns a certain number of 
points to each answer based on desirable outcomes. The report is for 
the internal team's use to evaluate the recommendations for 
improvements to the medical facility and its operations.
    Following this evaluation, a third-party assessor visits the 
building to audit the team's documented outcomes, interview key staff, 
complete a walkthrough and determine if the building qualifies for 
Green Globes certification.

Lessons Learned on VA Buildings
    As a third-party assessor, I have visited 15 out of the 21 
hospitals that are working to complete the Green Globes evaluation and 
certification process.
    While we are still in the early stages of evaluating the VA 
hospitals, I can tell you that these facilities are doing extremely 
well in their efforts to comply with Federal sustainability 
requirements. It is clear to me that, in addition to receiving valuable 
feedback and recognition from this process, many of the VA's best 
practices in sustainability will provide valuable case studies to 
benefit the health care facilities in the private sector.
    I would like to provide you with some of the creative ideas and 
programs that are currently proposed or being completed at VA hospitals 
across the country:

    <bullet>  Richmond, Virginia, has a proposed project to complete an 
arboretum that would not only be a site enhancement, but will reduce 
heat island effect, reduce water runoff, provide a resource for the 
Veterans and their families, and create an opportunity for engaging the 
community at-large.
    <bullet>  Portland, Oregon, has a boiler/chiller plant supervisor 
training program that is exemplary, including an education manual and 
on-site training tools. They are able to share their expertise with not 
only trainees but other locations that need assistance with additional 
improvement in energy and water consumption.
    <bullet>  Dallas, Texas, is in the process of completing an Ethanol 
fueling station for the VA and other governmental agencies for their 
Flexible Fuel fleet vehicles.
    <bullet>  Birmingham, Alabama, located in a tight urban block, is 
evaluating using an existing underground spring for recovery of water 
for the cooling tower.
    <bullet>  San Diego, California, has one of the strongest recycling 
programs across the board. This site, as well as Milwaukee, Portland, 
and Seattle, are excellent examples of systems that are working to 
reduce use of natural resources.

    Because continual improvement is just that--continual--it is 
important to realize that ongoing efforts are what make a hospital 
sustainable. Tools and certification programs like Green Globes allow 
the VA staff to conduct periodic assessments that then empower them to 
be the drivers of initiatives for improvement that can be quantified 
over time.
    The next steps for VA and I assume all Federal agencies will be to 
do the deeper dive on their portfolios. Continuing with such an 
assessment program will help to achieve the largest potential energy 
and water savings across all of VA Health Care Facilities--not only 
hospitals, but the range of VA facilities, including CBOTs, CLCs, 
Hospice/Palliative Care, and Polytrauma Centers. To do this, they need 
multiple tools--like Green Globes--to help make surveying, measurement, 
evaluation, and regular benchmarking part of their ongoing process.
    It is clear that the VA hospitals that have been assessed are on a 
positive path for sustainable improvement. I am fortunate to be part of 
this groundbreaking initiative, assessing firsthand the creativity, the 
potential, and the amazing outcomes that are sure to manifest as a 
result of this ongoing evaluation and certification process.

        JSR Associates, Inc. Background and Relevant Information

    JSR Associates, Inc. represents over 20 years of experience in 
programming, architecture, interior design, and operational consulting 
for Senior Living and Healthcare Projects. Jane Rohde founded the firm 
in 1996 and her practice focuses predominantly on senior living and 
health care consulting. She is an independent contractor serving the 
Green Building Initiative as a third party assessor for the Continual 
Improvement of Existing Buildings module of Green Globes<SUP>'</SUP>. 
Rohde holds a Bachelor of Architecture Degree from Virginia Tech and is 
certified by the American College of Health Care Architects (ACHA) and 
the American Academy of Health Care Interior Designers (AAHID). Rohde 
is also NCIDQ and NCARB certified, as well as being a LEED Accredited 
Professional. Additionally, Rohde is a professional member of the AIA 
and honored as a Fellow for her volunteer and leadership work in health 
care design by the International Interior Design Association (FIIDA).

  Highlights from Third-Party Assessment of VA Hospitals Using Green 
                       Globes-CIEB Rating System

    To date, the initial VA hospitals evaluated are on track to achieve 
Green Globes certification. This approach to evaluation provides a 
holistic review of facility operations addressing not only energy 
issues, but also water, indoor environment, site enhancement, 
emissions, and environmental management practices. With both the Energy 
Manager and GEMS Coordinator (Green Environmental Management System) 
positions already in place within most VA Medical Centers, an ideal 
team is created to work in tandem on completing the on-line Green 
Globes survey. VA was able to evaluate whether to hire outside vendor 
support to complete the sustainability evaluations or to use their in-
house staff. In most cases, Green Globes is written in such a way that 
in-house teams will often choose to complete the work on their own, 
knowing that a highly qualified third-party assessor will be following 
through with a detailed audit. Furthermore, the Green Globes process 
provides instant feedback and recommendations for the teams to consider 
as they drive further improvements in the performance of the VA 
portfolio.

   Opportunities for VA Hospitals to Conduct Ongoing Assessment and 
                         Continual Improvement

    The following recommendations are some of those that will be made 
for consideration to the in-house teams to further this dynamic 
process:

    <bullet>  Use thermal imaging for all hospitals to detect thermal 
leaks in the envelope of the buildings. This includes evaluation of 
loss of thermal control through the roof, walls and windows.
    <bullet>  Create a task force to include IT departments and Energy 
Managers to review opportunities to reduce the time that computers are 
turned on in non-essential areas to conserve energy.
    <bullet>  Create a task force to include Food Service management, 
Canteen management, and Procurement/Acquisitions to discuss the 
potential of localizing contracts to reduce inherent energy and 
transportation costs of products that could be provided locally.
    <bullet>  Recommend discussion between NSF, VACO, and EPA to 
evaluate Kitchen Equipment for energy and water conservation compliance 
(Energy Star, FEMP, Waterwise, etc.).
    <bullet>  Continue to monitor and benchmark water usage and energy 
usage comparatively to uniques (patient types) and resulting staff 
changes for clearer evaluation of consumption in relationship to the 
water and energy reductions required by 2015.
    <bullet>  Work cooperatively with GBI and other similar green 
building organizations, the Irrigation Association and industry to 
enhance opportunities for water efficiency and site enhancement as this 
process is extended to other VA facilities, including cemeteries.

    Third-party certification is also an important part of 
sustainability. It is important to validate the work that VA is doing--
and--if it's similar to the process the VA has used through the GBI, it 
will provide them with valuable feedback and recommendations for 
continual improvement from highly qualified assessors.

      Green Globes for Continual Improvement of Existing Buildings

    Considering that the United States is home to more than 100 million 
buildings, the need to improve the performance of existing structures 
is a necessary prerequisite for widespread energy efficiency; 
particularly for health care buildings, as their water and energy 
consumption are much larger than other building types. The missing 
element--until GBI introduced Green Globes-CIEB--was a practical and 
affordable way to measure and monitor sustainability and operational 
performance on an ongoing basis.

[GRAPHIC] [TIFF OMITTED] T3431.001


    Green Globes-CIEB allows users to create a baseline of their 
building's performance, evaluate interventions, plan for improvements, 
and monitor success--all within a holistic framework that also 
addresses physical and human elements such as material use and indoor 
environment.
    As in Green Globes for New Construction, energy is the most 
significant area of assessment within Green Globes-CIEB. A combined 
focus on energy use, building features, and management practices helps 
to pinpoint where performance is lacking and what corrective action is 
required. The system uses ENERGY STAR to determine a consumption target 
for each building type and, where appropriate, buildings must meet a 
minimum performance target of 75 percent based on the comparable ENERGY 
STAR rating system.
                     Green Globes Automated Reports
[GRAPHIC] [TIFF OMITTED] T3431.002

[GRAPHIC] [TIFF OMITTED] T3431.003

[GRAPHIC] [TIFF OMITTED] T3431.004


    The best way to achieve facility-wide environmental goals is to put 
easy to understand information in the hands of those that make decision 
and maintain the facilities. Green Globes-CIEB reports are generated 
following completion by the in-house staff of an approximately 150-
question building survey. The survey helps staff to identify their 
operations' strengths and weaknesses and provides them with 
opportunities for improvement. The report is a tool for the in-house 
staff and decisionmakers.
    The report is also informative for the third-party assessor prior 
to evaluation of the building against Green Globes protocols. Each 
entry in the survey must be verified by the GBI-authorized third-party 
assessor before a building can qualify for a Green Globes rating of 
one, two, three, or four Green Globes. Once an on-site assessment is 
completed by a GBI-assigned third-party assessor--which includes 
evaluation of documentation and interviews with key facility 
personnel--a certified rating is assigned to the building.
                  Achieving Green Globes Certification
    Projects that achieve a score of 35 percent or more out of 
applicable points become eligible for a Green Globes rating of one, 
two, three or four globes, as follows:

    <bullet>  One Globe: 35-54 percent
    <bullet>  Two Globes: 55-69 percent
    <bullet>  Three Globes: 70-84 percent
    <bullet>  Four Globes: 85-100 percent

    However, buildings cannot be promoted as having achieved a Green 
Globes rating until the information submitted has been assessed and 
certified by a qualified third party.
    The Green Globes third-party assessment features a rigorous 
evaluation process. The evaluation includes a thorough review of 
documentation, an on-site walk through, and interviews of key facility 
personnel.
    The GBI currently oversees a network of Green Globes-trained 
assessors comprised primarily of licensed architects and engineers with 
significant experience in building sciences and sustainability issues. 
To accommodate increasing demand and further strengthen our third-party 
assessment program, GBI has launched a personnel certification and 
training program. The most highly qualified architects, engineers, and 
building sustainability experts will be eligible to become certified as 
Green Globes Assessors (GGAs) whereas other practitioners with 
experience in applying sustainability principles to buildings can earn 
a Green Globes Professional (GGP) certification. Both programs are 
accompanied by comprehensive training.

                 U.S. Market Acceptance of Green Globes

    To date, 76 buildings have successfully achieved Green Globes 
third-party certifications across the United States. More than 400 
additional buildings are also registered to complete a Green Globes 
assessment in the future.
    Green Globes has also been formally recognized by the public and 
private sectors including the following:

    <bullet>  To date, 35 Federal Government buildings are registered 
with Green Globes and are at some stage in the assessment process. This 
includes 14 buildings from the U.S. government Services Administration 
(GSA) Region 9 (San Francisco) and GSA Region 5 (Chicago), 21 Green 
Globes-CIEB assessments from the U.S. Department of Veterans Affairs 
and 1 Green Globes assessment from the U.S. Department of State.
    <bullet>  Nineteen States have included Green Globes in green 
building legislation, regulation or executive order, including: 
Arkansas, Connecticut, Florida, Hawaii, Illinois, Indiana, Kentucky, 
Minnesota, New Jersey, New York, Nevada, North Carolina, Oklahoma, 
Pennsylvania, South Carolina, South Dakota, Tennessee, Virginia and 
Wisconsin.
    <bullet>  Green Globes is included in insurance packages offered 
for green buildings by Aon Corp., Fireman's Fund Insurance Co., Liberty 
Mutual, and Travelers.
    <bullet>  Since the launch of Green Globes-CIEB, some of the 
largest corporations and real estate companies in the country have 
chosen to use it for their existing building portfolios, including the 
USAA Real Estate Co., Tishman Speyer-Chicago, Capital One, and 
Rubbermaid.

     Green Building Initiative Background and Relevant Information
GBI Mission & Structure
    The GBI is committed to accelerating the adoption of green building 
practices by offering credible and practical tools that make green 
design, management and assessment more accessible to a wider population 
of builders and designers.
    The Green Building Initiative (GBI) is a 501(c)(3) non-profit 
education organization based in Portland, Oregon. It was established to 
accelerate the adoption of sustainable design and construction 
practices by promoting credible and practical approaches to green 
building for both residential and commercial construction.
    Ward Hubbell, who has previously testified before Congress, serves 
as President of GBI at the discretion of an independent, multi-
stakeholder board of directors comprised of construction professionals, 
product manufacturers, non-profit organizations, university officials, 
and other interested third parties. Each board member is allocated one 
vote to guide the GBI, ensuring an equal balance of influence. For a 
list of board members, please visit the board page of the GBI Web site.
    Having long recognized the power of collaboration, GBI has sought 
to foster relationships with a variety of organizations related to the 
built environment with the goal of helping to accelerate the acceptance 
of sustainable design and construction in the marketplace. To this end, 
GBI has a formal partnership with the U.S. Environmental Protection 
Agency's ENERGY STAR<SUP>'</SUP> program, as well as Memorandums of 
Understanding with the following organizations:

    <bullet>  American Institute of Architects (AIA)
    <bullet>  American Society of Heating, Refrigerating and Air-
Conditioning Engineers (ASHRAE)
    <bullet>  Associated General Contractors of America (AGC)
    <bullet>  Building Owners and Managers Association (BOMA)
    <bullet>  National Association of Home Builders (NAHB)

    GBI has also established collaborative relationships with, among 
others:

    <bullet>  Alliance to Save Energy (ASE)
    <bullet>  Architecture 2030
    <bullet>  Sustainable Buildings Industry Council (SBIC)

Accomplishments, Innovation and Competition
    When GBI was established in late 2004, there were no green building 
rating systems with the specific objective of supporting mainstream 
design and building professionals. This is at the core of the Green 
Globes system and is fundamental to encouraging energy efficiency and 
other green building practices on the broad scale that is clearly 
necessary. That is why GBI obtained the exclusive rights to develop and 
promote Green Globes in the United States.
    Having more than one rating system in the U.S. market supports the 
diversity of buildings, design and building professionals, and budgets. 
It also creates an atmosphere of healthy competition, which does for 
green building what it has done in countless other areas--drives 
improvements, lowers costs and benefits the ultimate consumer, which in 
this case is our shared environment.
    In the last 4 years, for example, GBI:

    <bullet>  Became the first green building organization to be 
accredited as a Standards Developing Organization (SDO) by the American 
National Standards Institute (ANSI),
    <bullet>  Embarked on a process to establish Green Globes as the 
first ANSI standard for commercial green building, which will be 
completed this year,
    <bullet>  Introduced Green Globes-CIEB to strengthen the link 
between sustainable design objectives and actual building performance,
    <bullet>  Developed the first tool for integrating life cycle 
assessment (LCA)--widely considered to be the most effective way to 
compare the environmental impacts of building materials and 
assemblies--into a green rating system, and
    <bullet>  Chose to advance the green movement as a whole by 
supporting the development of a generic version of its LCA tool--the 
ATHENA<SUP>'</SUP> EcoCalculator for Assemblies--which is available 
free of charge from the ATHENA Institute (www.athenasmi.ca).

    As evidenced by these highlights, GBI's offerings have evolved as 
new opportunities have arisen to help mainstream practitioners 
accelerate their adoption of green building practices. Our goal is for 
green building to become the norm and, while GBI has arguably become a 
leading voice in the movement, we are committed to remaining nimble and 
continuing our role as an agent of positive change.

Conclusion
    It is the GBI's view that improving the efficiency of buildings one 
of the most important things Congress can do to reduce energy 
consumption and address its related impacts. Green building rating 
systems can accelerate this process by defining goals that go beyond 
code, providing the means to measure progress, and rewarding those who 
excel. It is the GBI's hope that this Committee will recognize the 
valuable and complementary role of green building rating systems and 
create policy that encourages rating system developers and others to 
create additional market-based incentives that help motivate 
significant energy and greenhouse gas reductions.
    Thank you for inviting the Green Building Initiative to participate 
in this important hearing. We look forward to the opportunity to work 
with all of the Members of the House Committee on Veterans' Affairs to 
help increase the sustainability of VA facilities and operations.

                                 <F-dash>
    Prepared Statement of James L. Hoff, DBA, Director of Research,
             Center for Environmental Innovation in Roofing

    Good morning and thank you, Mr. Chairman and Members of the 
Committee, for the invitation to speak to you at this hearing on energy 
efficiency. My name is 
Dr. James Hoff, and I serve as Research Director for the Center for 
Environmental Innovation in Roofing in Washington, DC. The mission of 
the Center is to serve as the unified voice of the roofing industry in 
matters relating to the energy and environmental benefits afforded by 
modern roofing materials and systems. Our membership includes roofing 
contractors, roofing materials manufacturers, construction designers 
and building researchers, all interested in a common goal of raising 
public awareness of the importance of our Nation's rooftops and their 
strategic value in reducing energy consumption, mitigating 
environmental impact, and enhancing the quality of the buildings in 
which we all live and work.
    My mission before the Committee this morning is to raise awareness 
of the magnitude of roofing's contribution to energy efficiency and the 
many different ways our Nation's rooftops can be used to meet broader 
goals of reducing energy consumption and create a cleaner environment. 
In addition, I would like to express the Center's support of the 
important energy initiatives already undertaken by the Department of 
Veterans Affairs, especially as embodied in the Department's Green 
Buildings Action Plan. And finally, I would like to recommend some 
additional actions than should be taken to help assure that the 
important energy efficiency goals of the Department of Veterans Affairs 
are fully realized on the rooftops of all VA facilities.

                 Energy Goals and Our Nation's Rooftops

Building Heat Loss and Roof Insulation.
    Of all the opportunities for saving energy through improved roof 
system design, the opportunity to reduce building heating costs is by 
far the most important. Direct heat loss through the roofs of our 
Nation's commercial and institutional buildings accounts for 25 percent 
of total building heating loads, or over $12.5 billion in annual energy 
costs (Huang & Franconi, 1999). Given the magnitude of energy costs 
related to heat loss directly through our roofs, the application of 
adequate levels of roof insulation is a critical aspect of efficient 
roof system design. Unfortunately, the great majority of the 
commercial/industrial roofs in the United States are not adequately 
insulated as measured by current energy efficiency standards. The 
Center estimates that the average level of insulation in our Nation's 
roofing inventory is at least 30 percent lower than current building 
code requirements, which in turn is 30 percent lower than the level 
needed to support the energy reduction goals of the Energy Independence 
and Security Act of 2007.
    However, because thermal insulation has been designed to be an 
integral part of modern commercial roofing systems, increased amounts 
of insulation may be added easily and economically during the 
installation of a roof on both new and existing buildings. The Center 
estimates that if the 50 million square foot inventory of commercial/
institutional roofs in the United States were insulated at the levels 
needed to meet the energy efficiency targets of the Energy Independence 
and Security Act of 2007, annual energy costs savings would exceed $2.0 
billion (Center for Environmental Innovation in Roofing, 2009).

Solar Loads and Cool Roofs.
    Roofs also contribute substantially to building cooling loads 
through the absorption of solar energy into the roofing material. In 
addition to increasing building air conditioning requirements, solar 
heat absorption by roofs and other man-made surfaces tends to increase 
the average temperature of our cities, contributing to what is known as 
the Urban Heat Island Effect. Because solar heat loads generally peak 
during the late afternoon, demand for electricity also tends to spike 
at the same time. In fact, research suggests that up to 10 percent of 
overall electricity demand in urban areas is used to compensate for 
this heat island effect (Akbari, 2005).
    Reducing this solar heat load can be accomplished through the 
application of a number of ``Cool Roofing'' techniques suitable for 
both new as well as retrofit applications. In new applications, the 
cost of installing a roof with a highly reflective cool surface may be 
no greater than the cost of installing a non-reflective roof. And in 
retrofit applications, reflective roof coatings may offer an economical 
alternative to complete roof membrane replacement, which in turn 
mitigates environmental impact generated by additional construction 
waste. ``Green Roofs'', or roofs covered with a layer of vegetation 
offer an alternative cool roofing technology that reduces cooling loads 
through the thermal mass and the evaporation of transpired moisture 
from the vegetation. In a similar manner, roof surfaces covered with 
stone ballast or concrete pavers can reduce cooling loads by absorbing 
the sun's heat during the day and releasing it at night, similar to the 
dynamics of traditional adobe construction in desert regions of the 

United States.
    Although cool roof surfaces may not offer the same magnitude of 
overall energy savings as increased roof insulation, the energy savings 
opportunity is still very significant. According to the Heat Island 
Group of Lawrence Berkeley Laboratories, the installation of cool 
reflective roofing surfaces--either as new roofing materials or 
reflective coatings over existing roofing materials--could generate 
annual cooling energy savings as high as $175 million (Akbari, 2005).

Clean Energy and the Rooftop Platform.
    In addition to the opportunities to significantly reduce building 
energy consumption, the rooftops of our country also offer an 
attractive platform to increase the supply of energy from renewable 
resources. This rooftop ``platform for the future'' is especially 
attractive for the deployment of photovoltaic (PV) systems which 
generate electricity through the direct conversion of sunlight into 
usable electrical power. In addition to rooftop PV systems, the 
installation of roof-mounted solar thermal systems offer an economical 
clean energy alternative, especially for Department of Veterans Affairs 
facilities requiring large quantities of hot water for laundry and 
cleaning operations.
    The benefits offered by rooftops for the economical and sustainable 
deployment of renewable solar energy are numerous. Because existing 
rooftops already serve a functional purpose by keeping water out of 
buildings and helping generate economic value in the form of occupancy 
or rent, their use as a platform to generate solar energy is generally 
much less expensive than the acquisition of undeveloped real estate. 
Further, the users of the energy generated by rooftop clean power are 
located directly beneath the rooftop, reducing transmission and 
operating costs. Finally, because rooftop clean power is generally 
located directly within the current developed electric grid, no new 
transmissionlines or controls are necessary.

Long-Term Energy Savings and Roof Service Life.
    No matter how much energy efficiency can be designed into a 
building, the benefits of that efficiency can only be realized if the 
building provides a long and problem-free service life. And of all the 
major components of a modern building, the roof system undoubtedly 
exercises the most influence on service life. Roof leaks and other 
roof-related failures can rapidly accumulate excessive moisture within 
a building, accelerating the deterioration of building materials and 
components. In addition, excessive moisture can lead to mold growth 
that may adversely the health and safety of building occupants. 
Finally, excessive moisture can compromise the thermal resistance of 
building insulation, leading to a slow but steady reduction in overall 
energy efficiency.
    The issue of durability in roofing system design becomes even more 
important as the rooftop takes on a new and expanded role as a platform 
for renewable energy. For any building owner investing in a rooftop 
solar system that may require 20 or more years of continuous service to 
assure adequate financial return, it is imperative that the underlying 
roofing system is designed and installed to provide the needed 
uninterrupted service life.

Roofing and Clean Energy Jobs.
    According to the 2002 Economic Census, over 225,000 Americans are 
employed in the roofing industry. Given the overall market potential 
for energy-efficient roofs combined with the additional opportunities 
for rooftop solar energy production, the roofing industry offers an 
outstanding opportunity for the development of a new generation of 
highly skilled energy technicians and high-paying green jobs.
    Roofing contractors already contribute a high added value through 
their work--of the $21 billion expended annually on roofing 
installations in the U.S., over $13 billion of economic value is added 
by roofing contractors above and beyond the required roofing materials. 
With the advent of new energy-saving and energy-producing technologies 
now being added to roofing installations, the overall economic 
contribution of the roofing industry is certain to increase 
significantly, both in terms of added materials as well as new value-
added job skills.

                   Recommendations for the Committee

Incorporate Recent Energy Standard Updates in Department Action Plans.
    The Center would like to express its support of the important 
energy initiatives already undertaken by the Department of Veterans 
Affairs, especially as embodied in the Department's Green Buildings 
Action Plan. This plan establishes overall targets and broad operating 
principles consistent with the energy targets of the Energy Policy Act 
of 2005 and the Energy Independence and Security Act of 2007. These 
targets called for a 30-percent improvement over the then-current 
national energy consensus standard for buildings, ASHRAE 90.1-2004. 
Since the enactment of this legislation, however, the ASHRAE standard 
has been revised upward (ASHRAE 90.1-2007), and an even higher level of 
the standard is anticipated within the year. Because building energy 
use standards, driven by technology improvements and current economics, 
continue to evolve, the Center recommends that the Department's Green 
Building Action Plan also be revised to reflect the current building 
energy standard of ASHRAE 90.1-2007.

Establish Specific Insulation Targets for All New and Replacement 
        Roofs.
    As mentioned previously, the Department's Green Buildings Action 
Plan establishes overall targets for energy efficiency, especially in 
regard to how they should be applied to new buildings and major 
renovations. However, many roofing projects, especially the re-roofing 
of existing Department facilities, fall outside new building or major 
renovation activities. As a result, there may be some confusion as to 
how the 30 percent energy improvement target should be applied to a 
roofing-only project. To avoid this potential confusion, the Center 
recommends that a specific target be established for roof insulation by 
applying the 30 percent overall savings target to the current minimum 
roof thermal conductance requirements of ASHRAE 90.1-2007 (for roofs 
with above deck insulation). The calculation for this recommendation 
for the applicable ASHRAE climate zones is illustrated in the following 
table:


----------------------------------------------------------------------------------------------------------------
                                             ASHRAE 90.1-2007 Min.     Adjusted For 30%    Equivalent Min.  Roof
            ASHRAE  Climate Zone                 Roof U-Value 1       Energy Improvement         R-Value 2
----------------------------------------------------------------------------------------------------------------
Zone 1                                                      0.067                  0.047                   21.3
----------------------------------------------------------------------------------------------------------------
Zone 2-8                                                    0.050                  0.035                   28.6
----------------------------------------------------------------------------------------------------------------
\1\ U-value is a measure of thermal conductance.
\2\ R-value is a measure of thermal resistance and the reciprocal of U-value.


    It should be noted that ASHRAE 90.1-2004 and ASHRAE 90.1-2007 also 
includes a design provision for cool roofs, which allows a 10-percent 
reduction in roof insulation value in certain climate zones if the roof 
system is a cool roof. Although the Center does not dispute the logic 
of this tradeoff, we recommend this tradeoff only be used if the 
Department's Green Buildings Action plan is upgraded to the most recent 
2007 version.

Include Roof Condition Assessment in all Roof-Mounted Renewable Energy 
        Projects
    As mentioned previously, durability in roofing system design 
becomes especially important if the role also serves a platform for 
renewable energy production. Because the Department will certainly 
expect 20 or more years of continuous service from any investment as 
sizeable as rooftop solar or other renewable energy systems, the Center 
strongly recommends that the condition and design of the roof be 
evaluated to assure that both the renewable energy system and the roof 
system will have compatible service lives.

References:
    Akbari, H. (2005). Energy Saving Potentials and Air Quality 
Benefits of Urban Heat Island Mitigation (PDF) (19 pp, 251K). Berkeley, 
CA, Building Technologies Department, Lawrence Berkeley National 
Laboratory
    Center for Environmental Innovation in Roofing (2009). Economic 
Growth, Energy Independence & America's Rooftops. Washington, DC.
    Huang, J. and Franconi, E. (1999). Commercial Heating and Cooling 
Loads Component Analysis. Berkeley, CA, Building Technologies 
Department, Lawrence Berkeley National Laboratory: LBNL-37208.
    U.S. Census Bureau (2004). Roofing Contractors: 2002. 2002 Economic 
Census, Construction Industry Series.

                                 <F-dash>
       Prepared Statement of Kevin Kampschroer, Acting Director,
          Office of Federal High-Performance Green Buildings,
                  U.S. General Services Administration

    Good afternoon, Chairman Filner, Ranking Member Buyer and Members 
of this Committee. My name is Kevin Kampschroer and I am the Acting 
Director of the Office of Federal High-Performance Green Buildings at 
the United States General Services Administration (GSA). Thank you for 
inviting me today to discuss the goals for Federal Agencies to become 
more energy efficient in a sustainable manner.
    GSA, through the Public Buildings Service (PBS), is one of the 
largest and most diversified public real estate organizations in the 
world. Our real estate inventory consists of more than 8,600 owned and 
leased assets representing nearly 354 million square feet of rentable 
space across all 50 States, 6 territories and the District of Columbia. 
Our portfolio is composed primarily of office buildings, courthouses, 
land ports of entry, and warehouses. GSA's goal is to manage these 
assets efficiently, while delivering and maintaining superior 
workplaces at best value to our client agencies and the American 
taxpayer.
    We also collaborate with other Federal agencies as partners in 
developing, implementing and evaluating Federal green building programs 
through programs such as ENERGY STAR, which is jointly run by the U.S. 
Environmental Protection Agency and U.S. Department of Energy. We have 
worked with the U.S. Department of Veterans Affairs (VA) on the 
Veterans Benefits Office in Reno, NV, which was the VA's first building 
rated using a third-party, independent rating system: Leadership in 
Energy and Environmental Design (LEED). We continue to work with the VA 
on every new project in support of the VA's important mission to our 
country's veterans.

Cost and Value
    High-performing green buildings provide the best value for the 
taxpayer and for the public through both life cycle cost benefits and 
positive effects on human health and performance. A recent study \1\ of 
GSA's 12 earliest green Federal buildings shows energy consumption is 
down 26 percent and occupant satisfaction up 27 percent, compared to 
commercial office benchmark data in those regions. More importantly, 
the top third of studied buildings, which use an integrated design 
approach, deliver significantly better results with 45 percent less 
energy consumption, 53 percent lower maintenance costs, and 39 percent 
less water use.
---------------------------------------------------------------------------
    \1\ ``Assessing Green Building Performance'', K.M. Fowler et al., 
U.S. General Services Administration 2008, based on: KM Fowler and EM 
Rauch: Assessing Green Building Performance: A post-occupancy 
evaluation of 12 GSA Buildings, PNNL-17393, Pacific Northwest National 
Laboratory, Richland, WA, 2008. The full report and white paper summary 
can be found at www.gsa.gov/appliedresearch under Research 
Publications.
---------------------------------------------------------------------------
    A recent report by CoStar, a major real estate transaction 
information collection company, shows that green buildings, in general, 
also have lower vacancy rates. According to the 2008 McGraw-Hill 
Construction SmartMarket Report: Key Trends in the European and U.S. 
Construction Marketplace, operating costs for green buildings are on 
average 8 to 9 percent lower, building values are 7.5 percent higher, 
buildings have a 3.5 percent greater occupancy ratio, and green 
buildings provide a 6.6 percent total return on investment.
    With the above mentioned long-term operating cost benefits, the 
life cycle cost of green buildings is lower than the life cycle costs 
of those that are not. Even the initial capital costs are not 
necessarily higher, and when they are, only marginally so. GSA's study 
of the initial capital cost shows that the increase on average is about 
3 percent, ranging from zero to 10 percent, depending on the design. 
Similarly, a private sector study by Davis Langdon \2\ in 2007 shows 
that green building aspects tend to have a lesser impact on costs than 
other building decisions, such as which kind of finishes and amenities 
the building might provide.
---------------------------------------------------------------------------
    \2\ Lisa Fay Mathiesson, Peter Morris, ``The Cost of Green 
Revisited'' Davis Langdon, July 2007, http://www.davislangdon.com/
upload/images/publications/USA/The%20Cost%20of%20Green%20 Revisited.pdf
---------------------------------------------------------------------------
Environmental Benefits
    Good sustainable design offers economic, environmental and societal 
benefits. If a building decreases its energy consumption, the cost of 
operation is less, the asset value increases, and the production of 
greenhouse gasses also decreases. Although there is a large focus on 
reducing energy consumption today, there are other benefits of 
sustainable buildings. For example, a planted or ``green'' roof can 
have significant economic benefits by lowering the roof temperature and 
thus cooling, lowering costs for neighboring buildings, reducing the 
the city's heat island effect, and reducing storm water runoff. In 
cities like Washington DC, with a combined storm water and sewer 
system, this reduces water pollution both locally and downstream in the 
Chesapeake Bay. Finally, societal benefits include physically and 
aesthetically pleasing effects for building occupants and neighbors, 
jobs for workers to install and maintain planted roofs, and reduction 
in greenhouse gasses caused by the building.
    The careful selection and use of materials can reduce energy 
consumption during the manufacturing process and protect the health of 
occupants. Careful construction techniques can reduce the amount of 
construction waste that reaches landfills by 95 percent or more. Re-use 
of existing structures can reduce resource consumption while preserving 
our country's heritage. Careful siting can make buildings perform 
better from both environmental and human perspectives: proximity to 
public transportation reduces pollution, saves energy, reduces employee 
petroleum use, and improves occupants' quality of life. The key is 
holistic, integrated planning that considers all factors that influence 
a building, including the decision of whether to build at all. In 
addition, every one of the choices is also a choice to reduce the 
production of greenhouse gasses.
    Design challenges for high performance green buildings may vary for 
different building types (e.g. hospitals). Given the intensive use of 
the buildings, as with data centers and laboratories, the measures will 
be different, and the benchmarks need similarly to be adjusted to 
reflect the use of the building. One can still address energy 
efficiency in hospitals, and in doing so, the energy efficiency 
decisions will be balanced differently against air quality standards 
and other health-related factors.
    We need to have at least as much emphasis on actual building 
performance as on design. The State of California is contemplating 
standard building performance labeling as a prerequisite for every real 
estate transaction, and beginning in 2010 GSA will require new building 
leases over 10,000 square feet \3\ to have an Energy Star rating earned 
in the most recent year of operation. The value of the Energy Star 
rating is that it is an on-going performance measure.
---------------------------------------------------------------------------
    \3\ Except in cases where the tenant stays in the same building, or 
where the market does not provide a building that meets the agency's 
functional needs, or if the lease is in a historic building. These 
exceptions are more explicitly defined in the Energy Independence and 
Security Act of 2007, sec. 435.
---------------------------------------------------------------------------
    We in the building industry and in the Federal Government also need 
to expand our measures. While today we typically concentrate on energy 
use in the building, we need to remember that buildings are also tools 
for businesses and organizations. The Energy Independence and Security 
Act of 2007 states that a high-performance green building must not just 
perform well mechanically, but must perform to improve the health and 
enhance the performance of the occupants.\4\ This is particularly 
important in health care facilities, where the importance of the work 
within the buildings cannot be overstated. If we only look at the 
energy consumption of the building, we miss the importance of how 
building performance can increase the ability of people to care for the 
ill, to reduce the transmission of disease, or to create the conditions 
of healing. Similarly, modernizing office buildings into high 
performance facilities can increase the productivity of the workers 
inside. Carnegie Mellon University has documented over 100 solid, 
scientifically valid studies that demonstrate the link between high-
performance features and some aspect of productivity. Johns Hopkins 
University has measured reduction in airborne illness by adding 
ultraviolet light in mechanical systems. The Pacific Northwest National 
Laboratory has measured an increase in productivity through better 
lighting. Hewlett Packard has also measured increases in employee 
engagement linked to their facility greening activities.
---------------------------------------------------------------------------
    \4\ EISA Sec. 401(13).
---------------------------------------------------------------------------
    A key broad measure of environmental impact is greenhouse gas (GHG) 
emissions. Once you measure the collective effects of greenhouse gas 
production by an organization--with buildings as components--you can 
make more informed decisions and tradeoffs. We need to look at the way 
we buy materials for the building, travel to and from the building, the 
way we use the building, and how the building is operating. In both 
office buildings and computer centers, integrating the occupants' 
operations with the facility operations can increase energy savings by 
as much as 50 percent, and also lower the tenants' cost of operations.
    Health care facilities present particular difficulties and 
opportunities. We care for the sick, and try to prevent the 
transmission of disease in these facilities. We need to create 
conditions in which health care professionals can perform at their 
best. They operate around the clock. A health care facility is an 
amalgam of office, laboratory, hotel, data center and industrial 
facilities--all in one complex building. The daunting complexity may 
obscure opportunities for improvement. The key will be to make sure 
that the facility operations integrate hospital health care operations. 
As part of the training held at GovEnergy just last month, several case 
studies presented examples of dramatic energy and water reduction with 
no reduction in health care effectiveness.
    The research that the National Institutes of Health has been 
conducting on the way that buildings and their mechanical systems can 
either increase or mitigate the transmission of airborne pathogens is 
also beginning to change the way that health care facilities are 
constructed and operated. More research on the unintended consequences 
of current building management practices is need.

Creation of Green Jobs
    The jobs created across the design, engineering, manufacturing, 
construction and operations industries will bolster the ``green 
economy.'' These jobs will provide practical experience in high-
performance technologies, green construction and building operations.
    GSA has identified over 50 different trades and professions that 
will participate in the accomplishment of GSA building projects. While 
it may seem that some aspects of construction are unaffected by new 
technologies, we find that virtually all are changed in some way by the 
application of the principles of sustainable buildings and delivery. 
For example, in demolition work, GSA takes particular care to ensure 
that materials are reused, and recycled, and we have avoided 95 percent 
of the traditional construction waste on several of our projects.
    Installation of PV requires special skills that are a part of the 
green economy. Lighting systems and controls have improved dramatically 
over the past 10 years. Implementing emerging technologies leads to the 
creation of green jobs in building operations. GSA has discovered that 
most building operators in the government and private sector state that 
they are unable to find enough well-trained people to run high-
performance buildings and keep them running in a high-performance mode. 
Buildings that are tuned up, commissioned and operating well can easily 
slip into poorer performance without proper maintenance. The aggregate 
result is a significant degradation of performance and an unnecessary 
increase in energy consumption. GSA is already in conversations with 
the Building Owners and Managers Association, the International 
Facility Managers Association and others about the apparent shortage of 
sufficiently trained building operators. GSA will work with the 
Department of Labor to encourage connections between GSA-sponsored 
building projects and the public workforce system to provide 
individuals access to training and employment opportunities in green 
jobs created with Recovery Act funding. We believe that GSA's Recovery 
Act projects can potentially provide jobs along this emerging career 
pathway.

Conclusion
    The funds Congress provided Federal agencies through the American 
Recovery and Reinvestment Act are a sound investment in several 
respects. First, the timely obligation of these recovery funds will 
stimulate job growth in the green construction and real estate sectors. 
Second, the money will help reduce energy consumption and improve the 
environmental performance of our inventory. Third, the funds, in large 
part, will be invested in the existing infrastructure, which will help 
reduce our backlog of repair and alteration needs, thus increasing the 
assets' value, prolonging their useful life, and ultimately further 
conserving our country's resources. Finally, these funds will be 
invested in government-owned assets for the long-term requirements of 
our Federal customers.
    Thank you again for this opportunity. All of us at GSA are excited 
by the contribution Congress has allowed us to make, both with the 
Recovery Act and in our continuing service to other Federal agencies. I 
am available to address any questions you may have. We look forward to 
continuing to support the VA in its mission and to help the VA reduce 
its environmental impact while simultaneously improving the conditions 
for people working in its facilities and the veterans staying in those 
facilities.

                                 <F-dash>
       Prepared Statement of Richard G. Kidd IV, Program Manager,
   Federal Energy Management Program, Office of Energy Efficiency and
              Renewable Energy, U.S. Department of Energy

INTRODUCTION--Overview of the Federal Sector
    Good morning Chairman Filner, Ranking Member Buyer, and other 
distinguished Members of the Committee. I am Richard Kidd, the Program 
Manager for the Department of Energy's Federal Energy Management 
Program (FEMP). FEMP operates within DOE's Office of Energy Efficiency 
and Renewable Energy, which manages 10 research and development and 
deployment programs. FEMP's mission is to:

        Facilitate the Federal Government's implementation of sound, 
        cost-effective, energy management and investment practices to 
        enhance the Nation's Energy security and environmental 
        stewardship.

    I am pleased to have the opportunity to address this Committee and 
to talk about the Federal Government's efforts to reduce its energy 
intensity and challenges we face as we attempt to achieve national 
goals, highlighting our work with the Department of Veterans Affairs 
(VA). I believe that VA's efforts in reducing their energy consumption 
help tell the story of how Federal agencies can lead the way in ``going 
green.''
    For perspective, the U.S. Federal Government is the single largest 
user of energy in the Nation. Key statistics illustrate the impact the 
Federal Government has on national security, U.S. energy consumption, 
the Federal budget, and the environment include:

    <bullet>  Nationwide, buildings account for nearly 40 percent of 
U.S. primary energy consumption;
    <bullet>  The Federal Government currently owns, operates, and 
leases over 500,000 buildings at 8,000 sites throughout the U.S.; and
    <bullet>  The Federal building inventory includes commercial, 
industrial, residential, research, institutional, agricultural, 
transportation, and cultural facilities operated by 26 cabinet-level 
departments and independent agencies with a highly diverse set of 
complex missions.

    In FY 2008, total site-delivered energy consumption was 1.1 
quadrillion Btu (``quads''), roughly 1.6 percent of U.S. total 
consumption. Also in FY 2008, the Federal Government's site-delivered 
energy, also known as point of use energy, bill was $24.5 billion. This 
represented approximately 0.8 percent of total Federal expenditures 
($2.983 trillion) that year. Of the $24.5 billion, over $7 billion was 
spent on energy to operate Federal buildings.

ENABLING AUTHORITIES FOR FEDERAL ENERGY MANAGEMENT
    I would like to highlight the Federal authorities that guide energy 
policy at the Federal level. Following the 1973-1974 oil embargo, 
Congress first recognized the national security dimensions of our 
dependence on oil and the adverse impacts of this dependence. These 
concerns have only heightened over time and a series of legislative 
initiatives have been passed that guide the reduction of Federal energy 
use, the procurement of renewable electric power, and the reduction in 
petroleum use. The key guiding documents for Federal energy policy 
include:

    <bullet>  National Energy Conservation Policy Act, as amended by 
the Energy Independence and Security Act (EISA) of 2007, and the Energy 
Policy Act of 2005 (EPAct 2005);
    <bullet>  Energy Conservation and Production Act, as amended by 
EISA and EPAct 2005;
    <bullet>  Energy Policy Act 1992 (EPAct 1992);
    <bullet>  Executive Order 13423; and
    <bullet>  EISA

    These authorities establish a range of Federal energy management 
goals that apply to all Federal agencies that operate buildings and 
facilities. The most salient goals are:

    <bullet>  Reducing energy intensity (Btu/ft<SUP>2</SUP>) by 15 
percent by the end of FY 2010, compared to a FY 2003 baseline and by 30 
percent by the end of FY 2015;
    <bullet>  Using renewable electric energy equivalent to a least 5 
percent of total electricity use in FYs 2010-2012 and at least 7.5 
percent in FY 2013 and beyond; at least half must come from sources 
developed after January 1, 1999; and
    <bullet>  Reducing water consumption intensity (g/gsf) by 2 percent 
annually relative to the FY 2007 baseline to achieve 16 percent by the 
end of FY 2015.

FEDERAL ENERGY FOOTPRINT--Goal Performance
    All Federal agencies submit energy use data to FEMP for analysis. 
The Federal agency energy use figures provided are based upon the 
submissions for FY 2008. This data is analyzed by FEMP and submitted to 
the Office of Management and Budget (OMB) for its use in assessing 
agencies progress and status on the OMB Energy Scorecard. The Federal 
Government has made significant progress in reducing its energy use 
during the past decade. However, FY 2008 findings indicate that while 
the Federal Government as a whole is currently meeting all of its major 
goals in the areas of energy efficiency, deployment of renewables and 
petroleum reduction, the rate of progress decreased in FY 2008.
    Some of the other key highlights of our analysis are presented 
below.
    Six Federal agencies consume 80 percent of the energy used by the 
Federal Government. The Department of Veteran's Affairs (VA) is the 
third largest energy consumer in the Federal Government:


                                                Total Government and Top Six Agency Facility Energy Users
                                                                 *Preliminary 2008 Data
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                   Total Facility Gross Square   Total Facility Energy Use   Total Facility Energy Costs
                                                                             Footage           ---------------------------------------------------------
                              Agency                              -----------------------------
                                                                      Million SF      Percent     Billion Btu      Percent      Million $       Percent
--------------------------------------------------------------------------------------------------------------------------------------------------------
DoD                                                                       1,983.7         62%          217,868         56%         $3,949.1         55%
--------------------------------------------------------------------------------------------------------------------------------------------------------
USPS                                                                        325.6         10%           30,732          8%           $645.8          9%
--------------------------------------------------------------------------------------------------------------------------------------------------------
VA                                                                          146.8          5%           28,290          7%           $512.0          7%
--------------------------------------------------------------------------------------------------------------------------------------------------------
DOE                                                                         109.9          3%           26,595          7%           $414.8          6%
--------------------------------------------------------------------------------------------------------------------------------------------------------
GSA                                                                         210.7          7%           18,366          5%           $434.6          6%
--------------------------------------------------------------------------------------------------------------------------------------------------------
DOJ                                                                          71.3          2%           15,975          4%           $208.0          3%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Other                                                                       375.5         12%           48,576         13%         $1,059.1         15%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total                                                                     3,223.0        100%          386,402        100%         $7,223.4        100%
--------------------------------------------------------------------------------------------------------------------------------------------------------

Energy Intensity
    Based on preliminary FY 2008 data, the Federal Government's energy 
intensity in its goal-subject buildings was 110,854 Btu/ft<SUP>2</SUP> 
or 12.4 percent lower than the FY 2003 base year energy intensity of 
126,583 Btu/ft<SUP>2</SUP>. VA reduced its energy intensity by 11.4 
percent as indicated on the chart below.
    Federal Facility: Agency Progress Towards Energy Reduction Goal
[GRAPHIC] [TIFF OMITTED] T3431.005


Water Reduction
    In FY 2008, the Federal Government used a total 162,169.9 million 
gallons of water, or 51.2 gallons per gross square foot (g/gsf). 
Compared to FY2007, the Federal Government reduced its water intensity 
by 2.9 percent, surpassing the reduction goal. VA reduced its water 
intensity by 3 percent in FY 2008 as indicted on the chart below.
    Federal Facilities: Agency Progress Toward Water Reduction Goal
[GRAPHIC] [TIFF OMITTED] T3431.006


Renewable Energy
    The statutory goal for Federal electricity use from renewable 
sources is 3 percent of total electricity use in fiscal years 2007-
2009, 5 percent in fiscal years 2010-2012, and 7.5 percent in FY 2013, 
and thereafter. Under E.O. 13423, at least half of this reduction must 
be from sources developed after January 1, 1999. Currently, electricity 
from renewable sources counts toward energy efficiency and therefore is 
credited toward overall energy reductions. However, the energy 
efficiency credit earned by renewable energy sources is being phased 
out by FY 2012.
    Sixteen Federal agencies achieved the FY 2008 goal for renewable 
energy purchases; six did not. While 13 agencies showed progress from 
last year, seven agencies witnessed the percentage of their electricity 
from renewable sources decline, two remained unchanged. VA exceeded the 
renewable energy reduction goal achieving a reduction of 4.1 percent as 
indicated on the chart below.
    Overall, the Federal Government used renewable electric energy 
equivalent to 3.4 percent of its electricity use in FY 2008, which is 
significantly less than the 4.9 percent for FY 2007. Renewable electric 
energy use in the Federal Government declined by 32 percent from FY 
2007, from 2.8 terawatt-hours to 1.9 terawatt-hours; total facility 
electricity use declined only slightly (-0.9 percent). A preliminary 
assessment of the data suggests two reasons for this decline:

    <bullet>  Increases in the price of renewable energy certificates 
(RECs) \1\; and
---------------------------------------------------------------------------
    \1\ RECs represent the environmental attributes of the power 
produced from renewable energy projects and are sold separate from 
commodity electricity. Federal agencies may purchase RECs to count 
toward energy intensity reduction goals.
---------------------------------------------------------------------------
    <bullet>  Reduced motivation to purchase RECs since their 
contribution toward meeting the energy reduction goal is declining. FY 
2008 was the first year of the credit phase out--RECs could only 
contribute up to 60 percent of an agency's reduction (5.4 percent of 
the 9.0 percent target reduction in energy intensity).

       Federal Facilities: Progress Toward Renewable Energy Goal

[GRAPHIC] [TIFF OMITTED] T3431.007


Funding
    Improvements in energy efficiency come at a cost. Agencies may use 
appropriated funds, or if conditions merit, Energy Savings Performance 
Contracts (ESPCs) or Utility Energy Savings Contracts (UESCs), that are 
budget neutral contracts paid over time from future energy savings, to 
fund energy and water efficient projects. Authority for the ESPC and 
UESC programs were provided to the agencies in EPACT 1992 and 
permanently authorized in EISA 2007. In FY 2008, the Federal Government 
invested $934,700,167 in energy-efficiency projects. Funding was 
derived from the following sources:

    <bullet>  $468,659,178 from direct appropriations;
    <bullet>  $365,409,689 by ESPCs; and
    <bullet>  $109,631,300 by Utility Energy Savings Contracts (UESCs).

    In an FY 2007 Memorandum, the Chairman of the Council on 
Environmental Quality recommended that Federal agencies spend 
approximately 20 percent of their annual energy costs on energy 
efficiency measures. Only three agencies--DOE, the Environmental 
Protection Agency (EPA), and the U.S. Postal Service--met this 
recommendation. VA invested 7.8 percent of its energy budget, all from 
direct appropriations in the amount of $39.8 million. Overall, an 
amount equivalent to 12.9 percent of the Federal Government's total 
energy budget was spent on energy efficiency and renewable energy 
projects, split evenly between ESPC/UESC projects and direct 
obligations. The chart below shows historic data for funding energy 
efficiency and renewable energy projects and a projection for FY 2009.
              DOE's Estimate of Annual Investment Required

[GRAPHIC] [TIFF OMITTED] T3431.008


DEPARTMENT OF VETERANS AFFAIRS--PERFORMANCE
    The Department of Veterans Affairs operates 153 hospitals with at 
least one in each State, the District of Columbia, and Puerto Rico plus 
over 100 national cemeteries and a variety of other veterans care-
related and benefits administration facilities in 39 States. FEMP data 
analysis shows that 99 percent of VA's energy consumption occurs in its 
medical facilities. In addition to the VA's annual appropriations, 
which address both major and minor construction projects, the Recovery 
Act provides VA with $1 billion for non-recurring maintenance, 
including energy projects for the Veterans Health Administration's 
medical facilities and $50 million for monument and memorial repairs, 
including energy projects for the Veterans' Cemetery Administration. 
Both Recovery Act appropriations will remain available until September 
30, 2010.
    VA faces challenges in meeting its energy and water consumption 
goal since medical facilities operate 24-hours per day, 7 days a week. 
They require heating and cooling, steam and hot water, and energy-
intensive medical equipment, along with a very high-volume of outside 
air. These facilities also have high standards for air quality which 
require operating energy-intensive equipment to circulate fresh air and 
in most cases all incoming air must be conditioned. Health care 
facilities also have requirements shared by industrial including 
``process'' energy load requirements. That means that for health care 
facilities, energy requirements are dependent on the number and types 
of patients served and no ENERGYSTAR<SUP>'</SUP> or FEMP-designated 
product categories exist for the medical equipment widely used 
throughout VA facilities nationwide. The ever increasing number of 
veterans being served, and a shift to digital medical records, has also 
led to a sharp increase in the VA's IT requirements, which may further 
add to its energy use requirements.
    Despite these challenges, VA exceeded the current Federal energy 
reduction goals as reflected in the charts above for energy intensity, 
water reduction, and renewable electric power procurement. The chart 
below highlights the profile of VA's energy use and energy intensity. 
While VA's energy intensity is almost 66 percent above the Federal 
average, it is below the national average for health care facilities. 
Also, 25 VA medical centers have earned EPA ENERGYSTAR<SUP>'</SUP> 
building labels, which means they are in the top 25 percent of 
facilities in their category; in this case, the category is acute care 
hospitals.

                               Federal Government and VA Building Characteristics
----------------------------------------------------------------------------------------------------------------
                                                                                                       VA % of
                       Building Characterics                            Federal           VA           Federal
                                                                      Government                       Sector
----------------------------------------------------------------------------------------------------------------
Number of Buildings                                                     > 500,000           3,766         0.75%
----------------------------------------------------------------------------------------------------------------
Number of Buildings over 1 million ft2                                         38               1         2.63%
----------------------------------------------------------------------------------------------------------------
Number of Buildings greater than 500,000 ft2                                 1271             128        10.07%
----------------------------------------------------------------------------------------------------------------
Site-delivered energy consumption in Federal goal-subject               340,247.3        26,960.9         7.92%
 buildings (Billion Btu)
----------------------------------------------------------------------------------------------------------------
Thousand gross square feet (GSF) of Facility                         43,069,329.5       146,812.5         4.78%
----------------------------------------------------------------------------------------------------------------
Energy Intensity (BTU/GSF)                                                110,854         183,642            NA
----------------------------------------------------------------------------------------------------------------
Estimated emissions of carbon dioxide, methane and nitrous oxide       42,658,568       3,003,584         7.04%
 from goal building energy use (MTCO2E)
----------------------------------------------------------------------------------------------------------------

    Additionally:

    <bullet>  VA ranks fourth among Federal agencies in terms of 
overall on-site facility energy consumption behind DoD, USPS, and DOE;
    <bullet>  VA ranks third in terms of Federal facility energy 
expenditures;
    <bullet>  VA ranks fourth in terms of Federal facility square 
footage; and
    <bullet>  Approximately 75 percent of VA's total building square 
footage is in the hospital category.

    FEMP uses the OMB Energy Management Scorecards to rate each Federal 
agency's progress in meeting mandated energy reduction goals. VA 
received a green status score for its FY 2008 Federal energy management 
efforts. VA performance, as measured by the scorecard, reveals that it 
met or exceeded the following criteria:

    <bullet>  Reduction in energy intensity in goal-subject facilities 
compared with FY 2003;
    <bullet>  Use of renewable energy as a percent of total facility 
electricity use;
    <bullet>  On track to meter electricity in 100 percent of 
appropriate facilities by FY 2012;
    <bullet>  Reduction in water intensity compared with FY 2007; and
    <bullet>  Percent of new building designs begun since October 1, 
2006, that are 30 percent more energy efficient than relevant code.

    In addition to its goal performance outlined above, VA has 
demonstrated significant achievement in a variety of other energy 
efficiency and renewable power activities which includes:

    <bullet>  Developing a public-private energy savings partnership 
project at the VA West Haven Campus of the Connecticut Health Care 
System involving multiple utilities and private partners;
    <bullet>  Producing a department-wide plan, the Energy Management 
Action Plan;
    <bullet>  Making significant investments in human capital to 
include hiring 12 regional-level energy managers and 87 energy 
engineers at the facility level;
    <bullet>  Implementing a ``build green'' approach for all major 
projects by incorporating sustainable design concepts into solicitation 
requirements for architecture and engineering firms; and
    <bullet>  Launching a major renewable energy initiative in FY 2009 
featuring feasibility studies and project implementation for solar, 
wind, geothermal and renewably fueled cogeneration.

DOE/FEMP-VA PARTNERSHIP ACTIVITIES
    In May 2009, FEMP issued a call to all Federal agencies to submit 
proposals for DOE technical assistance (TA) to provide agencies with TA 
to plan and implement projects funded by Recovery Act or base FY 2009 
appropriations. Three VA project proposals were selected for a total 
value of $210,000. These projects consist of:

    <bullet>  VA National Cemeteries, including TA for detailed 
renewable energy feasibility studies at four cemetery sites;
    <bullet>  VA Medical Centers, including TA in the development of 
retro-commissioning specifications to increase the energy efficiency of 
VA's Medical Centers; and
    <bullet>  Veterans Integrated Service Networks (VISN 7), including 
integrated site-assessments and short-term diagnostic testing to retro-
commission selected sites is being performed in the regional network of 
203 VA buildings located in Alabama, Georgia, and South Carolina.

    These TA projects strengthen an already well-established DOE/FEMP-
VA partnership. The partnership's key features include:

    <bullet>  DOE/FEMP, VA, Department of Defense, Department of 
Homeland Security, General Services Administration, and EPA joint 
sponsorship of the annual GovEnergy Workshop and Tradeshow, which is 
the Federal Government's premier event to train Federal employees (over 
3,000 participants) on a wide range of technical, project financing, 
and policy-related issues;
    <bullet>  Active participation of VA personnel in FEMP-sponsored 
project financing workshops for Federal procurement and facility energy 
management;
    <bullet>  Active VA participation in FEMP-coordinated interagency 
task force and working groups; and
    <bullet>  Recognition of VA sites and personnel for their 
leadership and accomplishments through the annual Federal Energy and 
Water Management award and energy champion programs.

    VA has made great strides in ``greening'' their operations, and 
FEMP looks forward to continuing to work with VA to ensure that 
critical national energy and water efficiency goals are met. Working 
together, we can improve the quality of VA facilities for employees and 
patients, cut operating costs, and meet critical national goals in 
reducing greenhouse gas emissions, and reducing Federal energy and 
water use.
    Chairman Filner, Ranking Member Buyer and Members of the Committee, 
thank you for giving me the opportunity to speak with you today and I 
look forward to answering any additional questions you might have.

                                 <F-dash>
   Prepared Statement of James M. Sullivan, Director, Office of Asset
       Enterprise Management, U.S. Department of Veterans Affairs

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to discuss with you the Department of Veterans Affairs (VA) 
Green Management Program and our commitment to energy efficiencies and 
cleaner energy--and to building lasting change that reduces VA's impact 
on the environment.
    I am accompanied here today by Ed Bradley, Director of Investment 
and Enterprise Development Service, Office of Asset Enterprise 
Management; and John Stenger, Director of Health Care Engineering; and 
John Beatty, Director of Safety, Health, Environmental and Emergency 
Management; both from the Veterans Health Administration (VHA).
    As the lead for VA's ``Green Team,'' I will present our Green 
Management Program and identify the four major program areas; scope of 
responsibilities; recent accomplishments; investments in energy 
efficiency and renewable energy; energy savings; and VA's path toward 
reducing its carbon footprint as an agency while enabling and 
supporting VA's primary mission--to provide the highest quality care 
and services to our Veterans and their families.

Green Management Program_Overview
    VA is making great strides in conserving resources at its 
facilities across the country by proactively managing its energy, 
environmental, fleet and sustainable building efforts. These four 
program areas are the cornerstone of our integrated Green Management 
Program. Working collaboratively with VA's administrations--VHA, 
Veterans Benefits Administration (VBA) and National Cemetery 
Administration (NCA) and staff offices--we have, for example, reduced 
the rate at which VA uses energy in buildings by 11 percent since 2003. 
We have created facility energy engineer positions to serve all 
facilities. We have exceeded alternative fuel vehicle acquisition 
mandates and installed pumps to dispense alternative fuels at 10 
fueling stations, with many more planned and on the way. Six VA 
facilities have earned certification as green buildings, and others are 
in the evaluation process right now.
    We are dedicating over $400 million in Recovery Act funds to make 
facilities more energy efficient and to add solar, wind and other 
renewable energy capacity. Activities such as these that help ``green'' 
our world are the right thing to do. They improve our well-being and 
ensure a healthy planet for the generations to come. Reducing our 
energy and environmental footprint is not only the right thing for VA 
to do, it is the smart thing. Each action we take to reduce, reuse and 
recycle energy, water and other resources has the potential to generate 
cost savings that VA can redirect to its core mission of caring for our 
Nation's Veterans and their families.
    Our agency has established a tangible goal for each and every 
employee to integrate energy and environmental considerations into 
their day-to-day activities and into all VA operations and long-term 
planning processes.

Energy and Water Management
    Since 2003, VA has been successful in setting goals that exceed 
mandates; benchmarking energy consumption at its facilities; improving 
energy efficiency; and investing in renewable energy generation to 
reduce its fossil fuel consumption.

Energy Project Investment Process
    VA instituted a rigorous centralized energy project identification, 
evaluation and investment process in 2003. The process begins with 
regionally coordinated facility energy assessments to identify and 
evaluate potential energy and water conservation measures. Once 
measures are identified, facility and regional decision-makers select 
measures to implement and decide on funding methods, which include 
appropriations and alternative financing such as energy savings 
performance contracts. VA's National Energy Business Center, 
established in 2005, provides the Department with all energy-related 
contracting services, from energy assessments to performance 
contracting.

Technologies & Projects
    The VA's Green Management Program has focused especially on 
identifying facilities with high potential for renewable energy 
projects and pursuing implementation of those projects. VA is making 
use of the funds provided through the Recovery Act to fund design-build 
contracts and feasibility studies at existing medical centers and 
national cemeteries across the country. Additionally, VA is conducting 
renewable energy feasibility studies for all new construction projects.
    Solar photovoltaic (PV) panels are one technology that VA is 
deploying. In 2008, we installed solar PV systems at 2 medical centers 
and we expect to award design-build contracts for 19 additional 
projects this year. With the design-build process, contractors evaluate 
VA needs and propose the technologies and systems best suited to 
filling those needs, including both thin film and crystalline 
technologies. VA is actively pursuing wind and geothermal systems as 
well, with contracts for two wind and four geothermal systems to be 
awarded this year.
    Cogeneration (also known as combined heat and power) is an energy 
efficient system especially suited to meeting medical center energy 
needs. Such systems simultaneously produce electricity and steam, hot 
water or chilled water. The cogeneration plant at the Mountain Home VA 
Medical Center (VAMC) in Johnson City, Tennessee, uses waste methane 
gas that is produced from and processed at a local municipal landfill. 
The cogeneration system at the San Diego VAMC won a Department of 
Energy (DOE) award in 2006 and features a natural gas turbine with very 
low emissions of nitrogen oxide (NO<INF>x</INF>). VA awarded 12 
contracts this past August for feasibility studies of renewably fueled 
cogeneration at 38 sites in 15 States and Puerto Rico.
    VA is aggressively implementing advanced metering systems to 
measure consumption at the building level to help identify problems and 
opportunities to improve energy performance. We are currently 
completing installation of electric and non-electric meters in Veterans 
Integrated Service Networks (VISNs) 10 and 22, awarding a contract this 
fiscal year to install electric meters in all other VA facilities, and 
funding non-electric metering for all VA facilities through the 
Recovery Act.

Water Management
    VA's medical facilities must use water relatively intensely to meet 
stringent patient care requirements. At VA's national cemeteries, water 
is essential for maintaining appropriate national shrine environments. 
VA was able to reduce its water consumption intensity by 3 percent 
between FY 2007 and FY 2008 while also meeting these mission-related 
requirements, exceeding the mandated reduction by 50 percent. The new 
VBA Regional Office in Reno, Nevada, is certified Leadership in Energy 
and Environmental Design (LEED) Silver and uses water-wise landscaping 
and other water management techniques such as waterless urinals to 
reduced water consumption by more than 30 percent. NCA has been taking 
steps to reduce water consumption while maintaining respect for our 
Veterans' resting places. For example, at Fort Bliss National Cemetery 
(El Paso, Texas), NCA used water-wise landscaping with drought-
resistant plants and installed drip-emitters for irrigation. Several VA 
facilities have won DOE awards for water management, and VA is actively 
pursuing additional opportunities.

Sustainable Building
    As a Federal agency, VA is required to ensure that 15 percent of 
its building inventory incorporates sustainable practices by 2015 in 
accordance with the mandates of Executive Order 13423, Strengthening 
Federal Environmental, Energy, and Transportation Management (2007). 
The Green Building Initiative, Inc. (GBI) recently awarded Green Globes 
sustainable building certifications to three VAMCs. Additionally, one 
VHA and two VBA facilities have (LEED) certifications. The new VBA 
Regional Office in Boise, Idaho, which will be activated in October 
2009 uses geothermal energy and is in process for LEED Gold 
certification. Moreover, all new construction and major renovation 
projects are being designed to meet sustainable building principles.
    There are 19 additional VA facilities that expect to obtain third-
party green building certification by the end of 2009. Once 
certifications are obtained, VA's sustainable building square footage 
will reach 12 percent of total applicable square footage in inventory.
    We recognize the importance of building our new facilities to be as 
sustainable as possible, and also maintaining that status through the 
use of the Energy Star building rating system. VA has been an active 
participant in the Energy Star buildings program since 2003. Twenty-
five VAMCs have received an Energy Star label, representing nearly 30 
percent of all Energy Star labeled medical centers in the United 
States. These labels signify that the facility is among the top 25 
percent of comparable facilities in the Nation in terms of energy 
performance. We have also established Energy Star ratings for all of 
our medical centers and for two VBA regional offices.

Environmental
    The Nation's environmental statutes impact the way VA facilities 
are maintained and operated. Protecting the environment is critical to 
ensuring the health of Veterans, employees and the public, as well as 
the communities that VA serves. VA is committed to continually 
improving its environmental programs to meet Federal, State and local 
environmental requirements and reduce risks that VA facility operations 
may pose to the environment. VHA is responsible for providing quality 
health care to our Nation's Veterans at more than 150 VAMCs, 875 
community-based outpatient clinics and other health care facilities.

Environmental Management Systems
    The Green Environmental Management System (GEMS) is the foundation 
for environmental management in VA's medical centers, focused on 
environmental performance through a process of continuous improvement. 
By 2008, GEMS were in place at all VAMCs with dedicated GEMS 
coordinators serving at 99 percent of medical facilities. In 2009, VHA 
began presenting detailed GEMS training courses to improve 
understanding of statutes and regulations. NCA is expanding the number 
of cemeteries covered by environmental management systems significantly 
using Recovery Act funding, and will soon be adding coordinators as 
well.

Green Purchasing
    Buying green products is consistent with VA's mission to provide 
our Nation's Veterans with a healthy environment. VA is proud of Fort 
Custer National Cemetery's (Augusta, Michigan) prestigious 2007 White 
House Closing the Circle Award for testing and using biobased products 
in cemetery grounds maintenance equipment. Between September 2007 and 
June 2009, 100 percent of the desktop computers that VA leased were 
Electronic Product Environmental Assessment Tool gold or silver 
products, signifying relatively low environmental impact.

Electronic Stewardship
    VA is preparing to implement computer power management nationwide. 
This project is challenging not only because of VA's size and widely 
dispersed facilities, but because of its impact on other information 
technology requirements, all of which need to be fully integrated. As 
implementation proceeds, VA will be developing a strategy for 
activating power management in nonmission-critical equipment.

Greenhouse Gas (GHG) Reduction
    Last year VA participated in developing protocol for the public 
sector to inventory GHG emissions and has joined a new Federal 
interagency initiative to ``road test'' the protocol. VA is working 
with the Federal Energy Management Program office at DOE in their GHG 
reduction leadership role. We have established an advisory group within 
VA to shape VA's strategy for establishing a baseline inventory and 
achieving VA's initial target of 30-percent reduction by FY 2020 from a 
FY 2008 baseline.

Fleet Management
    VA is taking steps to curb petroleum use and increase the use of 
alternative fuels. We are on track to exceed our fleet management goals 
of reducing petroleum consumption 2 percent annually and increasing our 
alternative fuel consumption 10 percent annually. To support our 
growing alternative fuel vehicle fleet, 25 facilities plan to add 
alternative fueling capacity, and we are completing a study to identify 
optimal locations for constructing up to 35 additional stations with 
the $7 million in minor construction program funding we received for 
this purpose. Also, VA is placing electric vehicles on VAMC campuses 
and national cemeteries.

Education & Outreach
    VA has recently embarked on a new initiative called the ``Green 
Routine.'' This initiative is an outreach and awareness campaign 
created with the support of Secretary Shinseki. The outreach will 
provide the necessary information and resources to educate all 
employees on how they can take advantage of the daily opportunities 
within their grasp to contribute personally to creating a healthier 
environment. Deliverables include an informational video; a Web page; 
an instructional guide to going green in the workplace; and a 
facilities action plan. Our agency is a leader among other Federal 
agencies in reducing its energy consumption and environmental impact, 
but now we are educating and reaching out to our 288,000 employees 
nationwide to help us continue on the right path - the green path.

Conclusion
    Over the past several years, VA has laid a solid foundation of 
leadership in green management at its facilities by implementing 
environmental management systems and hiring energy managers and 
environmental coordinators. We are building lasting change by 
constructing sustainable new facilities with energy efficiency and 
renewable energy features. Reducing environmental impacts and 
increasing energy efficiency are a top priority of the Green Management 
Program while we maintain our focus on our core mission of caring for 
our Nation's Veterans and their families. Thank you again for the 
opportunity to testify. My colleagues and I are prepared to answer your 
questions.

                                 <F-dash>
         Statement of Hon. Harry E. Mitchell, a Representative
                 in Congress from the State of Arizona

    I would like to thank Chairman Filner for calling this important 
hearing. And a thank you to our panelists for appearing today, as well.
    The VA is the 6th highest in energy consumption intensity and 3rd 
highest in water consumption intensity among Federal agencies.
    For fiscal year 2008, energy and water costs were $512-million and 
$27-million, respectively. With close to $540-million in energy costs, 
even the most modest upgrades aimed toward sustainability could save 
taxpayers millions of dollars.
    I share the conviction that energy efficiency and conversation can 
lead to a greener and more sustainable VA. However, these improvements 
must be made in a manner that does not compromise the delivery of care 
and services to our veterans.
    To the extent that energy efficiency and conservation can lead to 
more efficient use of American taxpayer dollars and better overall 
services and benefits for our heroic veterans, that is certainly a good 
thing as well.
    I look forward to hearing from our panelists today and working to 
achieve a more efficient and sustainable VA.
    I yield back the balance of my time.


                   MATERIAL SUBMITTED FOR THE RECORD

                          BACKGROUND MATERIAL

         CHART SHOWING JULY 2009 MANAGEMENT SCORECARDS--SUMMARY
[GRAPHIC] [TIFF OMITTED] T3431.009


          POST-HEARING QUESTIONS AND RESPONSES FOR THE RECORD

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                    October 2, 2009

Gail Vittori
Co-Director, Center for Maximum
Potential Building Systems
8604 FM 969
Austin, TX 78724

Dear Gail:

    In reference to our full Committee hearing entitled ``Energy 
Efficiency at the U.S. Department of Veterans Affairs'' on September 
30, 2009, I would appreciate it if you could answer the enclosed 
hearing questions by the close of business on November 13, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax at 202-225-2034. If you have any questions, please 
call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman
MH:ds


                               __________

                               Memorandum
To:     Chairman Bob Filner House Committee on Veterans' Affairs

From: Gail Vittori, Co-Director
       Center for Maximum Potential Building Systems
       Austin, TX

Date:  November 13, 2009

Re:    Follow-up hearing questions for 9-30-09 VA Committee Hearing

    1.  You stated that San Diego, California, has one of the strongest 
recycling programs across the board. Please discuss what practices they 
are implementing and how the VA could take those practices and apply 
them to buildings and hospitals across the country?

          My testimony and oral statement did not discuss the recycling 
program in San Diego.

    2.  All new VA construction projects beginning in 2009 will 
incorporate green building principles. What should the VA be 
strategically focused on to ensure that there is not a significant 
achievement gap, and that these buildings can sustain energy savings 
over the long term?

          As I mentioned in my testimony, there are a number of 
recommendations that should be adopted or expended to ensure that 
energy efficiency and sustainability are achieved over the long run in 
VA facilities.

          These include:

      <bullet>  For existing facilities, adopt a regular maintenance 
regime including ``green'' housekeeping methods, establish continuous 
commissioning, adding meters and controls to mechanical and plumbing 
equipment, and retrofit electrical lighting to energy conserving lamps 
to optimize operational performance.
      <bullet>  For new construction, support an integrative design 
process, establish aggressive energy and water goals, and assess 
renewable energy strategies. Design for solar readiness to enable 
installation of renewable energy systems when they have favorable life 
cycle costs. Ensure strategies that promote patient healing and staff 
well-being and productivity, such as access to daylight and views, 
connection to the outdoors, and enhanced indoor air quality through 
low-emitting materials, are strategic considerations during space 
planning, programming, and design.
      <bullet>  Take advantage of existing tools to measure, manage and 
continuously improve performance. These include the Green Guide for 
Health Care, particularly the v2.2 Operations section that is beginning 
a pilot in 2010, LEED 2009 and, when launched, LEED for Health Care. In 
addition, U.S. EPA's Energy Star Target Finder (for new construction) 
and Portfolio Manager (for existing buildings) provide a benchmarking 
protocol to measure performance relative to health care sector peers.
      <bullet>  Engage in collaborative research initiatives with other 
health care systems and governmental agencies on critical performance 
topics, including but not limited to displacement ventilation, 
appropriate implementation of reclaimed water sources with special 
regard for infection control consequences, appropriate lighting 
strategies, and pathways to achieve energy use reductions by more than 
30 percent in varying climatic zones.
      <bullet>  Expand bottom line evaluation to provide for life cycle 
cost assessment, factor in patient length of stay, employee recruitment 
and retention, energy and water savings, and long-term mechanical 
performance as key indicators of economic performance.

    3.  Can you elaborate on the benefits of green health care 
facilities both in patient care and safety, employee satisfaction, cost 
savings, conservation of energy and water, and reduction of waste and 
the carbon footprint?

          The benefits of green health care facilities are numerous. 
Dell Children's Hospital, discussed in greater detail in my testimony, 
serves as one example of the benefits to adding sustainability measures 
to health care facilities. Dell Children's is designed to achieve a 
17.2-percent reduction in direct energy use. The installation of low-
flow plumbing fixtures saves 1.4 million gallons of water a year.
          There has also been a positive response from the staff as 
well. Dell Children's had a 2.4 percent nursing turnover rate in the 
first year, compared to 10-15 percent national average. With a cost of 
more than $70,000 to replace one nurse, Dell Children's low turnover 
rate is also a significant financial savings for the hospital.

    4.  How is the VA doing in relation to most private health care 
facilities?

          As I mentioned in my testimony, the Department of Veterans 
Affairs has had a visible presence in supporting efforts in sustainable 
development and has invested in their own research to advance 
sustainable practices in their portfolio, including the release of 
Innovative 21st Century Building Environments for VA Health Care 
Delivery.
          It is also laudable that 15 of the 48 acute care and 
children's hospitals that have earned the ENERGY STAR designation are 
owned and operated by the Department of Veterans Affairs.
          With that said, more can and should be done to expand 
sustainable practices in the Department of Veterans Affairs. My 
testimony elaborates on a number of health care systems and facilities 
that are helping to lead the way on greening health care operations.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                    October 2, 2009

Thomas W. Hicks
Executive Director
Building Performance Initiative
U.S. Green Building Council
2101 L Street, NW, Suite 500
Washington, DC 20037

Dear Tom:

    In reference to our full Committee hearing entitled ``Energy 
Efficiency at the U.S. Department of Veterans Affairs'' on September 
30, 2009, I would appreciate it if you could answer the enclosed 
hearing questions by the close of business on November 13, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax at 202-225-2034. If you have any questions, please 
call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman
MH:ds

                               __________

                  Post-Hearing Question for Tom Hicks
            Executive Director, U.S. Green Building Council
                     From the Honorable Bob Filner
                           September 30, 2009
      Energy Efficiency at the U.S. Department of Veterans Affairs
    All new VA construction projects beginning in 2009 will incorporate 
green building principles. What should the VA be strategically focused 
on to ensure that there is not a significant achievement gap, and that 
these buildings can sustain energy savings over the long term?

                               __________

                                        U.S. Green Building Council
                                                    Washington, DC.
                                                   November 9, 2009

Chairman Bob Filner
House Committee on Veterans' Affairs
335 Cannon House Office Building
Washington, D.C. 20515

Chairman Filner:

    Thank you for the opportunity to participate in the full committee 
hearing (``Energy Efficiency at the U.S. Department of Veterans 
Affairs'') on September 30, 2009 and thank you for your question in 
your October 2, 2009 letter. As a non-profit organization that has 
promoted green buildings for the past 16 years, the U.S. Green Building 
Council (USGBC) has had the opportunity to work with many leading 
organizations, companies, and people and to witness their success in 
translating green building principles into action. The ability of the 
Department of Veterans Affairs to ensure that it succeeds in the same 
way and does not experience an achievement gap as it incorporates green 
building principles into all new construction projects is a matter of 
leadership and commitment: the leadership to provide the vision and the 
commitment to the strategies that deliver upon that vision. USGBC 
provides the following recommendations to the Department of Veterans 
Affairs.

    1.  Commit to a Single Green Building Rating System. The General 
Services Administration concluded in its July 2006 study on green 
building rating systems that ``LEED<SUP>'</SUP> is not only the U.S. 
market leader, but is also the most widely used rating system by 
Federal and State agencies, which makes it easy to communicate a 
building's sustainable design achievements with others.'' LEED is also 
the only rating system in the United States that was wholly designed 
within, by, and for the U.S. and is the only one that requires third 
party evaluation to obtain certification. By aligning its green 
building goals within the framework of LEED, the Department of Veterans 
Affairs would ensure its green building principles are credibly 
evaluated. Furthermore, alignment with LEED would enable the Department 
to take advantage of opportunities to scale its green building 
principles across the building portfolio.

        Commit to Specific Performance Goals. Many organizations, 
including many Federal agencies, have seen great success by committing 
to specific performance goals as a way to easily communicate both 
internally and externally the vision of the organization. The 
Department of Veterans Affairs should also commit to and communicate 
performance requirements across a range of energy and environmental 
issues. Examples of leadership positions for new construction projects 
might include:

     <bullet>  40 percent more efficient than ASHRAE Standard 90.1
     <bullet>  20 percent of energy use from renewable, on-site sources
     <bullet>  50 percent reduction in water use relative to Energy 
Policy Act 1992
     <bullet>  Elimination of potable water for landscaping
     <bullet>  90 percent diversion of construction debris from 
disposal in landfills
     <bullet>  Elimination of materials manufactured with volatile 
organic compounds (VOCs)
     <bullet>  Establishment of a green cleaning policy for VA for new 
and existing facilities
     <bullet>  Provide 90 percent of building occupants with direct 
access to daylight and exterior views
     <bullet>  Select only transit friendly project sites

    The above examples are just a few that should be seriously 
considered for all new construction projects to ensure that buildings 
can sustain both the energy savings and environmental performance for 
the long term. In addition to these choices, all new construction and 
existing buildings projects should be required to do the following:

    <bullet>  The integrated design process is a core principle and 
formal process of good green building design and construction and 
typically achieves the best results. By including representatives 
across the entire spectrum of the life of the building--designers, 
occupants, owner, contractors--a holistic and a common vision for the 
green principles to be included in the building can be achieved.
    <bullet>  Building commissioning should be required in new and 
existing buildings. As I discussed in my testimony, commissioning is 
the process of verifying and documenting that all of its systems are 
planned, designed, installed, tested, operated and maintained to meet 
the owner's project requirements. Done correctly, building 
commissioning not only identifies potential construction and 
operational issues during design and construction, it also optimizes 
the performance of the building. As I stated in my testimony, if the 
Federal Government were to re-commission its entire building stock and 
achieve the estimated 15-percent reductions in energy use, it could 
generate more than $650 million in annual energy savings and eliminate 
roughly 2.7 million tons of carbon in 1 year.
    <bullet>  Perhaps the most prevalent and significant factor 
affecting the sustained energy and environmental performance of 
buildings is occupant behavior. For each new project, education should 
be provided to building occupants both before and immediately after 
occupancy begins. Education should focus on the performance goals for 
the building, the role the occupants play in achieving those goals, the 
green and energy efficient attributes of the building, and how the 
occupants are expected to interact with the building, its attributes, 
and the building management team. As part of the education process, the 
Department of Veterans Affairs should set up and administer a 
continuous improvement process that directly involves the occupants so 
that both the building management team and the occupants themselves 
have a role in the outcome of the building.
    Thank you again for the opportunity to participate in the Full 
Committee hearing and for the opportunity to respond to your question 
on sustaining savings over the long term. I would be happy to provide 
any additional information you may need.

            Respectfully,

                                                    Thomas W. Hicks
                                        U.S. Green Building Council

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                    October 2, 2009

Jane M. Rohde
Principal
JSR Associates, Inc.
8191 Main Street, 2nd Floor
Ellicott City, MD 21043

Dear Jane:

    In reference to our Full Committee hearing entitled ``Energy 
Efficiency at the U.S. Department of Veterans Affairs'' on September 
30, 2009, I would appreciate it if you could answer the enclosed 
hearing questions by the close of business on November 13, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax at 202-225-2034. If you have any questions, please 
call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman
MH:ds

                               __________

                                               JSR Associates, Inc.
                                                 Ellicott City, MD.
                                                   October 28, 2009

Dear Honorable Bob Filner,

    The following are in response to your post-hearing questions for 
Jane Rohde, Principal of JSR Associates, Inc. regarding the Energy 
Efficiency at the U.S. Department of Veterans Affairs Hearing on 
September 30, 2009.

    1.  All new VA construction projects beginning in 2009 will 
incorporate green building principles. What should the VA be 
strategically focused on to ensure that there is not a significant 
achievement gap, and that these buildings can sustain energy savings 
over the long term?

       a.  One observation that was consistent while completing the 
Green Globes<SUP>TM</SUP> assessments for the existing VA hospitals was 
for new construction projects there is little or no involvement/input 
from the people currently working at the existing facility. It is 
strongly recommended that local staff expertise (including the Energy 
Manager) be involved at the on-set of the design process, through the 
design process, and through the construction, commissioning, and 
occupancy process. An integrated team from the outside, without in-side 
staff being involved, does not provide an environment that is conducive 
to sustainability over time. Once the new construction project is 
completed, the outside team goes away without the local staff and 
operations team being completely updated in the maintenance and 
operation of the new building. Sustainability is a dynamic process, 
requiring training and involvement of on-site staff.

            i.  In addition, design guidelines that are developed from 
VACO are often completed prior to receiving input from those working in 
the field. If the process required input first, then guidelines and 
specifications were developed in tandem with the VA sites, there would 
be substantial improvement in the specifications and guidelines that 
includes saving of time and resources in their development.
           ii.  In evaluating hospitals, there is also concern that 
guidelines and specifications that are being issued from VACO are not 
as current as those being utilized in the private sector. For example, 
there are lighting guidelines provided by the Illuminating Engineers 
Society of North American (IESNA) for both acute care and senior living 
settings. VACO has their own guideline that may not reflect the current 
recommendations. Further, there are proposed lighting sustainability 
guidelines in development by DOE. The ultimate concern is that the DOE 
guidelines do not take into account the aging eye and health care 
settings. The VACO guidelines do need to be updated and it is 
recommended to provide direct reference to the most current IESNA 
guidelines.
          iii.  Another recommended venue for creating guidelines is 
for VACO to evaluate the 2010 cycle of the Guidelines for Design and 
Construction of Health Care Facilities as a basis for design of VA 
facilities. The 2010 version includes basic sustainability information, 
ties to ASHRAE standards, and includes different types of health care 
settings. The 2010 guidelines are anticipated for publication in 
January, 2010. Information is available at www.fgiguidelines.org 
(Facilities Guidelines Institute).

       b.  Second observation is the utilization of the Green Globes 
Continual Improvement of Existing Buildings (CIEB) allows the local 
staff to continually evaluate and improve the operation of the 
buildings. From this perspective, it would make sense to evaluate the 
utilization of the Green Globes New Construction Module, as it feeds in 
naturally to the CIEB module; again allowing the local staff to 
complete continual commissioning and post occupancy evaluations as they 
are operating not only the existing facility, but also the expansions 
and new construction projects on the VA campuses as they come online.
       c.  Recommend continual or retro-commissioning being completed 
with in-house staff and contracted staff as required once a new 
construction project is completed. Internal audits would also be 
valuable, as most third party external audits are not on the sites over 
an extended period of time.
       d.  It is recommended that cross-training programs from VA 
hospital to VA hospital be implemented; utilizing existing expertise to 
improve energy performance VA wide. Currently there are training 
programs set up in Augusta, Georgia and Portland, Oregon for plant 
management. Expanding this program both online and on-site to include 
GEMS programming would be beneficial in assisting all VA Hospitals to 
improve in the areas of waste management, water and energy 
conservation, environmental purchasing, and training.
       e.  Another issue brought out in assessments is a current 
movement by H.R. to reduce the pay grade of Energy Managers (which may 
also extend to existing positions). In speaking to one of the VISN 
Energy Managers there is a concern that G11, which is used for open 
positions, will not attract qualified persons to the position. And if 
they are; once the recession abates, the person would immediately leave 
the position. This creates issues with consistency, knowledge base, as 
well as continual sustainable improvement.

    2.  Can you elaborate on the benefits of green health care 
facilities both in patient care and safety, employee satisfaction, 
costs savings, conservation of energy and water, and reduction of waste 
and the carbon footprint?

       a.  The best way to demonstrate the benefits of green health 
care facilities is through examples of projects that have been 
implemented in some of the existing VAs that include positive patient 
and staff outcomes. These are considered best practices:

            i.  Implementation of a microfiber mop and cleaning program 
completes not only reduction of infection risk and cross contamination; 
protecting patients and staff, but also reduces the water and chemical 
usage for cleaning, less exposure to chemicals for staff, less lifting 
of heavy cleaning equipment reducing potential staff back injuries, and 
faster drying times reducing the opportunity for falls.

              1.  There is a distinction between up front costs (first 
costs) and operational savings. The microfiber mops initially cost 
more, but save operationally through less workman's compensation, 
decrease in infection risk, and safer environments for both patients 
and staff.
              2.  This type of improvement could be recognized through 
staff incentives for providing creative and resourceful ideas that not 
only improve the environmental footprint, but most importantly improve 
patient and staff outcomes and satisfaction.

           ii.  Energy efficient boiler equipment with low emissions 
not only reduces the carbon footprint, but also saves energy and 
provides costs savings. New direct digital controls (changed over from 
pneumatic controls) provides not only better monitoring of equipment, 
but provides tools to monitor energy usage over time, better control of 
heating and cooling, and opportunities for adjustment for patient and 
staff comfort and satisfaction.
          iii.  Providing gardens, roof gardens, and indigenous plants 
reduces heat island effect by having less exposed pavement and roofing. 
Other advantages include less storm water run off, reduction of need 
for irrigation (cost savings), places of respite for veterans and their 
families, access to daylight for long term stay patients to reset their 
circadian rhythms (promoting improved sleep patterns) and the 
opportunity for access to vitamin D, and an opportunity for the 
community at-large to participate with service projects at VA 
facilities.
          iv.  Recycling and reusing sharps containers avoids disposing 
of the entire container plus its contents; reducing the waste to only 
the biomedical waste contents. This waste reduction measure has proven 
to be effective in reducing potential needle sticks by staff members 
(promoting staff and patient safety). The sharps containers are removed 
on a regular basis, contents are removed for disposal, and then 
containers are disinfected and reused.

    3.  How is the VA doing in relation to most private health care 
facilities?

       a.  Most private health care facilities do not serve the same 
breadth of patient types and needs that the VA serves. Generally 
speaking, in the public sector, there are teaching/research hospitals, 
community based hospitals, and specialty hospitals. Many VA hospitals 
are working with universities completing research within VA hospitals, 
providing long term care (including nursing homes: Community Living 
Centers, palliative/hospice care, rehabilitation, polytrauma, spinal 
chord injury, and brain trauma), surgery, radiology, in-patient care, 
out-patient care (all types including dental, ophthalmology, podiatry) 
and community based services. In many ways, VA hospitals are a one-stop 
shop, providing all services in a holistic manner for veterans. Often 
sites include a Fisher House, which is equivalent to the Ronald 
McDonald House found located near private health care facilities. This 
comparison information is provided as background, because it is 
difficult to compare private facilities to VA facilities, because they 
usually do not cover the breadth of services that VA facilities 
provide.
       b.  There is a growing trend for private health care systems to 
evaluate green building principles as well as evidence based design 
initiatives. Evidence based design utilizes research to demonstrate 
outcomes based upon the physical setting and environment. It is a 
process that utilizes evidence to better inform the decisionmaking and 
design processes. Because of the broad breadth of services that VA 
hospitals provide, they would be excellent sites to complete research 
that can benchmark not only sustainability through tools such as Green 
Globes<SUP>TM</SUP>, but also benchmark impacts of the healing 
environment on patient and staff outcomes. More information on evidence 
based design can be found at www.healthdesign.org.

         i.  As an example, the VA is in a perfect position to provide 
the private sector with research on the efficacy of sustainable 
cleaners versus traditional cleaners as they relate to infection 
control. With over 90,000 people dying annually of hospital acquired 
infections (Burke JP. Infection control-A problem for patient safety. N 
Engl J Med 2003; 348:651-656), this undertaking would provide excellent 
data for VA hospital standards as well as data for private sector 
hospitals. Particularly for private sector hospitals, nosocomial 
infections are a high priority, because reimbursements are no longer 
being paid for patient services related to a hospital acquired 
infection (HAI).

       c.  From a care model perspective, the VA is piloting and moving 
toward the use of the Planetree care model, which is a patient centered 
model. The idea behind Planetree is that staff is trained and decisions 
are made based upon patient needs and comfort versus being only staff 
driven. Some VA facilities are also evaluating culture change and the 
Eden Alternative<SUP>TM</SUP>, which are similar to Planetree, in that 
the long term care patient or resident is the center of the care model. 
Interdisciplinary teams, universal worker training, breaking down 
departmental silos and improving quality of life for patients and staff 
are all instrumental to these types of care models. Additional 
information on these models can be found at www.planetree.org, 
www.pioneernetwork.net, www.culturechangenow.com, www.edenalt.org, and 
www.smallhousealliance.org.

       d.  Overall, with the VA evaluating patient-centered care 
models, sustainability and green building initiatives, and their 
potential to be centers of excellence for evidence based design 
initiatives there is an opportunity to lead the private sector through 
the demonstration of best practices. There are opportunities for the VA 
to learn from the private sector as well and a forum to promote 
communication between VA facilities and the VA and private health care 
facilities would be worthwhile for both types of organizations.

    Thank you for the opportunity to respond to your post-hearing 
questions. If I can be of further assistance, please contact me at 
(410) 461-7763 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="670d06090227">[email&#160;protected]</a> jsrassociates.net.

            Respectfully submitted,

                    Jane M. Rohde, AIA, FIIDA, ACHA, AAHID, LEED AP
                                                          Principal

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                    October 2, 2009

James L. Hoff, DBA
Director of Research
Center for Environmental Innovation in Roofing
816 Connecticut Avenue, NW, 5th Floor
Washington, DC 20006

Dear James:

    In reference to our full Committee hearing entitled ``Energy 
Efficiency at the U.S. Department of Veterans Affairs'' on September 
30, 2009, I would appreciate it if you could answer the enclosed 
hearing questions by the close of business on November 13, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax at 202-225-2034. If you have any questions, please 
call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman
MH:ds

                               __________

                     Committee on Veterans' Affairs
                 United States House of Representatives
                Post-Hearing Question for James L. Hoff
  Director of Research, Center for Environmental Innovation in Roofing
                     From the Honorable Bob Filner
                           September 30, 2009

      Energy Efficiency at the U.S. Department of Veterans Affairs
Question:
    All new VA construction projects beginning in 2009 will incorporate 
green building principles. What should the VA be strategically focused 
on as to ensure that there is not a significant achievement gap, and 
that these buildings can sustain energy savings over the long term?
Response:
Establish Specific Insulation Targets for All New and Replacement Roofs
    The Green Buildings Action Plan as currently published by the 
Department of Veterans Affairs, establishes a 30 percent overall 
improvement target for building energy efficiency, with special 
emphasis on new building construction and major renovation. However, 
many roofing projects, especially the re-roofing of existing Department 
facilities, fall outside new building or major renovation activities. 
As a result, there may be some confusion as to how the 30 percent 
energy improvement target should be applied to a roofing-only project. 
To avoid this potential confusion, the Center recommends that a 
specific target be established for roof insulation by applying the 30 
percent overall savings target to the current minimum roof thermal 
conductance requirements of ASHRAE 90.1-2007 (for roofs with above deck 
insulation). The calculation for this recommendation for the applicable 
ASHRAE climate zones is illustrated in the following table:


 
                                             ASHRAE 90.1-2007 Min.     Adjusted For 30%    Equivalent Min.  Roof
            ASHRAE  Climate Zone                 Roof U-Value 1       Energy Improvement         R-Value 2
 
Zone 1                                                      0.067                  0.047                   21.3
Zone 2-8                                                    0.050                  0.035                   28.6
 
 
\1\ U-value is a measure of thermal conductance.
\2\ R-value is a measure of thermal resistance and the reciprocal of U-value.


Include Roof Condition Assessment in all Roof-Mounted Renewable Energy 
        Projects
    Long-term durability of a building's roofing system becomes a 
critical factor whenever the roof also serves a platform for renewable 
energy production. Because the Department will certainly expect 20 or 
more years of continuous service from any investment as sizable as 
rooftop solar or other renewable energy systems, the Center strongly 
recommends that the condition and design of the roof be evaluated to 
assure that both the renewable energy system and the roof system will 
have compatible service lives.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                    October 2, 2009

Honorable Steven Chu
Secretary
U.S. Department of Energy
1000 Independence Ave. SW
Washington, DC 20585-0001

Dear Secretary Chu:

    In reference to our full Committee hearing entitled ``Energy 
Efficiency at the U.S. Department of Veterans Affairs'' on September 
30, 2009, I would appreciate it if you could answer the enclosed 
hearing questions by the close of business on November 13, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax at 202-225-2034. If you have any questions, please 
call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman
MH:ds

                               __________


                                          U.S. Department of Energy
                                                    Washington, DC.
                                                  November 19, 2009

Hon. Bob Filner
Chairman
Committee on Veterans' Affairs
U.S. House of Representatives
Washington, DC 20515

Dear Chairman Filner:

    On September 30, 2009, Richard Kidd, Program Manager, Federal 
Energy Management Program, Office of Energy Efficiency and Renewable 
Energy testified on energy efficiency goals for Federal Agencies.
    Enclosed are the responses to two questions that you submitted for 
the hearing record.
    If we can be of further assistance, please have your staff contact 
our Congressional Hearing Coordinator, Lillian Owen, at (202) 586-2031.

            Sincerely,

                                                     Betty A. Nolan
                                                     Senior Advisor
                        Congressional and Intergovernmental Affairs
Enclosures

                               __________

                     QUESTIONS FROM CHAIRMAN FILNER
    Question 1: What are your thoughts on how VA is planning to spend 
the $405 million provided by the American Recovery and Reinvestment 
Act?
    Answer: Each agency is responsible for determining how it will 
spend American Recovery and Reinvestment Act funding, in line with 
Congressional direction and guidance. Since the VA is the third largest 
consumer of total facility energy use in the Federal Government (after 
the 000 and the Postal Service), it has numerous opportunities for 
investing in improved energy efficiency, management and sustainability.
    Question 2: Is there anything that you would emphasize more or put 
more funding into than what the VA plans to do at this time?
    Answer: FEMP encourages agencies to use alternative financing, 
annual appropriations, and American Recovery and Reinvestment Act 
(ARRA) funds in a flexible financing approach that supports 
comprehensive projects which maximize the benefits of their energy 
savings investments. ARRA and annual appropriations can be particularly 
helpful in financing longer payback projects like renewables, water-
efficiency, metering and other energy conservation measures that do not 
provide the near-term return on investment necessary for alternative 
financing.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                    October 2, 2009

Honorable Eric K. Shinseki
Secretary
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Secretary Shinseki:

    In reference to our full Committee hearing entitled ``Energy 
Efficiency at the U.S. Department of Veterans Affairs'' on September 
30, 2009, I would appreciate it if you could answer the enclosed 
hearing questions by the close of business on November 13, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax at 202-225-2034. If you have any questions, please 
call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman
MH:ds

                               __________

                        Questions for the Record
                       Hon. Bob Filner, Chairman
                  House Committee on Veterans' Affairs
                           September 30, 2009

      Energy Efficiency at the U.S. Department of Veterans Affairs

    Question 1: Currently the VA has six facilities that are either 
LEED or Green Globes certified and 18 more for 2009. What is the 
strategic plan to continue to grow the certification process? How is VA 
selecting which facilities are getting rated and when?
    Response: As of October 20, 2009, VA received 10 Green Globe 
certifications and three LEED certifications, and is expecting 11 more 
Green Globe certifications by the end of 2009. VA is selecting 
facilities for the certification process based on the following 
criteria: (1) sustainable building self-assessment results; (2) Energy 
Star rating; and (3) implementation of energy efficiency and renewable 
energy projects. The self-assessment is an annual survey that each VA-
owned facility must complete, with questions based on the Guiding 
Principles for Federal Leadership in High Performance and Sustainable 
Buildings. VA uses this criteria to select additional facilities to 
complete any needed improvements and obtain certification.
    Question 2: Please discuss the differences in cost between 
utilizing Green Globes rating system and LEED rating system? Please 
explain why VA is utilizing both systems and what benefits and 
drawbacks each system has specific to VA's needs.
    Response: The certification fees for both LEED and Green Globes 
vary depending on building size and other factors. For an existing 
building over 500,000 square feet, the current certification fee for 
Green Globe is $10,000, and between $12,500 and $15,000 for LEED 
depending on U.S. Green Building Council membership status. The 
following hyperlinks provide certification fee information for each 
system:

LEED: http://www.gbci.org/DisplayPage.aspx?CMSPageID=127
Green Globes: http://www.thegbi.org/assets/pdfs/Green-Globes-Price-
List-7-01-09-Building-Certifications.pdf

    VA has elected to use LEED for assessment of new construction and 
Green Globes for assessment of existing buildings. LEED and Green 
Globes are both based on the five Guiding Principles for Federal 
Leadership in High Performance and Sustainable Buildings specified in 
Executive Order 13423, ``Strengthening Federal Environmental, Energy, 
and Transportation Management.'' Both incorporate related Department of 
Energy (DOE) guidance. Different rating elements apply within each 
system depending on whether the facility is a new construction project 
or an existing building. Per DOE analysis, Green Globe and LEED equally 
cover all elements of the five Guiding Principles for new construction. 
For existing buildings, Green Globe covers all of the Guiding 
Principles, while LEED leaves out certain elements. Specifically, LEED 
does not account for the following components of the Guiding Principles 
in its existing building certification: (1) measurement and 
verification; (2) process water (water used in non-plumbing 
applications such as cooling systems); (3) moisture control; and (4) 
construction waste.
    Question 3: How can you be sure that the energy conservation 
percentages being collected at each facility are accurate and true? 
What metrics are in place to ensure these numbers are being reported 
honestly? At what point will this data become objective and not self-
reported by each facility?
    Response: Data is validated upon entry into the energy consumption 
database with a combination of automated and manual review. Engineering 
staff at the local, network and Administration program office level 
review facility data regularly, along with quarterly Departmental 
program office review. During the past two years, VA has brought over 
100 energy engineers on board to provide subject matter expertise, 
which has resulted in improved data quality and consistency. 
Responsible program officials at each level review and certify energy 
data, and any significant changes in data are corrected or justified. 
Additionally, VA is installing building-level metering at VA-owned 
facilities nationwide. Meter data for electricity, natural gas, steam, 
chilled water and water consumption is being sent electronically to a 
VA-wide database. As metering is implemented, this data will allow VA 
energy engineers to validate billed consumption. It will also allow 
them to spot problems such as leaks and potential opportunities for 
energy efficiency improvements. VA is on track to meet mandated 
deadlines for metering implementation with electric metering by 2012, 
and other metering by 2016.
    VA is rolling out third-party utility bill data validation for all 
facilities nationwide, and is within 30 days of bringing the first 
stations online. It is anticipated that all stations will be ready to 
begin within the next 60 days. The third party will be entering billed 
consumption and cost into a database, and reviewing the data to ensure 
that the billing entity is using the applicable tariff/contract, and 
that there are no errors in billing calculations. The vendor will also 
be flagging unusually high billed consumption/costs, and monitoring 
periodically to ensure that the facility is on the most favorable rate 
schedule. The system is constructed so that no one except the vendor 
can address discrepancies and inaccuracies in the utility invoice or 
make changes to the database. Each modification to the data, whether 
instigated by the vendor or by the station, will be accompanied by a 
written, documented justification.
    Question 4: Please provide an analysis of cost differentials 
between new construction with and without green building practices, as 
well as estimate cost savings over the long term for new construction 
in energy and water consumption.
    Response: VA commissioned development of an Energy Reduction and 
Sustainable Design Guide to outline requirements for implementing 
energy efficiency and sustainability mandates contained in the Energy 
Policy Act of 2005, the Energy Independence and Security Act of 2007, 
and Executive Order 13423. As part of that effort, VA determined the 
cost of implementing these requirements would be an additional 7 
percent (not including renewable energy features). Subsequently, VA has 
added 7 percent to all new major project funding requests in FY 2009 
and beyond.
    VA has not yet completed construction of buildings that have been 
specifically designed to meet all of the Federal mandates. However, we 
have established goals for all FY 2009 projects and beyond to reduce 
energy usage by 30 percent and water by 20 percent, and to obtain LEED 
Silver certification. Specific operating data for energy and water 
savings is not yet available. However, based on extensive studies and 
life-cycle analysis on our most recent projects, we are confident that 
VA will see a significant savings when these facilities begin 
operations.
    Question 5: Please explain if there is a proposed employee 
incentive plan for rewarding VA employees for energy saving ideas. If 
not, please explain why something like that has not been developed to 
capitalize and reward those who work in the VA facilities every day and 
have frontline knowledge of potential savings?
    Response: Various individual VA facilities offer recognition and 
reward to employees for energy saving ideas and other suggestions for 
``going green.'' To promote awareness and education of energy and 
environmental impacts at the corporate level, VA recently launched the 
Green Routine. The Green Routine is a product of a working group of VA 
employees to promote a broad collection of ideas. Among other features, 
it includes a publicly accessible VA webpage, www.va.gov/greenroutine. 
We are working on developing an online forum for employees to share 
ideas and solutions that have worked for their facility. Since the 
launch of the webpage, VA's Office of Asset Enterprise Management has 
received numerous emails with ideas on energy saving and recycling 
techniques. We are reviewing these suggestions and the forum as a 
potential basis for a corporate-level incentive program. Plans are 
already under way to initiate a corporate-wide program to acknowledge 
Greening VA best practices, innovation, and initiatives at all levels 
of the organization.
    Question 6: Expert witnesses and leading experts in the industry 
state that having natural light and green space for patients reduces 
stress and facilitates a quicker recovery. Does the VA have any plans 
to try to incorporate these principles into their new construction? If 
so, how and if not, why?
    Response: VA has been incorporating such concepts into its 
facilities' designs for many years. VA has included, as part of our 
standard design practices, atria, patient green spaces, day lighting, 
indoor air quality, and other initiatives that significantly improve 
patient outcomes. Examples include the Detroit and Minneapolis VA 
medical centers constructed in the mid-1980s, and most recently the 
design of the new medical center in New Orleans. VA also keeps abreast 
of the latest environment-of-care literature and studies, and is 
updating its design criteria to ensure our facilities are state-of-the-
art and incorporate design concepts that significantly improve patient 
outcomes.
    Question 7: Bringing about culture change has always been a 
challenge for VA. With a majority of leadership at the VISN and 
facility level having a background in health care, how is the VA 
focusing these medical professionals on the importance of energy, fleet 
and environmental management as well as sustainability? Is there, or 
are there plans, to incorporate performance measures in the Executive 
Career Field Performance Plan for VISN Directors and Service Chiefs?
    Response: During FY 2009, VA implemented Network Director 
performance monitors related to energy and vehicle fleet management. 
For FY 2010, VA has added a monitor for environmental management 
performance. These monitors exist in addition to the Network Directors' 
performance plans and measures. For FY 2011, the responsible program 
offices will work with the Veterans Health Administration's Office of 
Quality and Performance to develop and implement performance measures 
in the Executive Career Field Performance Plans.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                   October 16, 2009

Gail Vittori
Chair, Executive Committee
U.S. Green Building Council
Co-Director, Center for Maximum
Potential Building Systems
2101 L Street, NW, Suite 500
Washington, DC 20037

Dear Ms. Vittori,

    During the September 30, 2009, full Committee hearing on Energy 
Efficiency at the U.S. Department of Veterans Affairs, I provided each 
of the witnesses in the first panel a summary of H.R. 292, and asked 
them to provide input into this bipartisan legislative initiative.
    I am writing to follow up on this request, and am providing you 
with a full copy of the legislation, as well as the bill summary and 
CBO preliminary estimate of the cost of implementation.
    It would be appreciated if you could provide your views by November 
13, 2009 on letter size paper, single spaced.
    Thank you for your cooperation in this matter. Your input is 
greatly appreciated.

            Sincerely,

                                                        Steve Buyer
                                          Ranking Republican Member
SB:dwc
Enclosures

                               __________

                               Memorandum
To:     Ranking Member Steve Buyer House Committee on Veterans' Affairs

From: Gail Vittori, Co-Director
       Center for Maximum Potential Building Systems
       Austin, TX

Date:  November 13, 2009

Re:     Comments on H.R. 292, Department of Veterans Affairs 
Sustainability Act of 2009--``To Improve energy and water efficiencies 
and conservation throughout the Department of Veterans Affairs, and for 
other purposes.''

     1.  Implement a comprehensive sustainability program

        <bullet>  Recommend define scope of ``comprehensive 
sustainability program''--is it comprehensive to view the totality of 
building operations, procurement/supply chain and dependencies (such as 
transportation) in a life cycle context?
        <bullet>  Present in context of a healing environment (perhaps 
better wording than ``. . .meeting the responsibilities of the 
Department)--should be viewed as ``both/and'' vs. ``either/or''--for 
example, minimizing consumption (such as water flow in nurse's sinks 
where they are trying to fill up a container actually don't benefit 
from low-flow since it adds significant time to their task).

     2.  Establish and maintain a database to track and report on 
energy and water expenditures.

        <bullet>  What is being measured? Direct use only or also 
looking upstream/downstream and at procurement/supply chain and 
dependencies for a broader view of energy/water footprints. For 
example, UK's National Health Service found that transportation was 18 
percent of carbon footprint, with direct energy use 22 percent.
        <bullet>  Recommend include energy and water sources, such as 
on-site renewables, captured rainwater and/or condensate; other 
graywater sources.
        <bullet>  Ensure have proper meters to gather energy and water 
data (NOTE: process water use is about 70 percent vs. 30 percent 
domestic/fixture water use). Proper metering should categorize energy 
and water end--use to understand patterns and provide hierarchical 
display from high to low.

     3.  Require annual audit of energy usage.

        <bullet>  As above, important to understand if this is intended 
to capture direct energy use only, or extend upstream and downstream.
        <bullet>  Should this also be an audit of water use, especially 
given the energy intensity of water?

     4.  Establish Office of Energy Management.

        <bullet>  Recommend reconsider this as Office of 
Sustainability, providing the context for a broader view of scope--or 
Energy Management and Sustainability as with the Advisory Committee in 
#5.
     5.  Create Advisory Committee on Energy Management and 
Sustainability

        <bullet>  No comment.

     6.  Ensure compliance with EO13423.

        <bullet>  Clarify whether the purpose of the bill is to ensure 
compliance or encourage industry best practices and leadership.

     7.  Report on use of funds to install fueling stations at 35 
medical facility campuses.

        <bullet>  No comment.
     8.  Submit plan to increase use and installation of energy 
efficient and renewable energy systems in Department buildings.

        <bullet>  Establish ROI/life cycle cost assessment basis 
recognizing investments can result in substantial operational cost 
savings.
        <bullet>  Add solar readiness for new buildings where economics 
may not support procurement
        <bullet>  Add water efficiency systems, esp. addressing process 
water use (70 percent of total hospital water use) and potential 
infection control concerns associated with water conserving fixtures 
and reclaimed water.
        <bullet>  Provide guidance on appropriateness of energy 
efficient and renewable energy systems based on climate zone, scale of 
building, etc.
        <bullet>  Include technologies such as displacement ventilation 
and natural ventilation than can have favorable energy performance 
outcomes.
        <bullet>  Note that most medical equipment does not have energy 
rating--EPA doing initial work but needs more money to accelerate to 
lead to Energy Star rating for major medical equipment. (NOTE that GGHC 
and LEED-HC has created a medical equipment efficiency credit that I 
believe is headed to Pilot Credit Library.)

     9.  Authorize use of electrical sub-metering of buildings.

        <bullet>  Recommend add water sub-metering; also consider 
measurement and verification for water, as with credit in draft LEED 
for Health Care and GGHC. Should controls be added as complementary 
element?

    10.  Ensure energy efficient products meeting VA requirements are 
purchased applicable to items that consume electricity.

        <bullet>  Note that most medical equipment does not have energy 
rating--EPA doing initial work but needs more money to accelerate to 
lead to Energy Star rating for major medical equipment. (NOTE that GGHC 
and LEED-HC has created a medical equipment efficiency credit that I 
believe is headed to Pilot Credit Library).
        <bullet>  Provide a roadmap to target the products that are 
biggest consumers of electricity to guide strategic procurement-biggest 
bang for the buck.

    11.  Grants up to $10,000 for Adaptive Housing to encourage use of 
high efficiency systems and products, and other energy reduction items.

        <bullet>  Recommend provide strategic guidance/ROI--i.e., 
relative benefit of investment in PVs, solar thermal, relamping, 
including correlating to climate zone.

    12.  Provide grants for adaptive vehicles to encourage purchase of 
alternative fuel vehicles.

        <bullet>  No comment.

    13.  Require study on water and energy consumption by National 
Cemetery Administration.

        <bullet>  Recommend guidance on how comprehensive--upstream/
downstream--and also diversify water sources, reuse strategies. Etc.

    14.  All VA to directly utilize expertise of National Laboratories 
re: energy and water efficient technologies.

        <bullet>  Track performance of systems once installed.

    15.  Authorize Secretary of VA to conduct pilot program for sale of 
air pollution emission reduction incentives and retain proceeds from 
sales.

        <bullet>  No comment.
                                 <F-dash>
                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                   October 16, 2009

Thomas W. Hicks
Executive Director
Building Performance Initiative
U.S. Green Building Council
2101 L Street, NW, Suite 500
Washington, DC 20037

Dear Mr. Hicks,

    During the September 30, 2009, full Committee hearing on Energy 
Efficiency at the U.S. Department of Veterans Affairs, I provided each 
of the witnesses in the first panel a summary of H.R. 292, and asked 
them to provide input into this bipartisan legislative initiative.
    I am writing to follow up on this request, and am providing you 
with a full copy of the legislation, as well as the bill summary and 
CBO preliminary estimate of the cost of implementation.
    It would be appreciated if you could provide your views by November 
13, 2009 on letter size paper, single spaced.
    Thank you for your cooperation in this matter. Your input is 
greatly appreciated.

            Sincerely,

                                                        Steve Buyer
                                          Ranking Republican Member
    SB:dwc
    Enclosures

                               __________


                                        U.S. Green Building Council
                                                    Washington, DC.
                                                   November 9, 2009

Ranking Member Steve Buyer
House Committee on Veterans' Affairs
335 Cannon House Office Building
Washington, D.C. 20515

Ranking Member Buyer:

    Thank you for the opportunity to participate in the full committee 
hearing (``Energy Efficiency at the U.S. Department of Veterans 
Affairs'') on September 30, 2009 and thank you for the opportunity to 
have input on your legislation. Below are my comments on H.R. 292:
    Section 2: While tracking and reporting on energy and water 
expenditures is a good start, other areas should be included. Given the 
impact that employee and patient transportation can have on the overall 
energy and carbon footprint, VA should perform annual commuting surveys 
to better understand their energy footprint (and so that they can take 
positive steps to improve it). Performing an annual employee and 
patient satisfaction survey to understand the impacts that energy 
efficiency and green features are having would also be valuable.
    Section 3: Include water, commuting, and occupant satisfaction as 
well.
    Section 4: Establishing an office with the name ``Office of Energy 
Management'' too narrowly focuses the purview. Broadening the mission 
to incorporate wider sustainability goals would maximize the 
effectiveness of the office.
    Section 8: Under (b) specify green or vegetative roofs.
    Section 9: Adding requirements that the energy and water 
consumption on all buildings are individually metered, managed, and 
tracked on no less than a monthly basis would be beneficial.
    Section 10: Beyond energy efficient products, VA should also be 
utilizing products that are green, sustainable, no-VOC/low-VOC, 
recyclable, re-usable, and recycled.
    I hope you find these comments helpful in advancing more 
sustainable VA facilities. Please contact me if I can be of further 
assistance in this matter.

            Respectfully,

                                                    Thomas W. Hicks
                                        U.S. Green Building Council

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                   October 16, 2009

Ward Hubbell
President
The Green Building Initiative
2104 SE Morrison
Portland, OR 97214

Dear Mr. Hubbell,

    During the September 30, 2009, full Committee hearing on Energy 
Efficiency at the U.S. Department of Veterans Affairs, I provided each 
of the witnesses in the first panel a summary of H.R. 292, and asked 
them to provide input into this bipartisan legislative initiative.
    I am writing to follow up on this request, and am providing you 
with a full copy of the legislation, as well as the bill summary and 
CBO preliminary estimate of the cost of implementation.
    It would be appreciated if you could provide your views by November 
13, 2009 on letter size paper, single spaced.
    Thank you for your cooperation in this matter. Your input is 
greatly appreciated.

            Sincerely,

                                                        Steve Buyer
                                          Ranking Republican Member
SB:dwc
Enclosures

                               __________

                                               JSR Associates, Inc.
                                                 Ellicott City, MD.
                                                   October 21, 2009

Ranking Member Buyer
U.S. House of Representatives
Committee on Veterans' Affairs
One Hundred Eleventh Congress
335 Cannon House Office Building
Washington, DC 20515

RE:  Bill Summary: H.R. 292: Department of Veterans Affairs Energy 
Sustainability Act of 2009: To improve energy and water efficiencies 
and conservation throughout the Department of Veterans Affairs, and for 
other purposes.

Dear Ranking Member Buyer,

    Based upon your request during the testimony provided during the 
``Energy Efficiency at the U.S. Department of Veterans Affairs'' on 
September 30, 2009 at 10:00 am, the following comments/responses are 
provided regarding H.R. 292:

     1.  Direct the Secretary of Veterans Affairs to implement a 
comprehensive sustainability program throughout the Department of 
Veterans Affairs for the purpose of using resources in a manner that 
minimizes consumption and encourages the use of alternative sources of 
energy while still meeting the responsibilities of the Department.

        a.  Comments/Responses:

                  i.  For the VA Hospitals this is already in place 
                through the GEMS (Green Environmental Management 
                System) policy that is required for all of the VA 
                facilities.
                  ii.  This is staffed by a GEMS Coordinator (position 
                often includes more than the GEMS responsibility 
                depending upon the facility) working cooperatively with 
                the Energy Manager position.
                 iii.  Note that in recent Green Globes<SUP>TM</SUP> 
                assessments of VA hospitals, it has come to my 
                attention that the Energy Manager position is being 
                downgraded to a G11. This creates difficulty for the 
                VISN Energy Manager to fill these positions, and 
                maintain high quality personnel to sustain current 
                programming and improvements.

     2.  Direct the Secretary of Veterans Affairs to establish and 
maintain a database to track and report on energy and water 
expenditures by the Department of Veterans Affairs. The database would 
provide a baseline to compare changes in Department energy and water 
expenditures.

        a.  Comments/Responses:

                 i.  Hospitals have been tracking and documenting this 
                online within a VA database; minimally since FY2005.
                 ii.  However most hospitals have been tracking this 
                data from FY2003 or earlier.

     3.  Require an annual audit of energy usage by the Department of 
Veterans Affairs.

        a.  Comments/Responses:

                 i.  Most of the facilities that have been assessed for 
                Green Globes<SUP> TM</SUP> certification have conducted 
                or have planned an energy audit. Some facilities have 
                been conducting energy audits every 2 years. If this is 
                proposed for all facilities, this would require 
                appropriate funding at the local levels.
                 ii.  Note that with the Energy Managers in place, an 
                internal energy audit by existing staff is also 
                appropriate and may prove out to be more thorough than 
                a third part energy audit. Outside contractors would 
                only be available for short periods of time on the 
                site; whereas Energy Managers are on site on a 
                continual basis. Addition FTEs may be required for the 
                Energy Manager to complete an energy audit, but the 
                results could garner more complete information.

     4.  Establish an Office of Energy Management within the Department 
of Veterans Affairs under the direction of a Deputy Assistant 
Secretary, who would report to the Assistant Secretary for Management.

        a.  Comments/Responses:

                 i.  Currently there is a position of Energy Manager at 
                each VA site, as well as VISN level Energy Managers. 
                They also meet annually at the GovEnergy Conference, 
                which is held at various locations around the country 
                in August.

     5.  Create an Advisory Committee on Energy Management and 
Sustainability.

        a.  Comments/Responses: Recommendations for an Advisory 
Committee include the following individuals that I have worked with at 
different VA sites. All of the sites have exemplary staff that would be 
valuable on an Advisory Committee:

               i.  Mark Hudson, VISN 6 Energy Manager
              ii.  Rick Hart, Dallas Energy Manager
              iii.  Jeffrey Means, VISN 11 Energy Manager
              iv.  Frank Moran, Portland Facilities Supervisor
              v.  Jim McCarthy, Portland Boiler/Chiller Plant Foreman
             vi.  Jean Wroblewski, Milwaukee Food Service/Nutrition
             vii.  Frank Novitzki, Richmond Energy Manager
            viii.  Jean Parkinson, San Diego GEMS Coordinator
             ix.  Mark Sargent, Augusta Energy Manager
              x.  Raphael Ciano, West Palm GEMS Coordinator
             xi.  Michael Dobbins, Augusta GEMS Coordinator
            xii.  Gary D'Alessandro, Detroit Energy Manager
            xiii.  Mary Francis, Durham RN
            xiv.  In addition to the recommended disciplines listed 
        above, it is recommended that the overall structure of the 
        Committee include an interdisciplinary team: Food Service/
        Nutrition, EMS (including housekeeping), Nursing, Industrial 
        Hygiene, Infection Control, Biomedical Engineering, and Laundry 
        (if applicable) because all of these departments impact 
        sustainability and energy use directly. Specialty areas' staff; 
        such as those working in radiology and other energy intensive 
        use areas need to be aware of energy and water use goals when 
        selecting medical equipment; creating an opportunity for 
        discussion between the medical equipment specifiers and the 
        energy managers.

     6.  Ensure compliance with Presidential Executive Order 13423, on 
Energy Management within federal agencies, and Department of Veterans 
Affairs Directive 0055, which establish goals for energy efficiency and 
sustainability.

        a.  Comments/Responses:

                  i.  GEMS Policies are utilized as a basis for 
                Environmental Management Systems for each hospital. 
                GEMS directive includes reference to Presidential 
                Executive Order 13148 as well as Presidential Executive 
                Order 13423.
                 ii.  Energy Managers through the Green 
                Globes<SUP>TM</SUP> process are working toward 
                compliance of the Executive Orders.
                 iii.  Note that the percentages of energy savings 
                required needs to be assessed in conjunction with the 
                increase of patient and staff load; versus evaluating 
                as a simple percentage.
                 iv.  Another measurement that would be appropriate is 
                the Btu/square foot utilized as a better measurement 
                versus percentage of savings.

     7.  Require a report on the use of funds appropriated for 
``Construction, minor projects'' for the installation of fueling 
stations at 35 medical facility campuses under title II of the Military 
Construction and Veterans Affairs and related Agencies Appropriations 
Act, 2009 (division E of Public Law 110-329; 122 Stat. 3708)

        a.  Comments/Responses:

                 i.  None.

     8.  Require the Secretary to submit a plan to increase the use and 
installation of energy efficient and renewable energy systems in 
Department buildings, to include the use of:

        a.  Qualified solar technologies such as distributed amorphous, 
crystalline and nanophotovoltaic technologies systems, solar heating 
systems, solar cooling systems, solar hot water systems, solar lighting 
systems, and hybrid technologies that incorporate one or more of such 
systems;
        b.  Qualified energy efficient roof and building envelope 
systems;
        c.  Qualified wind technologies; and
        d.  Qualified biomass materials such as wood-based renewable 
fuels to be used for fueling boilers and heaters.
        e.  Authorize appropriations in the amount of $150,000,000 to 
carry out the installation of qualified systems.
        f.  Comments/Responses:

                  i.  Prior to completing expensive alternative and 
                renewable energy systems and pilots, consult with those 
                already working in the field (existing VA hospitals' 
                staff). For example, the return on investment (ROI) for 
                photovoltaic systems is not cost effective within the 
                constraints of current technology. Two sets of data are 
                available from the Dallas VA and the Loma Linda VA.
                 ii.  Include ground source heat pump systems as 
                acceptable alternative energy systems; as a practical 
                cost and energy savings opportunity.
                 iii.  Include green roofs as acceptable portions of 
                alternative energy systems; as they reduce heat island 
                effect as well as provide potential site amenity for 
                Veterans and families.
                 iv.  Include the utilization of thermal imaging as a 
                funded means for evaluation of building envelope 
                systems. This would assist facilities in not only 
                identifying energy needs, but also necessary repairs; 
                such as sealing the envelope, replacement of energy 
                saving windows and doors, and identifying issues with 
                roofs. All these items contribute to energy savings.

     9.  Authorize the use of electrical sub-metering of buildings on 
the Department of Veteran Affairs.

        a.  Comments/Responses:

                 i.  For 2010, VACO has in place a submetering project 
                for all VA hospitals. The submetering includes any 
                buildings 50,000 square feet or larger and higher 
                energy user areas; such as MRI, surgery, research labs, 
                etc. This initiative includes not only metering 
                electricity, but also water and gas metering.
                 ii.  Note that the Dallas VAMC does include 
                submetering, which was installed locally by the Energy 
                Manager and staff.

    10.  Direct the Secretary of Veterans Affairs to ensure, to the 
maximum extent practicable that energy efficient products meeting the 
requirements of the Department of Veterans Affairs are purchased 
whenever the Department purchases items that consume electricity. In 
determining the energy efficiency of products, the Secretary would be 
required to consider products that:

        a.  Meet or exceed Energy Star specifications; or
        b.  Are listed on the Federal Energy Management Program Product 
Energy Efficiency Recommendations product list of the Department of 
Energy.
        c.  Comments/Responses:

                 i.  This is included in the Purchasing Policy included 
                within the GEMS Policies and Procedures for setting up 
                GEMS Policies for VA hospitals. Some hospitals have 
                Purchasing Policies in place and others are in 
                progress, but they are required by the overall VACO 
                GEMS policy requirements to include energy savings 
                equipment.

                    1.  Depending upon the VA Facility, the Energy 
                Managers have some input on specifications of medical 
                and other equipment purchases, but this is not 
                consistent. Obviously, patient safety and care can not 
                be compromised, but in order to make sure that the 
                Energy Manager has an opportunity for input on 
                equipment; it would have to be required within the sign 
                off process.
                    2.  Some VA hospitals have worked with 
                Acquisitions/Contracting to include a sign off line by 
                the Energy Manager on purchase requests; so that 
                evaluation and recommendations are taking place. Often 
                recommendations, in addition to verifying the 
                specification for energy savings and alternatives, will 
                also head off issues with having the appropriate power 
                supply available for a specific piece of equipment.

                 ii.  Further recommend that NSF, Energy Star/FEMP, and 
                VA work together to evaluate commercial kitchen 
                equipment for energy compliance and ratings.

    11.  Provide grants up to $10,000 for Adaptive Housing to encourage 
use of high efficiency systems and products, and other energy reduction 
items.

        a.  Comments/Responses

                 i.  None.

    12.  Provide grants for adaptive vehicles to encourage purchase of 
alternative fuel vehicles for eligible individuals under section 3902 
(a) of title 38, United States Code.

        a.  Comments/Responses

                 i.  None.

    13.  Require a study on water and energy consumption by the 
National Cemetery Administration.

        a.  Comments/Responses

                 i.  None.

    14.  Allow the Department of Veterans Affairs to directly utilize 
the expertise of the National Laboratories regarding energy and water 
efficient technologies.

        a.  Comments/Responses

                 i.  Note that Augusta VA has had a complete assessment 
                through the National Renewable Energy Lab (NREL) that 
                has provided baseline data for energy projects, 
                decision making, and prioritization of projects on 
                their site.

    15.  Authorize the Secretary of Veterans Affairs to conduct a pilot 
program for the sale of air pollution emission reduction incentives 
(also known as emission reduction credits or ERCs) and retain the 
proceeds from the sales.

        a.  Comments/Responses

                 i.  In addition to ``retaining the proceeds from the 
                sales''; recommend ``retaining the proceeds and 
                directing the funds to the GEMS program and/or Energy 
                Management budget''. This would make sure that the 
                funds that are retained are not placed into a general 
                fund versus for utilization by GEMS Committee and 
                Energy Manager. Currently savings that are made through 
                GEMS and Energy Projects do not come back to the 
                departments to make further improvements.

    16.  General Funding Comments:

        a.  Comments/Responses

                 i.  It is recommended to streamline the funding 
                processes. The following is an example of good planning 
                for energy projects, but funding processes holding up 
                the implementation.

                          In reviewing the Seattle VA Hospital, the 
                        list of all of their energy improvements is 
                        tied to an ESPC (Energy Savings Performance 
                        Contract). Acquisitions wanted to revise the 
                        ESPC, and as a result the rewrite has prevented 
                        the Seattle plans to be completed. The contract 
                        has been held up for 2 years. In the meantime, 
                        other available funding within the Seattle VA 
                        was re-directed to other projects identified in 
                        fiscal year budgets; in anticipation of the 
                        ESPC being approved. As a result none of the 
                        energy projects have been completed; although 
                        the planning has been in place for over 2 
                        years.

    Thank you for the opportunity to comment on H.R. 292: Department of 
Veterans Affairs Energy Sustainability Act of 2009. If I can be of 
further assistance please contact me directly at (410) 4617763 (O), 
(410) 978-2112 (C), or by email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b4ded5dad1f4dec7c6d5c7c7dbd7ddd5c0d1c79adad1c09a">[email&#160;protected]</a>

            Respectively Submitted,

                    Jane M. Rohde, AIA, FIIDA, ACHA, AAHID, LEED AP
                                                          Principal

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                   October 16, 2009

James L. Hoff, DBA
Research Director
Center for Environmental Innovation in Roofing
816 Connecticut Avenue, NW, Fifth Floor
Washington, DC 20006

Dear Mr. Hoff,

    During the September 30, 2009, full Committee hearing on Energy 
Efficiency at the U.S. Department of Veterans Affairs, I provided each 
of the witnesses in the first panel a summary of H.R. 292, and asked 
them to provide input into this bipartisan legislative initiative.
    I am writing to follow up on this request, and am providing you 
with a full copy of the legislation, as well as the bill summary and 
CBO preliminary estimate of the cost of implementation.
    It would be appreciated if you could provide your views by November 
13, 2009 on letter size paper, single spaced.
    Thank you for your cooperation in this matter. Your input is 
greatly appreciated.

            Sincerely,

                                                        Steve Buyer
                                          Ranking Republican Member
SB:dwc
Enclosures

                               __________

                     Center for Environmental Innovation in Roofing
                                                    Washington, DC.
                                                   February 1, 2010

Hon. Steven Buyer
Ranking Republican Member
United States House of Representatives
Committee on Veterans' Affairs
335 Cannon Office Building
Washington, DC 20515

Reference:  H.R. 292 Department of Veterans Affairs Energy 
Sustainability Act of 2009

Dear Representative Buyer:

    Thank you again for the opportunity for the Center for 
Environmental Innovation in Roofing to testify before the Committee on 
Veterans' Affairs as part of the September 30, 2009 hearing regarding 
energy efficiency at the U.S. Department of Veterans Affairs. And thank 
you for your request for comments regarding H.R. 292.
    As a research and advocacy organization representing roofing 
manufacturers and roofing contractors across the country, we are very 
encouraged by the bipartisan support for H.R. 292, and we have asked 
our members to offer their comments and support to their Congressional 
Representatives.
    We are particularly encouraged by the provisions of section 9 of 
H.R. 292, which calls for the Secretary of Veterans' Affairs to submit 
to Congress a detailed plan for increasing the use of energy efficient 
and renewable energy technologies in VA facilities and operations, 
including the provision for qualified energy efficient roofing systems.
    The Green Buildings Action Plan as currently published by the 
Department of Veteran's Affairs, establishes an overall improvement 
target for building energy efficiency, with special emphasis on new 
building construction and major renovation. However, many roofing 
projects, especially the re-roofing of existing Department facilities, 
fall outside new building or major renovation activities. As a result, 
there may be some confusion as to how the energy improvement target 
should be applied to roofing-only projects. The provisions of section 9 
of H.R. 292 will remove this potential confusion and help assure that 
the Department of Veteran's Affairs develops a comprehensive energy 
efficiency plan incorporating proper consideration for the importance 
of roofing systems--both new and existing--at all Veterans Affairs' 
facilities.
    Again, thank you for the opportunity to provide testimony at the 
September 30, 2009 hearing and for your consideration of our comments 
regarding H.R. 292. Please do not hesitate to call on us if you have 
any questions or require additional information.

            Yours very truly,

                                                 James L. Hoff, DBA
                                                  Research Director
JLH/jh

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
